<html>
<title> - CURRENT ARMY ISSUES</title>
<body><pre>[Senate Hearing 108-655]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-655
 
                          CURRENT ARMY ISSUES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2003

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
96-502 PDF                 WASHINGTON DC:  2004
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                          Current Army Issues

                           november 19, 2003

                                                                   Page

Brownlee, Hon. Les, Acting Secretary of the Army.................     5
Schoomaker, Gen. Peter J., USA, Chief of Staff, United States 
  Army...........................................................     8

                                 (iii)


                          CURRENT ARMY ISSUES

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:09 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Levin, Kennedy, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; Cindy Pearson, assistant chief clerk and security 
manager; and Kenneth Barbee, security clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; 
William C. Greenwalt, professional staff member; Ambrose R. 
Hock, professional staff member; Gregory T. Kiley, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; and Richard F. 
Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; and Gerald J. Leeling, minority counsel.
    Staff assistants present: Leah C. Brewer, Andrew Kent, and 
Nicholas W. West.
    Committee members' assistants present: Dan Twining, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren Dick, assistant to Senator Roberts; 
Jayson Roehl, assistant to Senator Allard; Arch Galloway II, 
assistant to Senator Sessions; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Meredith Moseley, assistant to Senator 
Graham; Christine O. Hill, assistant to Senator Dole; Russell 
J. Thomasson, assistant to Senator Cornyn; Mieke Y. Eoyang, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi, assistant to Senator Akaka; William K. 
Sutey, assistant to Senator Bill Nelson; Eric Pierce, assistant 
to Senator Ben Nelson; Rashid Hallaway, assistant to Senator 
Bayh; Andrew Shapiro, assistant to Senator Clinton; and Terri 
Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee 
meets today to receive testimony on current and future Army 
issues, particularly with regard to the ongoing operations in 
Iraq and Afghanistan, and in general in the overall global war 
on terrorism.
    We welcome back before the committee the Honorable Les 
Brownlee, Acting Secretary of the Army, Under Secretary 
permanent, and General Peter Schoomaker, Chief of Staff of the 
United States Army. We look forward to your testimony.
    I have known both of you for many years and I cannot think 
of a better Army team, civilian and military, at any time in 
contemporary history than the two of you. Each of you have come 
up through the ranks in the United States Army. Each of you has 
experienced the rigors of command, the rigors of combat, and 
both possess the ability to lead your people and care for their 
families. So as a Nation I express our gratitude.
    Today's Army has an enormous requirement to provide forces 
for ongoing military operations around the world: over 150,000 
soldiers in the Persian Gulf region, over 10,000 in 
Afghanistan, 5,000 in the Balkans, and the usual number of 
around 30,000 in South Korea. This is the greatest army in the 
world.
    I listened to the President of the United States delivering 
a very significant and major address in Great Britain this 
morning, in which he expressed the absolute resolve to fulfill 
the commitments of this Nation and the other nations that have 
joined us, notably Great Britain, in the war on terrorism. It 
seems that the bulk of the responsibility, understandably I 
think, falls on the United States Army.
    So we are here for the purpose this morning of working with 
you to see what we can do here in Congress, and to learn from 
you how you intend, through your individual and combined 
leadership, to provide for these forces now and in the future 
to meet adversity wherever it is in the world.
    In mid-October of this year, the Stars and Stripes 
newspaper ran a series of articles about the morale of soldiers 
and living conditions in Iraq. Overall, the poll indicated that 
most soldiers surveyed felt unit morale and their own morale 
was average or better, and most felt living conditions in Iraq 
were average or better. Of note, however, Reserve and National 
Guard soldiers rated unit and individual morale somewhat lower 
than their active duty brothers. I say brothers and sisters 
because it is a total force, and it is a magnificent force in 
the fact that they do have the strength of the Guard and 
Reserve.
    Also, the polling indicated less than full confidence in 
the chain of command, and that is somewhat disturbing, and I am 
sure you have some responses to that today. The poll drew 
attention to the large percentage, 49 percent, of the soldiers 
who will likely not reenlist.
    Finally, the article raised issues concerning the equitable 
availability of services such as mail, PX facilities, email, 
and phones, as well as different standards between the Army and 
the Air Force. I actually saw that when I was over there with 
my distinguished colleague here. I remember at that time 
indicating that I felt that corrective measures had to be 
taken.
    Now, military service is an arduous task. It is not risk-
free and it is very demanding, not only of those in uniform but 
their families, and each of you know this very well. Throughout 
history, from the time of George Washington's Continental Army 
to today, and I will bet you into the future, there is always a 
level of griping in the ranks. We have known that. It is part 
of military life. There is griping in civilian life. I do not 
know how you compare the levels.
    But in this instance the level of griping raises some 
alarms. We will learn from you today exactly what corrective 
measures you have taken and how you have examined the root 
causes and hopefully eliminated some of those problems.
    These polls are perhaps not scientific. These articles do 
raise some questions about the stress on the force, the morale 
and retention, and ultimately recruiting, and that of their 
families. So we look forward to your assessments.
    In October the Army Center for Lessons Learned at Fort 
Leavenworth published, to the surprise I think of all of us, an 
unusually frank assessment, an unclassified assessment, of 
shortfalls in performance of Army units in Iraq and Afghanistan 
in the key areas of tactical intelligence, human intelligence, 
unmanned aerial vehicle (UAV) operations, fire support, and 
targeting.
    One of the strengths of our Armed Forces is the willingness 
to turn a critical eye on yourselves, and we have done that 
throughout history, identifying those problems and doing what 
we can to fix them. We are very proud of this Army. We are very 
proud of your ability and your professional judgment to address 
these problems.
    Additionally, there have been recent revelations about the 
ability of prompt health care and living conditions for those 
placed on medical hold, primarily members of the Reserve 
component, in preparation for deployment. The issue came to 
light in press reports of dissatisfaction and poor living 
conditions at Fort Stewart, Georgia. Secretary Brownlee, I 
commend you and the Chief and others who went down there very 
promptly to examine that situation. So we look forward to 
listening to your report today.
    Again, the Army has been tasked with the bulk of the 
responsibility for stability operations and civil affairs and 
peacekeeping operations in Iraq and Afghanistan. The scope of 
these responsibilities is very large and it is very complex. 
The demands on the Army units will continue to be high. We need 
only listen to our President's speech this morning.
    The rotation plans reflect careful, pragmatic planning, I 
hope, to replace these units. Questions remain, however, about 
how long such rotation plans can be sustained and what the 
long-term impact will be on the Army units, especially in the 
Reserve component, the readiness of the Army to respond to 
unforeseen contingency and surge requirements.
    Finally, questions have been raised about whether the best 
equipment is being provided to our deployed forces. Therein, 
Congress has a very special role. Both active and Reserve are 
forwarding complaints to Congress. For example, do deployed 
soldiers have the best possible body armor and adequate body 
armor, and is there a need for the so-called up-armored high-
mobility multipurpose wheeled vehicles (HMMWV) to provide our 
soldiers with the best protection possible?
    The recent shootdowns of Army helicopters--a tragic loss of 
men and women. Secretary Brownlee, you and I have been out 
there at Arlington Cemetery. I was out again this week as these 
brave soldiers are interred in that magnificent cemetery. What 
about the protection on these aircraft? I think we have to go 
back and examine the decisionmaking and whether or not we could 
have seen this problem before it developed to the magnitude 
that we are facing today, certainly in the question of unit 
body armor and of course with the helicopters, because that is 
not a battle zone that some of us have experienced in years 
past, where the rear echelon has a far higher degree of 
protection. There is no rear echelon in Iraq or Afghanistan. It 
is all a battle front.
    The success of the Army in recent military operations is 
indisputable. The men and women of the Army and their families 
have performed magnificently. Now it is our job to do what we 
can to see if we can help them.
    This hearing is part of a larger undertaking that this 
committee will pursue to fully understand the lessons learned 
by all the military Services and the combatant commands during 
the conduct of recent military operations. We owe that to our 
men and women in uniform and to their families and to the 
American people. I am proud that we are undertaking that today 
with two of our most distinguished current members of the 
military team.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, and thank you for 
calling this important hearing. I join you in welcoming our two 
witnesses, both of whom are very familiar to us.
    Last week, I visited five wounded soldiers from Iraq at the 
Walter Reed Army Hospital. Two are from my home State of 
Michigan, the rest from other States. Two were members of the 
active Army, the others from the Army National Guard. Three of 
them were amputees. To the person, they were extremely proud of 
their service in Iraq and united in their love of our country. 
I have not met a finer group of Americans.
    One of the wounded soldiers, a staff sergeant who lost a 
leg, has already decided that he wants to continue in the Army. 
I know that the Army in the past has retained amputees on 
active duty. At least two of them have continued on to four-
star rank: General Eric Shinseki, of course, who served as Army 
Chief of Staff; and General Fred Franks, who commanded a corps 
in Operation Desert Storm. Secretary Brownlee and General 
Schoomaker, I ask that you do all that you can to retain such 
soldiers, who, though severely wounded, want to continue to 
serve in the Army that they love. Who knows; we may have a 
future corps commander or Army chief of staff among those 
wounded soldiers.
    The dedicated, motivated, well-trained, and led soldiers of 
the U.S. Army are its prized assets and, much more than its 
high technology weapons, are what sets that Army far above 
other armies of the world. We have a sacred duty to ensure that 
we, the leaders of the Army, the leaders of the Department of 
Defense (DOD), and Members of Congress, work together to do all 
that we possibly can to provide for their welfare, including 
medical care for those who are recovering from injury or 
sickness, including our troops being paid on time, including 
the best equipment in the world, such as the body armor and the 
aircraft protection issues that were raised by our chairman, 
and of course the best training, so that they can accomplish 
their missions and return home to their families.
    As General Schoomaker has testified in the past, we are at 
war and the Army is bearing the brunt of it, especially in the 
counterinsurgency and stability operations currently being 
conducted in Iraq and Afghanistan. The Army's planning and 
execution of the conventional phase of the war in Iraq was 
exceptional. The current phase of the war is far more 
problematic, but just as important.
    Even those of us who have been critical of the way the 
administration took the country to war in Iraq with inadequate 
international support and even those of us who are critical of 
the administration for a lack of planning for the aftermath, we 
believe, along with those who are totally supportive, that the 
stakes are much too high for our Nation's security and for 
international security to countenance failure. We must succeed 
in Iraq.
    The Army has been and will continue to play the central 
role in dealing with the current chaos and violence and 
transitioning to a hopefully swift and greater international 
involvement and true transition to Iraqi sovereignty.
    We have a host of personnel, equipment, and operational 
issues to address in this hearing. The Army, in its own after-
action reviews, tries to compare its performance against the 
standard of perfection, as our chairman has said, realizing 
that we will never attain that standard, but that in doing so 
it will improve performance immeasurably. That is the spirit of 
our being here this morning. We need to determine where we are 
falling short of that standard and determine what we need to do 
to get as close as humanly possible to that standard should the 
next conflict come.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Members of the committee, we are going to have at least one 
round of questions, 6 minutes each. But the ranking member and 
I are very anxious to adjourn and go into room SH-219 for our 
classified portion of this hearing. So we will have to evaluate 
as time permits whether we can get to a second round. But I 
should hope that you can arrange your schedules so as to attend 
the classified session.
    Secretary Brownlee, we welcome you. For those that may not 
know of your background in connection with the Senate, 17 years 
of your distinguished career have been devoted to the United 
States Senate. You were once staff director of the Armed 
Services Committee under the able leadership of Senator Strom 
Thurmond and then under myself.
    Please proceed.

  STATEMENT OF HON. LES BROWNLEE, ACTING SECRETARY OF THE ARMY

    Secretary Brownlee. Mr. Chairman and distinguished members 
of the committee: I appreciate the opportunity to appear before 
you today to testify on the tremendous accomplishments of our 
soldiers and the progress they are making in Iraq. With your 
permission, Mr. Chairman, I would like to submit our full joint 
statement for the record.
    Chairman Warner. Without objection.
    Secretary Brownlee. On behalf of our great soldiers who are 
serving our country around the world, let me begin by 
expressing gratitude for the exceptional support that the 
members of this committee have provided to our soldiers and 
their families as well. I know that you are deeply interested 
in the great work our soldiers are doing, their attitudes, how 
they are trained and equipped, and how those with medical 
issues are being cared for.
    I was in Iraq in June and returned again in late September. 
I had the opportunity to speak with commanders and soldiers at 
several levels and have regular contact with senior Army 
leaders in theater, and am grateful to have the opportunity to 
share what I have learned with you.
    We appreciate the service and the enormous sacrifice made 
by our soldiers and their families as we meet the challenges 
and risks of this war on terrorism, with its current higher 
operational tempo (OPTEMPO) and frequent extended deployments. 
As President Bush recently stated: ``Our men and women are 
fighting terrorist enemies thousands of miles away in the heart 
and center of their power, so that we do not face those enemies 
in the heart of America.''
    One fact is clear: The Army is at war and is serving a 
Nation at war. In this, the dedicated service of the Army's 
total force has been invaluable. The steady progress in the war 
on terrorism has been possible because both active and Reserve 
component forces have fought together, along with our sister 
Services, to win decisively on battlefields where terrorists 
once flourished. I would like to pay special tribute to members 
of our Reserve components and their families and employers as 
well for their service and sacrifice.
    Now we are engaged in bringing peace to both Afghanistan 
and Iraq and creating an environment where democracy can take 
root. In Iraq, President Bush has identified three primary 
objectives, to which we remain committed: First, we must 
improve security by aggressively hunting down the terrorists 
who are attempting to undermine progress for the Iraqi people; 
second, we must work with the international community and the 
Iraqi people to rebuild Iraq, restore basic services, and 
revitalize the Iraqi economy; and third, we must support 
efforts to accelerate the orderly transfer of sovereignty and 
authority to the Iraqi people.
    Our soldiers understand this mission and their commitment 
to getting the job done is having an extraordinarily positive 
effect on the people of Iraq. It is difficult to convey just 
how bad things were in Iraq when our forces liberated their 
country this past summer. Yet the vast human potential of the 
Iraqi people themselves was still there, along with their 
country's great natural resources, which will in time help them 
recover from the damage Saddam Hussein inflicted on them.
    During visits to Iraq, I have witnessed the magnificent 
performance of our troops and, as many of you have also 
observed, we are making progress.
    On behalf of the United States Army, thank you for your 
interest and your efforts. We very much appreciate those of you 
who have taken the time to visit our soldiers there.
    The end of fast-paced mobile operations has given our 
supply system time to catch up with our units. Taking care of 
our soldiers is of the utmost importance to the Army. In 
September soldiers began taking advantage of the Rest and 
Recuperation Leave Program.
    We are moving to meet the combatant commanders' 
requirements for both up-armored HMMWVs and Interceptor Body 
Armor. We are boosting current production to the maximum rate 
the industrial base is capable of and production is fully 
funded at the rate of 25,000 outer tactical vests and small 
arms protective inserts per month. At currently planned rates 
of production, we will have all our troops in Iraq fitted with 
Interceptor Body Armor by the end of December. We owe it to our 
soldiers to care for them to the very best of our ability.
    Events since the end of major combat operations in Iraq 
have differed from our expectations and have combined to cause 
problems, including those at some mobilization sites, for some 
of our soldiers, problems we have identified and are moving to 
fix.
    Our soldiers must continue to attack and eliminate 
remaining anti-coalition forces in Iraq and establish a secure 
environment. The magnitude of the effort is substantial, but 
our soldiers are performing as the professionals they are, with 
skill, courage, and dedication. It will take time and the Army, 
as part of the joint team, will bear the brunt of the fight.
    The OPTEMPO is high and so is the pressure. We are in a 
dangerous business. Our men and women and their families 
recognize the obligations that come with the uniform and they 
have not flinched. Like many of you, I have visited with many 
of them at Walter Reed Army Medical Center. Without exception, 
they have impressed me deeply with their spirit, their 
dedication to duty and their units, and their abiding faith in 
the United States. They understand that freedom is not free, 
but is the most precious thing we possess. They are American 
soldiers in the finest tradition.
    Despite remarkable successes, our fight is far from over. 
Our enemies are committed and believe we lack the resolve to 
win the peace in Iraq. I can assure you that this is not true. 
I have seen it in our soldiers' eyes and heard the 
determination in their voices.
    In closing, I would like to take this opportunity to thank 
this committee for the opportunity to appear before you today 
along with our 35th Chief of Staff, a truly great soldier and a 
genuine warrior in every sense of the word. It is an honor for 
me to work alongside this great American each day on behalf of 
our soldiers around the globe. We are truly fortunate that 
General Schoomaker answered his Nation's call during this war, 
making the difficult decision to leave a comfortable retirement 
and far less stressful environment to rejoin our Army.
    I might mention that General Schoomaker and I are both 
graduates of the University of Wyoming and we are proud of 
that.
    Mr. Chairman, thank you and the members of this 
distinguished committee for your continued support for the men 
and women in our Army, an Army that is at war and a full member 
of the joint team deployed in Iraq, Afghanistan, and around the 
world fighting terrorism. I look forward to answering your 
questions, sir.
    Chairman Warner. Thank you, Secretary Brownlee. I had 
intended to introduce this distinguished Chief of Staff of the 
Army, but I could not do it any better than you. So I will just 
say: Thank you for your continued public service and to your 
family for joining you. General.

  STATEMENT OF GEN. PETER J. SCHOOMAKER, USA, CHIEF OF STAFF, 
                       UNITED STATES ARMY

    General Schoomaker. Thank you, sir. Good morning, Mr. 
Chairman and distinguished members of the committee. It is a 
pleasure to appear before you today and to tell you about the 
tremendous work our soldiers are doing as they accomplish our 
Nation's business around the world.
    With your permission, I would like to submit, along with 
the Honorable Mr. Brownlee, our full statement for the record.
    Chairman Warner. Without objection.
    General Schoomaker. I would like to begin, as Secretary 
Brownlee has, by thanking each of you for your tremendous 
support. You have shown our men and women tremendous support 
over the recent months during this difficult time for the Army. 
I have been impressed by the willingness many of you have shown 
to visit our soldiers overseas, to visit our wounded soldiers 
at medical centers here in the United States and in Landstuhl, 
Germany, and to use these visits to inform legislation and 
resourcing levels.
    The news reports seem content to highlight the differences 
among you, but I am proud of what you have accomplished 
together for our soldiers.
    From passage of the fiscal year 2004 appropriations bill 
and the supplemental, to this committee's ongoing efforts to 
complete the conference action on the authorization bill, you 
have provided to the world an example of democracy in action, 
an example of what we are fighting for. Thank you for your 
support.
    Today our Nation is at war, and the Army is a critical 
member of a joint team serving our Nation at war. Some do not 
realize, in my opinion, the gravity of the situation that we 
face, and some may have even forgotten the events of September 
11. We are not immune from another attack here at home. We are 
at war now out of necessity, and I would like to stress, this 
is a test of will, a test of will we cannot afford to lose.
    We find ourselves in extraordinary times as our Army serves 
our Nation at war. As you all know, we have been on an 
operational treadmill for quite some time, actually since about 
1989. It is hard to recall a time in history, with the 
exception of World War II, when we have been busier. But being 
busy is different from being at war.
    There is no question that the pace of our Nation at war 
challenges our Army. We have more than 300,000 soldiers 
deployed in about 120 countries, supporting various operations. 
We continue to meet these challenges with a seamless commitment 
of active, Reserve, and National Guard soldiers and civilians, 
who continue to give so selflessly to our great Nation. 
Soldiers like Specialist Tillman, who gave up an $11 million 
football contract to enlist and now serve in Iraq. Specialist 
Tillman gets it. He knows why he is there and exemplifies the 
kinds of service all of our soldiers are willing to make for 
our Nation.
    This is the first time since World War II that we have 
deployed soldiers in harm's way directly for the American 
people. Previously we deployed our soldiers to help somebody 
else during their time of need. Our soldiers understand this.
    Since being sworn in as the Army Chief of Staff on the 1st 
of August, we have traveled around the world to the Middle 
East, Asia, the Pacific Rim, and Alaska to be with our 
soldiers. Within the last 30 days, we traveled to Kosovo, where 
I met with members of the 28th Infantry--the 28th Division out 
of Pennsylvania Army National Guard; and to Bosnia, meeting 
with the membership and the leadership of the 34th Division 
Army National Guard out of Minnesota; and to Europe, meeting 
with General Bell and the soldiers that are preparing to go to 
Iraq on this next rotation out of the 1st Infantry Division. I 
am proud to report to you that in each of these places skilled, 
trained, and ready soldiers are performing magnificently.
    I have also had the opportunity to meet with 71 of my Army 
chief of staff counterparts from other countries since the 1st 
of August, and I have explained to each of them the seriousness 
of the war on terror and have enlisted their continued support 
in the fight against terror.
    Around the world, our soldiers perform with determination, 
skill, and courage. As I have stated before, the American 
soldier has been and remains indispensable. Our soldiers, 
civilians, and their families set the standard every day for 
selfless service. Today's soldiers accept their 
responsibilities and perform every task and mission asked of 
them, just as their parents and grandparents have done before 
them.
    But while our soldiers are carrying on the legacy of 
earlier generations of American soldiers, this is a different 
kind of war. This is not easy and we cannot approach it as if 
it were business as usual. This state of war requires us to 
challenge old paradigms, to be more flexible and adaptable. 
Over the course of the last 26 months, our soldiers have proven 
that they are up to any task. They are smart, morale is solid, 
and, having recently spent time with the 41st Infantry at Fort 
Riley, who just returned from duty in Iraq, to a man they are 
proud of their service and what they accomplished. They 
understand why we are deployed in places that we are. They know 
why we are there.
    There is an intensity of focus and a dogged determination 
to succeed that is absolutely extraordinary. We must never lose 
sight of the fact that it is our soldiers that put it all on 
the line and we will do everything in our power to prepare for 
the challenge that they will face in battle. In return, we owe 
them our very best, and I am really proud to serve with them.
    I would like to, at this time, read The Soldier's Creed, 
because I think it is absolutely imperative that it is right up 
front for the American people and for the American soldier. 
Inside of this creed is a warrior ethos. It says:

          ``I am an American soldier. I am a warrior and a 
        member of a team. I serve the people of the United 
        States and live the Army values.''
        These next four statements are the warrior ethos. This 
        is what an army is about: ``I will always place the 
        mission first. I will never accept defeat. I will never 
        quit. I will never leave a fallen comrade. I am 
        disciplined physically and mentally tough, trained and 
        proficient in my warrior task and drills. I always 
        maintain my arms, my equipment, and myself. I am an 
        expert and I am a professional. I stand ready to 
        deploy, engage, and destroy the enemies of the United 
        States in close combat. I am a guardian of freedom and 
        the American way of life. I am an American soldier.''

    I just thought that was appropriate as part of my opening 
statement because it is very important that we remember what 
the American Army is for and what we are as soldiers.
    In closing, I would like to take this opportunity to thank 
this committee for the opportunity to appear before you today 
and for your continued support for the men and women of our 
Army, deployed in Iraq, Afghanistan, and throughout the world. 
Our Nation asks much of our Army and I am confident that we 
will deliver. As a soldier, I know we have the will, the 
determination, and the drive to master the challenges facing 
us. I look forward to answering your questions.
    Thank you.
    [The joint prepared statement of Secretary Brownlee and 
General Schoomaker follows:]

    Joint Prepared Statement by Hon. Les Brownlee and Gen. Peter J. 
                            Schoomaker, USA

    Mr. Chairman and distinguished members of the committee, we 
appreciate the opportunity to come before you today and testify on the 
tremendous accomplishments of our soldiers and the great progress they 
are making in ``winning the peace'' in Iraq. On behalf of the soldiers 
who are serving our country around the world, let us begin by 
expressing gratitude for the exceptional support that you have provided 
to our soldiers and their families.
    We have been asked to talk about the great work our soldiers are 
doing, their attitudes, their training and equipping, and how those 
with medical issues are being taken care of. We have both been in Iraq 
in recent months. During those visits, we had the opportunity to speak 
face to face with commanders and soldiers at every level. Also, 
although our deployed soldiers are under the operational control of the 
Combatant Commander, U.S. Central Command (CENTCOM), senior Army 
leaders in the Pentagon communicate routinely with senior Army 
commanders in the field. We are grateful to have the opportunity today 
to share with you our perceptions of our Army at war.
    We appreciate the service and the enormous sacrifice made by our 
soldiers and their families as we meet the challenges and risks posed 
by the war on terror, with the current higher operational tempo 
(OPTEMPO) and frequent, extended deployments. We would also like to 
highlight the invaluable contributions of our Reserve components and 
their employers.
    Against this magnificent performance by our soldiers over the last 
26 months, we must express a word of caution. We are an Army at war, 
serving the Nation at war, but we are concerned that all too many, 
across the Nation as well as within the Army, do not understand the 
implications of being at war. Americans have been killed here at home 
by terrorists, who will try again; the events of September 11, 2001, 
may presage another attack in the future. The resources Congress has 
given us, and the work it has done in informing the American people of 
what we are doing, and why, are critical to our successes to date.
    We must all understand and communicate to our fellow citizens some 
key facts about the global war on terror. This war differs in 
significant ways from the conventional paradigm that many associate 
with World War II, the threat to the survival of our Nation and our way 
of life are at least of the same magnitude. In fact, because of the 
destructive power that can be unleashed by small numbers of people and 
the potentially devastating informational effects of major terrorist 
acts, the threat we face today may be even more serious. We cannot let 
the fact that the terrorist threat is often difficult to detect and 
substantiate lull us into a false sense of security. In fact, the 
terrorists we are fighting have been waging war against us for many 
years. They are elusive, cunning, and committed to using every means at 
their disposal--including our own institutions and processes--to 
undermine our society and erode our will to persevere. The war is not 
likely to end until we destroy the terrorist networks that are aligned 
against us, and convince the populations from which they have arisen 
that peaceful development within a framework of representative 
government is a better alternative than terror.
    The global war on terror will require a sustained effort over a 
long period. There will be periods when our military will be in direct 
combat during this war, and there are also likely to be periods when 
the battles subside. We cannot afford to be lulled into a false sense 
of security and we cannot afford to treat our current situation as if 
it were ``business as usual.''
    War is often ambiguous, and requirements to meet the threat will 
continue to change. We must adapt to the changing requirements in order 
to succeed. The Members of this Congress have enabled our military to 
adapt to the conditions of the battlefield through your action on 
recent supplemental spending measures and other defense legislation. On 
behalf of our soldiers, we thank you, and ask you to sustain this 
critical support. We are committed to working with you in support of 
your constitutional responsibilities.
    One fact is clear: the dedicated service of the Army's total force 
has been invaluable. The steady progress in the war on terror has been 
possible because our active, Army Reserve, and Army National Guard 
units have fought together, along with our sister services, to win 
decisively on battlefields where terrorism once flourished. Now we are 
engaged in bringing peace to these regions and creating an environment 
where democracy can take root.
    As the President said on the same day that he announced the end of 
major combat operations, ``We have difficult work to do in Iraq. We're 
bringing order to parts of that country that remain dangerous. We're 
pursuing and finding leaders of the old regime, who will be held to 
account for their crimes.'' He added, ``The transition from 
dictatorship to democracy will take time, but it is worth every 
effort.''
    President Bush has identified three primary objectives, to which we 
remain committed. First, we must improve security by aggressively 
hunting down the terrorists and individuals who are attempting to 
undermine progress for the Iraqi people. Second, we must work with the 
international community and the Iraqi people to rebuild Iraq and 
restore basic services--jumpstart the Iraqi economy. Third, we must 
support efforts to accelerate the orderly transfer of sovereignty and 
authority to the Iraqi people.
    Our soldiers understand this clear mission, and their extraordinary 
commitment and dogged determination to getting the job done is having a 
positive effect on the people of Iraq. They are working with the Iraqi 
people, our coalition partners, and the international community to 
achieve a better Iraq for the Iraqi people, the region, and the world. 
Our soldiers understand that helping the Iraqis build a free and 
democratic society will help make our own country safer, and they 
continue to make remarkable progress in that direction every day.
    During our visits to Iraq, we have witnessed progress being made. 
Living conditions are getting better, and will continue to get better, 
both for the people of Iraq and for the men and women serving there. 
Several Members of Congress and their staffs who have been to Iraq have 
come to the same conclusion. On behalf of the men and women of the 
United States Army, thank you for your interest and your efforts.
    It is difficult to accurately portray just how bad things were in 
Iraq when our forces liberated the country this spring. What we would 
consider a normal society did not exist, having been terrorized by 
Saddam Hussein's government since 1979. Crippled by decades of neglect, 
the country's infrastructure was in shambles and cities were crumbling. 
Yet the vast human potential of the proud Iraqi people was still there, 
with great natural resources to help rebuild from the damage Hussein 
inflicted on them.
    Working closely with the people of Iraq, we are making progress 
throughout most of the country. Local government councils are taking 
increasing responsibility for civic administration and services across 
Iraq. Our Army divisions are training Iraqi police, facility protection 
forces, and civil defense corps to assume responsibility for local 
security and law enforcement; more than 85,000 Iraqis are serving their 
countrymen in providing safety from the Baathists who stole it from 
them once before. Civil affairs public health teams, working with 
governmental and nongovernmental organizations, have facilitated 
reopening of all 240 hospitals and 95 percent of Iraq's 1,200-plus 
clinics. Since the war, 22 million children and 700,000 women have been 
inoculated against diseases.
    Our units are helping get Iraqi schools running again. Army Civil 
Affairs teams, non-governmental organizations (NGOs), and the U.S. 
Agency for International Development (USAID) had completed 1,628 school 
renovations as of October 14. An additional 1,597 renovations are 
ongoing, and 200 more are in the planning stage. In all, 5.1 million 
students are enrolled and attending class. These efforts have benefited 
from numerous American communities, which have been sending the troops 
additional supplies to distribute to Iraqi children. We are continuing 
to make things safer for the people of Iraq and our own troops by 
removing ammunition caches from around the country, seizing explosives 
and weapons from those remnants of the former regime seeking to 
terrorize their countrymen. Markets are open, and trade is steadily 
coming back to life.
    These are but a very few of the thousands of things our Army is 
busy doing for the people of Iraq these days. For our troops:
    The end of fast-paced mobile operations is providing time for our 
supply system time to catch up with the various units. Mail flow has 
been improving; food quality is rising with the delivery of more hot 
meals plus fresh fruits and vegetables; we are building more dining 
facilities, internet cafes, phone banks, and climate-controlled 
buildings to give our soldiers better opportunities to relax between 
missions.
    In September, soldiers began taking advantage of the Rest and 
Recuperation (R&R) Leave Program. Under this program, deployed soldiers 
may be authorized 15 days of chargeable leave between their third and 
eleventh month and a flight, at government expense, to and from 
designated airports in either Germany or the United States. We have 
recently added Kuwait City as a third departure point, and are steadily 
expanding the number of troops participating. When the program started, 
we flew the troops into Baltimore-Washington International Airport; on 
November 1, we increased the arrival airports to include Atlanta and 
Dallas. We feel this program will be a valuable aid in sustaining 
deployed forces' morale.
    Taking care of our forces is of great importance to the Army. We 
are striving to meet the combatant commander's requirements for up-
armored high-mobility multipurpose wheeled vehicles (HMMWVs). The 
Army's current fiscal year 2004 requirement for up-armored HMMWVs is 
3,331, of which 3,142 are for CENTCOM. As the Army recognized this 
emerging requirement, we took immediate action to fill a critical need, 
including the redistribution of vehicles from across the force (Balkans 
and United States). To date, we have redistributed or sent from 
production 537 vehicles, bringing the total in CENTCOM's area of 
responsibility (AOR) to approximately 1,300. As of last week, another 
116 were in transit. The production rates for new vehicles rose to 80 
per month at start of fiscal year 2004, and we are seeking to ramp up 
production rates to the maximum of 220 per month by May 2004. On 
October 17, we began testing kits of bolt-on armor for regular vehicles 
to improve their resistance to improvised explosive devices. Testing 
continues and an analysis of the results is ongoing. We expect final 
definition by the end of this month. For our Strykers, we are fielding 
slat armor, with all kits to be in theater before the Stryker vehicles 
arrive.
    Another example of how we have adapted to battlefield requirements 
is Interceptor Body Armor (IBA), comprised of Outer Tactical Vests 
(OTVs) and Small Arms Protective Inserts (SAPI). Last year, commanders 
in the field identified a shortage of IBA in theater. The original 
requirement for IBA was based on issuing it only to the dismounted 
fighting soldier. In June 2003, as the threat to our soldiers changed, 
the basis of issue was changed to include every soldier and Department 
of Defense (DOD) civilian in-theater. This increased the requirement by 
over 80,000. With the support of this Congress, we have stepped up 
production to meet this increase. We have boosted current production to 
the maximum rate the industrial base is capable of, and production is 
fully funded at the rate of 25,000 OTVs and SAPIs per month. As of 
November 5, over 116,000 sets of IBA had been fielded. At this pace, 
every soldier and Department of the Army civilian in theater will soon 
have IBA.
    We owe it to our soldiers to care for them to the best of our 
ability. Our planning assumptions for our mobilization sites rested 
upon the belief that the active duty units at those bases would be 
deployed, and that the Reserve component units who mobilized and 
demobilized there would do so on largely empty sites. Additionally, 
many medical personnel deployed to theater to meet the combatant 
commander's requirements. Events since the end of major combat 
operations in Iraq have differed from our expectations and have 
combined to cause problems for many soldiers--problems we have 
identified and are taking corrective actions to fix. For example, on 
October 30, we transferred 50 medical hold personnel from crowded 
conditions at Fort Stewart to the less-strained facilities at Fort 
Gordon. We are taking additional measures to resolve these problems, 
such as moving other medical hold personnel into climate-controlled 
buildings, seeking local civilian medical appointments, and increasing 
medical staff.
    Back in Iraq, our soldiers must attack and eliminate remaining 
anti-coalition forces and establish a secure environment where the 
values of freedom and democracy can take root. An integral part of this 
campaign is assisting interim governments to deliver basic services--
security, food, water, power, and education--to their people. Our 
soldiers must simultaneously conduct combat operations and provide 
humanitarian assistance, often shifting between the two in the course 
of a single day.
    The magnitude of the effort is staggering. For example, in Iraq, 
soldiers are executing around 2,000 missions every day. Each mission is 
important, and each one is dangerous. Nonetheless, our soldiers are 
performing as professionals--with skill, courage, and dedication. We 
all know this will take time, and that for now, the Army, as part of 
the joint team, will bear the brunt of the fight.
    The OPTEMPO is high and so is the pressure. We are in a dangerous 
business. Our men and women and their families recognize the 
obligations that come with the uniform, and they have not flinched. We 
have visited them at Walter Reed Army Medical Center and at Landstuhl 
Regional Medical Center in Germany, as have many of you. Without 
exception, they deeply impressed us with their dedication to duty and 
their units, their good spirits, and their faith in the United States. 
Their families--mothers, fathers, relatives--and friends whom we've met 
there and elsewhere are the same. They understand that freedom is not 
free, but it is the most precious thing we possess. These soldiers and 
hundreds of other service men and women know this and have paid for the 
freedom of other Americans they will never meet. They are American 
soldiers in the greatest traditions.
    It is an All-Volunteer Force doing this tremendous work, and 
recruiting and retention are of great interest to the Army's senior 
leadership. For the most part, initial indications are encouraging, but 
we understand that we must closely monitor this key element of 
readiness. The active Army's fiscal year 2003 recruiting objective was 
73,800 new recruits. We accessed 74,167, of whom 94.5 percent were high 
school graduates. This is the highest percentage since 1992. 
Additionally, the percentage of recruits in Category IV was 0.27 
percent, the lowest since the All-Volunteer Force began in 1973. 
Numbers are comparable in the Reserve components. Charged with 
recruiting 26,400 new members, the Army Reserve accessed 27,365, and 
the Army National Guard achieved fiscal year 2003 end strength with the 
lowest no-show rate ever seen. Further, there were zero no-shows in the 
September call-up. We are aware of reports coming out of Iraq that 
suggest a morale problem in certain units and are working to address 
those issues.
    Recent news reports have attempted to highlight impending problems 
in retention, but the figures cited in these accounts are not far from 
historical averages. For instance, a recent article claimed that 46 
percent of soldiers surveyed indicated they would not reenlist. Over 
the past 4 years, however, the rate of first term soldiers who did not 
reenlist has ranged from 42 percent to 49 percent. The Army achieved 
all retention goals during this period. We believe this success can be 
directly attributed to the Army's Selective Reenlistment Bonus (SRB) 
program. The Army re-enlisted 54,151 soldiers in fiscal year 2003, 
including 15,213 soldiers whose enlistments would have expired before 
September 30.
    In fiscal year 2004 alone, the Army must retain approximately 
58,100 soldiers to maintain desired end strength; this equates to a 
retention mission increase of 2,000 soldiers. We will continue to rely 
on a robust SRB Program to enable achievement of our retention goals. 
Developing ways to retain soldiers directly engaged in the ongoing war 
on terror is critical. We implemented a ``targeted'' bonus (TSRB) at 
the end of fiscal year 2003 that was quite successful. We expect the 
TSRB will greatly enhance our ability to attract and retain soldiers.
    Despite remarkable successes, our fight is far from over. Our 
enemies are committed and believe we lack the resolve to ``win the 
peace'' in Iraq. We can assure you that this is not true: we have seen 
it in our soldiers' eyes, and heard their determination in their 
voices--here at home and overseas with our deployed forces. The 
progress we have made in the past 6 months is a testament to our 
force's ability to quickly adapt and respond to the many complex 
challenges they face. Our commanders and troops are confident and feel 
that we are gaining momentum in the fight, increasingly taking the 
fight to the enemy. It is hard, and may take longer than we had 
expected or hoped, but our ultimate success in helping the Iraqi people 
reclaim their country is assured.
    In years to come, when historians write the story of this critical 
period, they will note that in Iraq and around the globe, the 
unwavering commitment, courage, and compassion of the American soldier 
led the way in the fight against terror and lit the lamp of freedom and 
democracy for millions who had known only oppression. By carrying the 
fight to the enemy, the Army is destroying terrorism today at its core 
and spawning grounds, providing the greatest assurance of protection to 
the American people, and striking fear in the hearts and minds of our 
terrorist enemies.
    In closing, we would like to take this opportunity to thank the 
committee for the opportunity to appear before you today and for your 
continued support for the men and women in our Army--a relevant and 
ready Army and a full member of the joint team, deployed in Iraq, 
Afghanistan, and throughout the world fighting terrorism. We look 
forward to answering your questions.

    Chairman Warner. Thank you very much, General.
    We will now proceed to a round of 6 minutes.
    Secretary Brownlee, this question I think falls properly on 
you because General Schoomaker has just recently joined the 
leadership at the Department of Defense. These reports of a 
shortage of body armor, these reports of ill-equipped ground 
vehicles and air vehicles in terms of the armor, are just 
totally unacceptable. Now, where was the error, and I say it 
was an error made in planning, to send those troops to forward 
deployed regions--and the conflict in Iraq particularly--
without the adequate numbers of body armor and vehicles?
    Secretary Brownlee. Senator, let me just start out by 
saying, referring to Senator Levin's statement, we do have a 
standard of perfection. We do not always meet it and I regret 
every time we do not.
    In this particular case, the history of this body armor is 
that it was a relatively new piece of equipment when we went 
into Afghanistan and later Iraq. Our intention initially was to 
ensure that all of our combat troops, those infantry troops 
that would be most closely engaged in the fight that we could 
anticipate, were the first priority in equipping them with body 
armor, and all of these soldiers were equipped.
    We simply did not have enough at that time to equip 
everyone. We have taken steps to increase the production of 
these things. They are dependent on certain substances, some of 
which are very limiting in the numbers of these. But we have 
increased the number of producers, we have increased the 
capacity, and, as I indicate in my statement, at the current 
rate of production we should have all the soldiers in Iraq, to 
include those in the rear and contractors, equipped with this 
kind of body armor by the end of December.
    Chairman Warner. Let us use as a baseline the President's 
statement that major combat operations are over. You mean in 
the forces that were employed from jump-off day through the, 
now the term, ``end of major conflict,'' all of those troops 
had the equipment?
    Secretary Brownlee. The troops that were in the forward 
combat elements, the infantry troops, the armored troops, those 
that we could anticipate would come in close contact with the 
enemy. The rear troops, the logistics forces that we did not 
anticipate--since we had to prioritize, we simply did not have 
enough to equip everyone. We prioritized and as we move back in 
the theater in some cases we had equipped perhaps one per three 
soldiers, and the instructions were to put those on the 
soldiers that would be going forward. It was a matter of having 
more soldiers than we had body armor.
    Chairman Warner. So you freely acknowledge we were short in 
terms of the inventory?
    Secretary Brownlee. Yes, sir.
    Chairman Warner. Those troops that are most likely to be 
confronted with risks, to injury, they had it?
    Secretary Brownlee. Yes, sir.
    Chairman Warner. Now then, you go from that point when the 
major conflict is over, and the war went right on. But anyway--
--
    Secretary Brownlee. In the conflict that we're in now, as 
has been pointed out----
    Chairman Warner. There is no rear area.
    Secretary Brownlee.--we are not there, that is right. So 
everybody is susceptible. So our goal and requirement then 
became to equip every soldier with this, and that was a greatly 
increased requirement and we've continued to ramp up 
production. Now it is up to about 25,000 units per month. At 
that rate, we should have every soldier equipped and 
contractors equipped by the end of December.
    Chairman Warner. Now let us take up the ground vehicles, 
the HMMWVs, and then let us transition to the aircraft, the 
helicopters.
    Secretary Brownlee. The up-armored HMMWV--when the initial 
ground battle was ongoing, most of our forward troops were in 
either Bradley Fighting Vehicles or tanks. We had, of course, 
some ground elements, but they were not up with the 3rd 
Infantry Division, which is a heavy division primarily with 
tanks and Bradley Fighting Vehicles. Most of our troops fought 
those battles in that kind of armored protection.
    But as the war transitioned from one of that kind of fight 
into more of an insurgency, all of the troops are not equipped 
with those and in fact the commanders--and these are combatant 
commanders' decisions, of course--determined that they would be 
better off in lighter vehicles because of the kind of patrols 
they were running and the environment they were in.
    So our forces there, while they still had tanks and 
Bradleys, they began to use lighter vehicles to conduct some of 
their operations. It became obvious that, even though it was a 
light vehicle, if you could use the up-armored HMMWV, which has 
protection against 7.62 bullets and more, that would be an 
advantage over just a standard HMMWV.
    So we began to first of all redistribute the assets we had 
throughout the world and ramp up production there. The 
requirements for those vehicles continued to go up and I think 
the Chief and I determined it was up to about 3,500 as of this 
morning.
    Chairman Warner. You indicated December is the date at 
which the body armor will meet the standards. Are we able to 
have a comparable date for the ground vehicles?
    Secretary Brownlee. Sir, with the up-armored HMMWV it is 
more of a challenge. If we go strictly with that up-armored 
HMMWV it could be as late as December--the summer of 2005 
before we would have them all. But let me say, we are examining 
at this time other alternatives. Some of these alternatives----
    Chairman Warner. I do not think we can accept a deadline of 
2005.
    Secretary Brownlee. Well, what we are doing, sir, because 
it is not acceptable to us either, is examining armor that 
could be placed on the current family, the current HMMWV. We 
have several variations that we have been testing and examining 
and we are going to buy probably variations of all of them in 
order to get this done as fast as we can.
    Chairman Warner. I detect that you are doing the best you 
can.
    Secretary Brownlee. Sir, we are working this----
    Chairman Warner. It is unfortunate that this developed as 
it did.
    Secretary Brownlee. Yes, sir. The Chief and I put out a 
memo jointly that said anything that involves the force 
protection of our soldiers has the urgent, most highest 
priority, and has a 24-7 requirement.
    Chairman Warner. My time is running out. Helicopters remain 
the question. I will ask you to put that in the record unless 
other members seek that response.
    Secretary Brownlee. Yes, sir.
    [The information referred to follows:]

    The response to this question is addressed in questions for the 
record ``Aircraft Survivability Equipment (ASE)'' #8-16, Senator Levin.

    Chairman Warner. General Schoomaker, I question the force 
level of the Army, whether we need additional troops in terms 
of recruiting and training. You, I think quite understandably, 
when asked that question in this series of debates that have 
been going on, said: Look, give me time to get a fuller 
understanding of this outfit that I am privileged to take over 
and then I will be able to provide my opinion.
    I would hope by now you have had that time and that you can 
give us an opinion about your end strength levels and how you 
would recommend to the President and the Secretary of Defense 
such adjustments as you deem professionally needed.
    General Schoomaker. Yes, sir. Thank you very much. I hope 
that when we get into closed session we will be able to explore 
a little bit further the previous question that you had, 
because I think there are things that are appropriate there for 
fuller understanding of what that is all about.
    On the issue of end strength, I have had the staff working 
very hard to take a look at it and do the appropriate studies 
here on the end strength issue. We are still in the throes of 
that. But I can tell you that I think our understanding of this 
is significantly better than it was when I appeared before you 
before.
    First of all, the United States Army today has about 20,000 
more people in it than we are authorized and that is a result 
of a stop-loss, stop-move that we have done on the Active 
Force. So we are already operating at about a 20,000-soldier--
--
    Chairman Warner. That is the regular Army?
    General Schoomaker. That is the regular Army.
    In recent legislation our end strength was increased by 
2,500 people in terms of the authorization. But, as a result of 
stop-loss, stop-move right now we are operating with 20,000 
more soldiers in the regular Army than we had.
    But the greatest move that we can make, and we are in the 
throes of making this move right now, is to get the proper 
utilization of the soldiers within the Army that we have 
authorized and we are paying for right now. This is going to 
require significant active-Guard rebalancing and significant 
restructuring of policies and, in some cases, probably 
legislation that will give us access to more of the force that 
we are paying for and have on hand right now.
    One of the issues that we have to mine is the non-
deployment rate in our current force. We are studying to see 
what that is, but there are all kinds of reasons why there are 
people that are nondeployable. We have to look very seriously 
at the overstructuring that we have in our force.
    Chairman Warner. So you are examining that. Lastly, 
acquisition of new soldiers and levels is one thing; retention 
of the force, voluntarily retention--now, that is forced 
retention, that 20,000.
    General Schoomaker. That is correct.
    Chairman Warner. So how is that retention and recruiting 
holding up?
    General Schoomaker. This year we met every goal. In 2003 we 
met every goal with the exception of one, and we fell a little 
short in the Army Reserve, not the Guard but the Reserve, in 
the careerist category.
    Chairman Warner. That is retention.
    General Schoomaker. That is retention. We exceeded our 
accession goals in the active Army, in the Army Guard, and in 
the Army Reserve. We exceeded every category of retention in 
all components, with the exception of the Army Reserve.
    We do not know what the future might hold and we are 
running models and we are taking a look from history and 
everything else, trying to figure out what this may portend for 
the future. I think our experience tells us that the longer we 
operate at the tempo we have, the greater the challenge will be 
in this. So we are looking at how to incentivize and to target 
appropriately.
    Chairman Warner. My time has expired, General. Thank you.
    Senator Levin.
    Senator Levin. On the aircraft issue, it is a great area of 
concern for many of us that we apparently just do not have the 
most modern defensive equipment, for instance, on all of the 
helicopters. We had the ALE-47s on some of our Chinooks, but 
not on other Chinooks. I gather the policy of first to fight 
was the policy being applied, whether those helicopters were 
active duty or Reserve component helicopters. Is that true, 
first of all? Is that the policy that is applied, ``first to 
fight,'' regardless of whether it is active duty or Guard?
    Secretary Brownlee. Yes, sir.
    Senator Levin. Now, there were 62 ALE-47 dispensers 
available, and these are dispensers of chaff and flare, and 
they had not been installed on helicopters. The question is, 
why? Is this a matter of not having adequate funding or not 
having adequate people to install the equipment? What was the 
problem with that?
    Secretary Brownlee. Sir, the problem as I understand it was 
not funding. The problem is that it takes 3 weeks to rewire a 
helicopter to accommodate this new system. So we are proceeding 
to do that. We do not want to take all the helicopters down to 
do it and we are proceeding to do it with the systems that we 
have and we are getting more systems.
    So again, it is a matter of applying these systems to the 
helicopters, and this particular dispenser is more capable and 
also the wiring provides us the capability to go to an even 
better system when we get it developed.
    Senator Levin. How long will it take for us to get all the 
Chinooks, for instance, equipped with the ALE-47s? The Chinook 
that was shot down did not have that dispenser on it.
    Secretary Brownlee. Sir, could I provide that for the 
record? I am not sure exactly when the date is to get all that 
done.
    [The information referred to follows:]

    The response to this question is addressed in questions for the 
record ``Aircraft Survivability Equipment (ASE)'' #8-16, Senator Levin.

    Senator Levin. Will it be this year? Do we know that?
    Secretary Brownlee. To get all of them done, I am not sure, 
sir. We have a fleet of about 300 or so.
    Senator Levin. The ones that are in the field will not all 
be equipped this year?
    Secretary Brownlee. We are moving now to equip those that 
are in the field or that are going to the field.
    Senator Levin. Let us know for the record when that will be 
accomplished.
    Secretary Brownlee. If we could, sir.
    Senator Levin. On the morale issue, General Schoomaker, one 
of the many issues that families face is uncertainty as to when 
our deployed troops are going to be coming home. Is there a 
system in place now so that every unit and presumably every 
soldier knows when he or she is scheduled to come home?
    General Schoomaker. Yes, sir. If you would permit me just 
to tag on to clarify your previous question. The ALE-47 is a 
system that is an improvement over the system that is on all of 
the aircraft. All of the aircraft had survivability equipment 
and what we are talking about now is an improvement. This is a 
moving train and we will continue to see improvements, and I 
think what we should talk about in closed session----
    Senator Levin. Even beyond the 47? There will be 
improvements even beyond that, we assume?
    General Schoomaker. Even beyond the 47, significantly. We 
should talk about these things because I think it warrants a 
clear understanding of what it is and what the size and scope 
of this challenge is.
    In regard to expectations, one of the things that I was 
confronted with almost immediately is the means in which we 
were mobilizing and the means in which we were developing 
expectations on the part of the soldiers that were being 
mobilized. I think we have a very good handle on that right 
now.
    We are operating under partial mobilization. The authority 
we have under partial mobilization is to mobilize one million 
people for 2 years. That is the authority we are operating 
under. This is not presidential selective Reserve callup, which 
is significantly smaller and it is a significantly shorter 
period of time.
    Senator Levin. Just in terms of my time, though, is there 
now in place that----
    General Schoomaker. There is.
    Senator Levin. So every soldier now knows when to expect to 
be coming home?
    General Schoomaker. Every soldier understands that from the 
date that soldier is mobilized, not alerted, but mobilized, the 
elements that we are mobilizing now, they understand that by 
the time 18 months expires they will be demobilized. That 
includes their leave. They understand that the moment they set 
their boots in the operational area that they will leave within 
12 months, and that is the policy that I think is very clearly 
understood.
    Senator Levin. Thank you, General. There have also been a 
number of pay problems, particularly for Army National Guard 
personnel. A General Accounting Office (GAO) report came out 
recently on that. In a Colorado Special Forces unit, 61 of 62 
Army Guardsmen and women experienced pay problems while 
deployed. In a Virginia Special Forces unit, 63 of 65 had the 
same problems. West Virginia, 84 of 94.
    In another case, a soldier submitted documentation on three 
separate occasions. He tried to get his housing allowance. Each 
time he was told to resubmit his request, because documentation 
was lost.
    Very quickly, are you familiar with these issues? Are you 
on top of these issues? Are you satisfied that these problems 
are not going to reoccur?
    Secretary Brownlee. Sir, I am not satisfied.
    Senator Levin. Are you satisfied that these issues are not 
going to reoccur?
    Secretary Brownlee. No, sir, I am not. This is one of those 
problems that every time we think we have it fixed, it pops out 
somewhere. I am very upset about some of these that have 
happened, because I received assurances in the past that we 
have it fixed and suddenly, it is not fixed. So I can only tell 
you we are redoubling our efforts. It has a very high priority 
within the Army.
    We all understand how a soldier feels when his pay is 
screwed up and we want it fixed. So I assure you, Senator, we 
are moving to fix it.
    Senator Levin. Thank you.
    The morning paper has an article that says the 
administration is going to be proposing a greater United 
Nations (U.N.) role in an effort to increase international 
support and participation in Iraq. Part of this will be, 
hopefully, the attraction of additional troops from other 
countries, including Muslim countries, and if that happens it 
hopefully will be a quicker not only reduction in the number of 
our troops, but less of a visible presence of the number of our 
troops and the substitution of troops of other countries.
    In the meantime, however, it is our responsibility to the 
extent that it is now. We had General Swannack, who is the 
commander of the 82nd Airborne Division in Iraq, comment about 
some of the tactics which are currently being used. That was in 
the paper this morning, too. He talked about using a 
``sledgehammer to crush a walnut.''
    What he was referring to here was the military tactic in 
recent days of employing aircraft dropping 500-pound bombs, 
artillery, mortars, and attack helicopters against suspected 
insurgents, and recently AC-130 gunships used to attack what 
was reported to be an empty warehouse in Baghdad, suspected of 
being a planning and staging area for insurgents, and the 
destruction of a number of homes of suspected insurgents.
    General Schoomaker, I want you to just give us your 
comment, given your experience, especially in Special 
Operations, as to whether or not you think it is likely that 
such a tactic is going to help or hurt a counterinsurgency 
effort.
    General Schoomaker. First of all, that is quite a bit out 
of my lane right now, Senator, as the Chief of Staff of the 
Army, and I think that is more appropriately answered by the 
operational commander that has it there. But I will tell you 
that as a soldier involved in combat it is important that the 
enemy understand and feel the weight, the gravity of the 
situation per their actions. So I feel very confident that the 
application of force over there is being accomplished within 
the rules of the law of land warfare. I am very confident that 
the tactical commanders, the operational level commanders over 
there, understand the situation that they are facing and are 
taking these actions because they feel they are appropriate.
    But other than that, I would not like to comment any 
further.
    Senator Levin. I can understand that.
    Would you finally, then, talk to General Swannack, the 
commander of the 82nd Airborne Division, and report back to us, 
if you would, relative to your conversation with him. Obviously 
it is a significant comment if the commander out there of that 
division is referring to this as a sledgehammer crushing a 
walnut, because that could have a counterproductive effect in 
terms of the creation or the fueling of a counterinsurgency.
    So rather than asking you to comment any further here, and 
given the fact that my time is up, unless you want to comment 
further, if you just would talk to him and get back to us for 
the record about your conversation relative to his comment, 
that would be helpful.
    General Schoomaker. Sir, I think I will stand on what I 
have said, and I will be glad to get into it.
    [The information referred to follows:]

    The response to this question is addressed in questions for the 
record ``Recent Military Actions in Iraq'' #17-20, Senator Levin.

    Senator Levin. Thank you.
    Chairman Warner. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I would like to 
make my statement a part of the record if you would, please.
    Chairman Warner. Without objection. The statements of all 
Senators will be admitted in today's record.
    [The prepared statements of Senator Allard and Senator 
Cornyn follow:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman. Secretary Brownlee, General Schoomaker, 
thank you for appearing before us. I understand that both of you are 
very busy and I appreciate your willingness to share with us your 
impressions of today's Army.
    As you noted in your written statement, our Nation is at war, a war 
that will not be won with a single battle or even a single campaign. It 
will be difficult and it will be arduous. I believe the American people 
have come to appreciate that our country will have to make sacrifices 
if we are to prevent future terrorist attacks against our country.
    I would like to take a moment to honor the recently fallen soldiers 
in Iraq and to recognize the mission these men and all of the 10,000 
Fort Carson soldiers have been accomplishing since the conflict began.
    Last week, the State of Colorado lost four of its courageous Army 
warriors when a chinook helicopter assigned to the 12th Aviation 
Brigade and attached to the 3rd Armored Cavalry Regiment crash landed 
outside of Baghdad. These were brave and loyal soldiers defending the 
principles of freedom and liberty and fighting the terrible war against 
tyranny and terrorism.
    As I learn more of the four men from Fort Carson who lost their 
lives my heart swells with pride. I am very proud of the commitment and 
sacrifice these soldiers gave to our country and our way of life.
    Mr. Chairman, this attack represents another example of the 
cowardice and terror tactics employed by Saddam loyalists and the 
foreign insurgents intent on our failure to bring peace and freedom to 
Iraq and the region.
    They will not succeed. Both the American troops and the Iraqi 
people are working hard to make the country better.
    Mr. Secretary and General Schoomaker, I can tell that even through 
last week's disastrous loss, the spirit of Fort Carson stays strong. 
The 3rd Armored Calvary's 5,000 soldiers serving in Iraq don't have 
time to be horrified or mourn the dead. They have a job to do. They are 
committed to their mission.
    There has been plenty of discussion lately of America's resolve and 
commitment to seeing this through. Let me tell you that the men and 
women serving in Iraq are not confused and know how committed this 
administration and this country are to ensuring a democracy flourishes 
in Iraq.
    Surprisingly, though the 3rd Armored Cavalry is still deployed in 
Iraq, the unit has not only reached its retention goals, it has greatly 
exceeded them. In the last quarter of this past year 294 soldiers re-
enlisted while the objective was 129. This unit is retaining almost 
three times it goal for that period and for fiscal year 2003. Over the 
year, the regiment had 834 soldiers re-enlist though the goal was 554 
reenlistments.
    It is clear to me that the soldiers who are laying their lives on 
the line; they are committed to this cause; and we need to follow their 
lead. This committee, indeed Congress, needs to follow the lead of men 
and women from Fort Carson and commit to this cause. We must not waver. 
We must stay the course.
    Thank you, Mr. Chairman.
                                 ______
                                 
               Prepared Statement by Senator John Cornyn
    Thank you for appearing before the committee, and I would like to 
commend Chairman Warner for holding this important hearing. There is no 
doubt that our men and women in uniform are doing a tremendous job in 
Iraq, Afghanistan, and throughout the world in the global war on 
terrorism. It is our duty to ensure that they have the training and 
equipment that they need to defend our Nation. Last week, we passed the 
Defense Authorization conference report, which contains many important 
provisions that will help our soldiers, sailors, airmen, and marines. 
The bill raises military salaries by an average of almost 4.2 percent 
and extends increases in combat and family separation pay.
    But we are all concerned when we hear reports that morale among our 
troops is low or that our soldiers do not have the proper equipment to 
carry out the mission in Iraq or anywhere else in the world. I am 
privileged to represent a State that is home to 1 in 10 active duty 
military personnel, and I want to ensure they, and all who serve in the 
military, have what they need to get the job done. The 4th Infantry 
Division from Fort Hood is currently doing a great job in Iraq, and the 
1st Cavalry, also from Fort Hood, is preparing to head to Iraq.
    It is essential that we understand and address any morale or other 
problems as early as possible, not only for the sake of the military 
members themselves, but also for the families of those serving our 
great Nation. As we all agree, families of our service members are 
making great sacrifices as their loved ones head overseas to defend 
freedom and liberty.
    I would like to join Senators Warner and Inhofe in expressing my 
concern about the Lieutenant Colonel West situation. I understand the 
military justice process is ongoing, but it is critical that common 
sense and a complete understanding of the facts and unique pressures of 
command in the current Iraq environment are factored in to any 
decisions on this case. 

    Senator Allard. I want to just make one point here before I 
ask my question. The 3rd Armored Cavalry out of Fort Carson in 
Colorado has had an enlistment rate that has exceeded their 
goals. What that tells me is that the members of that unit 
believe in the Army and they believe in their mission in Iraq, 
and I just wanted to pass that on to you. I think that is very 
significant in our discussion we are having today.
    I have a case that has come to the attention of my office 
and it has received some national publicity. It is called the 
Holcomb case. This was dealing with a Colorado National Guard 
medic. Her husband was in the Active Force, she was in the 
Reserve or the National Guard, and they had a family plan that 
meant that her mother would take care of the seven children in 
Colorado. Then the babysitter's husband got cancer, and there 
was a court order issued by a judge in Colorado that said you 
have to make arrangements to take care of the kids or you are 
going to lose two of them because of a previous marriage. There 
was a custody issue here.
    I viewed that as a hardship case because she had to make a 
choice between either serving in the military and getting 
absent without leave (AWOL) charges or being there with her 
kids and keeping them part of the family. I think that is an 
untenable kind of position to put somebody in.
    I wondered if you would comment about that case, and I 
would hope that you would look at it closely, because there is 
another complicating issue here. During her training as a medic 
she happened to have punctured herself with a needle and 
apparently it was contaminated with hepatitis C. Apparently 
that has caused her to have hepatitis C, and so she is 
concerned about the possibility of future health problems.
    I think the suggested solution was she just be discharged, 
but if that happens then she does not get her medical benefits. 
So I hope that you take a close look at that and can recognize 
that as a hardship case.
    I am wondering if you would comment on that, and then also 
if you could comment on the Army's policy of deployment of dual 
parents and if it is perhaps time to revise that policy or at 
least look at it. I do not know whether you, Secretary 
Brownlee, or you, General Schoomaker, want to address that 
question. Maybe both of you would like to.
    Secretary Brownlee. If I could, sir, and then General 
Schoomaker can be my guest. Sir, our policy is if there is a 
dual family with dependent children then they have to have a 
plan in place that indicates how the children will be cared for 
if they are both deployed.
    Senator Allard. Apparently she had that.
    Secretary Brownlee. They did have a plan, sir. Our 
understanding is there was a member of the family who was 
caring for the children, who became ill or had to go take care 
of someone who had become ill. It therefore put their plan in 
jeopardy, and then this other case came up where the custody of 
the children was in issue.
    They both returned to Colorado, I understand, and then her 
husband deployed back to the area of operations (AO). Her 
status was questionable. It appears that some of the actions 
and paperwork were lagging behind what was being reported in 
the press. But it is certainly not the Army's intent to punish 
anyone for taking care of their children.
    But we do insist that soldiers have to be deployable. There 
are hardship cases. I think we are understanding of those, and 
this one is being handled, as I understand it, appropriately 
and compassionately. There is now a medical issue, as you 
indicated, and that is being taken into consideration also.
    Senator Allard. Thank you for your response.
    General.
    General Schoomaker. Sir, I think it is a very complicated 
issue. I think it goes back to--first of all, I am absolutely 
certain that she will be treated fairly within the tools that 
are available to the commanders, whether it be the Uniform Code 
of Military Justice (UCMJ) or the administrative tools. When 
all this is gone through, I think it will come out in a way 
that is appropriate.
    But it goes back to the fundamental question that goes all 
the way back to what I said in my opening statement: What do we 
expect of people when there is an Army at war? The degree to 
which we have to have assurances that the soldiers are prepared 
to go for extended periods of time is all at the heart of this 
matter.
    In my view, it is not a question of whether we are going to 
have a volunteer force in the future. It is a question of what 
kind of volunteer force we are going to have and what the 
expectations should be and what we should ask of people in this 
volunteer force.
    Again, I would like to comment on your previous statement 
about the 3rd Armored Cavalry Regiment. When I was in 
Afghanistan and I spoke with General Vines over there, who is 
commander of the 18th Airborne Corps now, he was commanding the 
18th Airborne Corps in Afghanistan with an active unit that had 
been gone--this is a ballpark--about 26 of 33 months been 
deployed, met their reenlistment goal by 240 percent in 
Afghanistan.
    Senator Allard. Their action speaks louder than words.
    General Schoomaker. Yes. So this whole notion about 
morale--I have been in an Army that does not have morale. I was 
in the Army in the late 1960s and early 1970s. That was an Army 
that did not have morale. This is not an issue of morale. This 
Army is committed and what we have to do is commit ourselves 
and make sure we are supporting these soldiers. They are 
providing extraordinary services to this Nation at an 
extraordinary level of excellence, and we owe them everything 
we can give them.
    So it is a very complex issue that we are talking about 
here, and I think part of this is part of the transformation we 
have to make, from a Cold War Army to an Army at war.
    Senator Allard. I have one more question here. There was a 
3-day article in The Denver Post about sexual assault in the 
military and the bottom line was that they thought we ought to 
look at the UCMJ, because there was much discretion given 
between various commanders in applying this and perhaps there 
was not consistency.
    They said it may have been 50 years since they last looked 
at the UCMJ. Do you have a comment in regard to that?
    General Schoomaker. Every time the UCMJ is looked at, it is 
held up as an extraordinary example of a system, and it has 
been looked at many times.
    Senator Allard. When is the last time it was reviewed?
    General Schoomaker. I will have to get back to you for the 
record. It was actually in relatively modern times. The thing 
that I would say is that if you look at the civil system you 
will find extraordinary latitude on the parts of judges and 
juries in the kinds of things that happen. It is very similar 
in terms of what you would expect.
    We expect every case to be looked at on its merits and for 
it to be judged with matters in extenuation and mitigation at 
the appropriate phase of the proceedings to be done. We have 
great confidence people use their best judgment and that the 
element of fairness is involved in it.
    [The information referred to follows:]

    The UCMJ, which was originally enacted by Congress in 1950, was 
most recently revised by the National Defense Authorization Act for 
Fiscal Year 2002, specifically as to the number of members required on 
court-martial panels in capital cases. Because the UCMJ is statutory, 
only Congress has the authority to amend or otherwise revise it. As 
discussed below, however, the UCMJ undergoes an annual review process 
and, when appropriate, changes are proposed both to Congress and the 
Secretary of Defense.
    Article 146, UCMJ, provides for the establishment of a committee 
(known as the Code Committee) that meets annually to conduct a 
comprehensive review of the UCMJ. Following each review, the Code 
Committee must submit a detailed report to the Armed Services 
Committees of the Senate and the House, as well as the Secretary of 
Defense. This report must include information on pending cases and the 
Committee's findings regarding the uniformity of sentencing policy, 
recommended amendments to the UCMJ, and other matters as appropriate.
    The Code Committee consists of the Judges of the United States 
Court of Appeals for the Armed Forces, the Service Judge Advocates 
General (JAG), and two members of the public who are recognized experts 
in criminal law and are appointed by the Secretary of Defense for a 
term of 3 years.
    As with any statute, changes to the UCMJ may also be proposed by 
Members of Congress or the public through the normal legislative 
process and outside of the Code Committee process.
    The UCMJ is implemented by the Manual for Courts-Martial (MCM), an 
Executive order, which includes Rules for Courts-Martial, Military 
Rules of Evidence, and Nonjudicial Punishment Procedures. The President 
periodically amends the MCM. The last Executive order amending the MCM 
was issued on 11 April 2002. OMB and the White House are currently 
processing two proposed Executive orders to amend the MCM. Both have 
received public comment and publication in the Federal Register.
    A review of the MCM is accomplished by the Joint Services Committee 
(JSC). The JSC was established following a 1984 Executive order 
directing the Secretary of Defense to have the MCM reviewed annually. 
The JSC consists of the Chiefs of the Military Services' Criminal Law 
Divisions, including the Coast Guard, and representatives of the DOD 
General Counsel, United States Court of Appeals for the Armed Forces, 
and the Chairman of the Joint Chiefs of Staff. Throughout the year, the 
JSC solicits proposed changes to the MCM designed to enhance the 
military justice process and provides recommended changes to the MCM 
and legislative changes to the UCMJ.

    Senator Allard. Thank you, Mr. Chairman.
    Chairman Warner. Senator Allard, I thank you for bringing 
this matter to our attention. I am going to invite the chairman 
and ranking member of the Personnel Subcommittee to look into 
this situation. The subject matter of these series of 
articles--and I do not know whether you have seen them or not, 
Secretary Brownlee.
    Secretary Brownlee. Yes, sir, I did see it.
    Chairman Warner. They are quite disturbing, and it is 
pervasive throughout all branches. So it is just not an Army 
problem, and this committee will address that issue.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    General Schoomaker, I understand that there were many 
challenges for personnel in Iraq regarding the logistical 
process. Poor communications were mentioned, and scarce 
transportation assets, poor distribution routes, and the speed 
in the initial phase of the operation all contributed to the 
shortages of spare parts, ammunition, medical supplies, water, 
and other items that hampered our troops' readiness.
    For many years the military has employed ``just in time 
logistics,'' and this is a good process under peacetime 
conditions, as we know, but not under the conditions faced 
during Operation Iraqi Freedom (OIF).
    What steps has the Army taken to better coordinate the 
resupply of equipment and the basic necessity quality of life 
items for our current troops in Iraq?
    General Schoomaker. I think you have pointed out a very 
important point. Logistics are everything in terms of what your 
capabilities are operationally. I think we ought to get into 
the details and specifics, if you want to, when we get in 
closed session. But I will tell you in general that what we are 
subjects of is extraordinary success. We were the victims of 
extraordinary success.
    If you take a look at World War II and think about Patton's 
race across Europe with the Redball Express, we had to grind 
the rest of the Army to a halt to support that. I think you 
might remember that the way they stopped Patton was to cut off 
his Redball Express there, to slow him down a little bit.
    This is a problem that is as old as warfare and it is a 
challenge that we have. Some of our peacetime efficiencies that 
we have put in place challenge us when we are operating at the 
speed and distances that we did in Iraq. A very simple point. 
Over time we have reduced the level of what we call the 
Prescribed Load List (PLL) for parts at the lower levels in the 
units, for efficiency's sake, for dollar savings, and for 
management's sake. I think, quite frankly, that, soldiers being 
what soldiers are, some of our successes are a result of them 
understanding how to creatively circumvent the rules so that 
they had the stuff that they needed, thank God. That is the 
good part about the American Army; everybody does not listen to 
everything in all the rules.
    I think you are on a good point. This is something that we 
are looking at very strongly and, quite frankly, we are moving 
in a direction where we are thinking very much about joint 
logistics, where we are taking a look at how we can get more 
robustness and more effective logistics by looking at it as a 
joint matter.
    Senator Akaka. I asked that question because we certainly 
want to support you in improving the logistics there.
    General Schoomaker. I appreciate it. We are going to need 
your support to get after this.
    Senator Akaka. General Schoomaker, I have been informed 
that the contracted logistical support within theater has been 
and remains a problem. Claims have been made that soldiers did 
not receive support in some areas because contractors refused 
to go into dangerous areas. Of course, this is a problem 
particularly if the DOD intends, as is reported, to increase 
its reliance on non-governmental contractors.
    What is the Army doing now to ensure troops are receiving 
supplies they need in the time frame that they need them? If 
you need to answer it in another meeting, that is fine, too.
    General Schoomaker. No, I think it is not that I need to 
answer it in another meeting. I am not quite sure I am aware of 
your first point on contract logistics. I am sure there is 
anecdotal evidence that we have had problems in certain areas. 
But I will take that for the record and get the specifics and 
be glad to supply it there.
    What we are doing in general, as a general statement, is we 
are looking at all avenues of approach to provide what we need 
to provide to our soldiers that are in Iraq, in Afghanistan, 
and everywhere else. But when you take a look at the distances 
involved and the security challenges, and all of the things 
that are involved in this, I think you will be amazed at how 
daunting a challenge this is to reach some of our most distant 
elements that are out there.
    So I will be glad to get into it and provide you a more 
detailed answer for the record. But I will tell you, the gloves 
are off and we are doing everything we can to get ahead.
    [The information referred to follows:]

    Contracted logistics support in Iraq has proven to be excellent 
overall, but it's not without it's difficulty. Problems with contracted 
support can usually be traced to misunderstandings of the scope of work 
or contract requirements, but soldiers have not done without the 
essentials. Many commanders are not experienced in managing contractors 
and a complete review of Army education programs that include, or 
should include, training on contractors accompanying the force (a.k.a. 
contractors on the battlefield) is underway. The supported commander is 
responsible for providing force protection for the contractors 
supporting him.

    Senator Akaka. General Schoomaker, what has the Army done 
to ensure that the problems experienced at Fort Stewart, 
Georgia, with soldiers on medical hold status are not repeated 
when the second OIF rotation occurs? I think you are well aware 
of that. Can you make a comment about that?
    General Schoomaker. I can and I think the Secretary may 
want to answer this question.
    Secretary Brownlee. If I could, sir.
    Senator Akaka. Mr. Secretary.
    Secretary Brownlee. These problems occurred because we have 
a different situation than we had when we had a Cold War 
mobilization Army. The concept then generally was that the 
active component units would move out to go to war, Reserve 
component units come in behind them, take over their 
facilities; when they got trained up, then they moved out and 
other units came in.
    We have a situation now where we deploy soldiers and move 
other soldiers in behind them, then the other unit returns, 
many times at strength above its authorized level. That is what 
happened at Fort Stewart and it was happening at other places, 
too.
    So we set a standard for people with medical issues in that 
they have to be in buildings that are clean, in good repair, 
have climate control, and have latrines within the same 
facility. I have been assured that there is not a soldier on 
medical status now that is not in a facility that meets that 
standard.
    But I have to tell you that in the first 4 months of next 
year when we are rotating this force, we will be moving upwards 
of 120,000 reservists and elements from 8 of the Army's 10 
divisions, which could total 200,000 to 250,000 people on the 
move, to go to the AO and to return, both in Iraq and 
Afghanistan. So General Schoomaker and I have directed the Army 
staff to come up with a plan for this. We are going to have to 
plan it very deliberately so that we know every day what the 
expected number of troops is at these particular power 
projection posts and these mobilization sites that we have 
there.
    We are looking right now at the possibility, if we have to, 
of putting up some prefabricated structures in order to 
accommodate the load. But this will challenge the Army. To my 
knowledge the Army has never had a rotation like this in the 
past. We have always trained people up and shipped them over, 
but we have not rotated the units back in this manner. We 
usually had an individual replacement system and now we are 
rotating units.
    So I think the rotation of units is better in many regards, 
and the Chief of Staff of the Army can discuss that in some 
detail. But we are addressing that, and we are going to take 
steps to ensure that, if there are difficulties, they are 
minimized, and we are doing that right now through the 
planning.
    General Schoomaker. If I may add on to the Secretary's 
comment, because I think this really is important for a total 
understanding. This is not World War II any more. It is not the 
Cold War. We are not a mobilizing Army. We are an Army that 
goes to war as we are. One of the serious problems we have is 
this issue of medical readiness in Reserve components. Under 
the current rules they get one physical every 5 years and, 
quite frankly, we have real problems in dental readiness.
    So when we mobilize soldiers and bring them on out of the 
Reserve component, if they are not medically ready we now are 
liable and responsible to return them and correct their 
problems before they are returned to the system. This is a 
result of some of the things from Operation Desert Storm and 
all the rest of it.
    So we now have mobilization rules that say we will mobilize 
soldiers for 25 days and establish their level of readiness 
before we mobilize them for the long term, because part of what 
we have, if you look at this Fort Stewart example, of all those 
600 something soldiers less than 20 were injured as a result of 
that deployment. A lot of those soldiers never deployed because 
they were determined to be medically unfit, and some of them 
were deployed and returned because of their medical fitness.
    So this is a huge administrative burden on the 
mobilization. One of the issues that we have to look at in a 
seamless Army that is going to go to war tomorrow, based upon 
the level of investment that we make today and yesterday, is 
this issue of what the standard should be and how we are going 
to accommodate that, and it is huge. So I just wanted to bring 
that out because the overwhelming story here is the level to 
which the Guard and Reserve contributed to the success of the 
war on terrorism, the overwhelming success of all those great 
people that did not fall under the category of these great 
soldiers that happened not to be able to be deployed.
    I will redouble the statement that the Secretary has made 
here: This movement that we are going to do in the early months 
of next year is huge. This is going to be huge, and we are 
anticipating to be really challenged in this area that you are 
talking about right here.
    Chairman Warner. Senator Akaka, we thank you for that very 
important line of questions and the thorough response. As the 
base closure round comes up, you had better look at this issue 
where you have to, because of your infrastructure structure, 
build tempo. That rings some bells.
    Secretary Brownlee. Yes, sir.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. I agree with that, Mr. Chairman.
    First of all, I appreciate members of this committee on 
both sides of the aisle who, in their opening statements and 
comments, talked about the troops and their intense loyalty and 
commitment to duty. On the trips I have taken over there, the 
one thing that has offended our troops more than anything else 
is--and they have come up to me and said this. They have said: 
Why is the media back there portraying us as something that we 
are not?
    As you read, the articles and--what was it?
    General Schoomaker. The Soldier's Creed.
    Senator Inhofe. The Soldier's Creed, and I remember that 
when I was a soldier. I had not heard it in a long time. I was 
just thinking, they portray everything that you said in that 
creed. I just think they are a great bunch over there.
    Like many others, last week on Veterans Day I went around 
to the hospitals and talked to them. Secretary Brownlee, I 
always go to Landstuhl when I am over there to talk to some of 
them. You always get this commitment. They want to get well and 
want to go back to their units. One of them that I saw last 
week, he was Specialist Scott Parks. He is from Lawton, 
Oklahoma. I just found out 30 minutes ago--and I could not 
believe this because he had pins in every bone in his body as 
he was lying there--that he was released to go back to Lawton 
on convalescent, and he said: ``Then I want to get back to my 
unit.'' So I just think it is so important that we keep saying 
that, because some people out there are not hearing it.
    In some of the areas of deficiencies, you have covered them 
real well, but I think it is important on the body armor just 
to repeat it one more time. Do you think by the end of December 
you are going to have this corrected? Is that what you said, 
Mr. Secretary?
    Secretary Brownlee. Senator, if we can maintain the current 
level of production we should have everyone equipped by the end 
of December.
    Senator Inhofe. All right. That is all we could ask for at 
this time and I am very glad to hear that report.
    Now, for the up-armored HMMWVs, we had in the supplemental 
a little over $239 million. That was for the purchase of new 
armored HMMWVs. That did not address upgrading the ones we have 
right now. Do you have adequate resources to do that right now, 
or is that a deficiency that we need to address?
    Secretary Brownlee. Sir, I am not sure we do, because some 
of these things that we have gone out and looked for are new 
initiatives, and I will have to get back to you on that. There 
are initiatives we have taken, some of them quite surprising to 
us that they might be possibilities, and we are in the process 
of testing various alternatives. As far as I am concerned, if 
they work and we can get them faster, we will buy several 
different.
    [The information referred to follows:]

    The response to this question is addressed in questions for the 
record ``Requirements Process'' #7, Senator Levin.

    Senator Inhofe. That is something the public is very much 
interested in and we are at this table, too.
    Secretary Brownlee. Yes, sir.
    Senator Inhofe. Another area of deficiency that has not 
been mentioned is our deficiency in our artillery capability. I 
know you are tired of hearing me talk about that, but here we 
are with the Paladin, technology from World War II. Even 
members of this committee, when we told them that you had to 
stand outside and swab the breach after every shot, did not 
believe it until they saw it and they realized it. That is a 
huge deficiency.
    I think now with the Future Combat System (FCS) coming on 
we are talking now about how you fix the problem that is there 
today, while looking into the future a little bit. I agree with 
what General Shinseki was very adamant about, getting into this 
faster FCS, the lead element of that system being a non-line of 
sight (NLOS) cannon. I would like to hear just briefly whether 
you agree that that should maintain its primary position as the 
lead portion of the FCS?
    Secretary Brownlee. Yes, sir, I could address that. It was 
our intent to field the FCS in 2008 and the NLOS cannon was to 
lead part of that. When we went to the Defense Advisory Board 
last summer what happened was, in order to get the seal of 
approval from our headquarters, we had to reduce risk in the 
program. That caused us to have to go back and identify 
additional dollars to put into the program and also extend the 
time allowed for development and testing.
    That pushed the fielding into fiscal year 2010. Now, you 
and I have discussed the part of prototyping and getting some 
things out there for testing, and we are certainly going to do 
that. I know that there is a law that----
    Senator Inhofe. We are running out of time here, but as far 
as a preproduction vehicle, though, we can still meet that 2008 
deadline. General, do you consider that true?
    General Schoomaker. Sir, there is no change from our 
previous conversation in terms of manned prototype units.
    Senator Inhofe. I appreciate that. I appreciate that very 
much.
    Nothing has been said about Lieutenant Colonel Allen West. 
I know it is a sensitive subject, but having served in the Army 
and served with the court-martial group, I am familiar with 
Article 32. A lot of people--and I know that Oklahoma is not 
different than many other States and I am sure that each member 
up here has heard the same thing--they are concerned about it. 
During an interrogation, the interrogation that took place may 
have been more forceful than some think it should have been, 
but it led to the apprehension of two terrorists and prevented 
an attack on soldiers in his command.
    I would only say this, and this is not a question. I think 
the message--if we were to end up punishing someone for doing 
what it took to protect the soldiers entrusted to his command--
it would be the wrong signal. I can only say that if something 
does not come up that would totally change my thinking on it in 
this Article 32, then I would continue to have the position 
that Lieutenant Colonel West should be commended for his 
actions in an interrogation that prevented an attack on the 
soldiers in his command. That is my feeling and I think others 
may share it and may not want to say it.
    Lastly, there is a lot of discussion about the security 
forces over there. I think all of us would like to see the 
security forces going up and our troop deployment going down. I 
know that is what you want. But there is some discussion as to 
how well-equipped they are. My feeling is if you have some that 
are not that well-trained, they can take the positions of 
others who would then be released to take more positions that 
perhaps they are trained for.
    Right now, for the first time I think, last week the 
security forces reached 131,000 to our 128,000. It is the first 
time that they have outnumbered ours.
    Do you have any comments to make about the future of that, 
the security forces, and what your goals are in that respect?
    Secretary Brownlee. Sir, we are very enthusiastic about the 
use of the Iraqi forces to pick up some of these security 
missions, especially those of guarding static positions and 
providing security for facilities and things like that, where 
we just do not think it is appropriate to use U.S. forces to do 
those kinds of things.
    General Schoomaker. Sir, a couple points here. I agree and 
the operational commander, General Abizaid, fully supports--
centrally, his whole program over there is to get an Iraqi 
face, get Iraqi ownership, and transition to Iraqi sovereignty 
as early as possible. The lead elements of that are getting the 
security forces in place and reducing the exposure of American 
forces.
    The other side of that coin is we are challenged in terms 
of the equipment for these Iraqi forces and we are under 
instructions to actively, very aggressively look for excess 
defense articles and other kinds of things to help in the 
equipage of these forces over there. So I think it is important 
and I think we are at a significant point of transition in this 
program.
    Chairman Warner. Thank you, Senator Inhofe, and thank you 
for bringing up the case of Lieutenant Colonel West. Certainly 
my office and, I think you are quite correct in your 
observation, all congressional offices have a high level of 
concern about this case. Now, I know that under the UCMJ, we 
should protect everyone's rights. But do not let the lawyers 
have exclusive jurisdiction over what I call some sound 
judgments that have to be made by thoroughly seasoned combat 
soldiers like yourselves.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman.
    Welcome, gentlemen. I want to go over some of the ground 
that has been gone over, but for the obvious reasons. That is, 
so many of these young soldiers' lives are at risk traveling in 
these light-skinned HMMWVs. Three out of the last four soldiers 
from Massachusetts killed were in these light-skinned HMMWVs.
    Last week, when I was out at Arlington Cemetery for Private 
First Class Hart's burial, the parents said: ``If you can do 
anything to make sure that other soldiers who are over there 
are not put in the kind of danger that my son was put in, that 
would be the best thing that we could ever think of in terms of 
our son.''
    So it is not very encouraging to hear that ensuring that 
the HMMWVs are going to have the kind of armor that is going to 
give them the right protection, that we are going to have to 
wait until some time in 2005.
    This issue was brought up to me with servicemen from 
Massachusetts during the summertime and I spoke to General 
Abizaid. He said: ``Well, write me.'' I wrote him in September. 
He wrote back rather general comments. I appreciated his 
willingness to listen and he did listen to what I had to say to 
him.
    Of course, in his second paragraph he says: ``The Army's 
successful rapid fielding initiative was expanded in August 
2003 to ensure no soldier will deploy in harm's way without the 
proper equipment.'' Well, they are being deployed without the 
proper equipment when you send these young soldiers out in 
these light-skinned HMMWVs.
    It is difficult for me to understand why in these United 
States it is going to take us the amount of time that it is 
going to take us, until 2005, to get the kind of HMMWV that is 
going to have the protection these servicemen need. Now, I 
understand that your budget for this year--the maximum HMMWV 
capacity, according to the manufacturer, is 2,311. This year, 
with the 2003 and 2004 supplemental, you are getting 2,122. So 
there are still 189, as I understand the figures that were 
provided by both your staffs when they came to brief our 
staffs, and also by the committee staff. I do not understand 
why we are not getting the full amount to start with. What we 
are doing out there in terms of American manufacturing to try 
and get this going?
    Secretary Brownlee. Senator, if I could. I appreciate the 
question, sir, but when I said 2005 I indicated to you that is 
what we were told at the time, and we have not accepted that 
either, sir. We are moving as fast as we can to get them 
quicker.
    I did not know there was a discrepancy between what their 
capacity was and what we were buying, because I have been 
assured we are buying everything they can produce.
    Senator Kennedy. Will you check that?
    Secretary Brownlee. I will, sir.
    Senator Kennedy. It is my understanding it is 118. 2,122 is 
the number that are being purchased with the 2003 and the 2004 
money. I have the five different bills here--I mean the 
different quantities that are bought, and it is the 2,311. Why 
can they not--are they running their plant 24 hours a day? What 
is the situation?
    Secretary Brownlee. Our understanding is, sir, they are 
operating at maximum capacity in that plant and we are moving 
to equip other lines within that plant.
    Senator Kennedy. It is inconceivable that, with our 
manufacturing capability, we cannot produce that kind of 
vehicle more rapidly and replace it.
    Now, I asked--just to mention one other item in terms of 
Fort Stewart. I went down and took a trip to Fort Stewart and 
had a young serviceman speak to me down there about there being 
two medical personnel for 600 soldiers--I guess it is a variety 
of different health challenges, some injuries, some non-combat-
related. But there were 600 of them.
    When I was there, they said that they were going to have to 
wait for an orthopedist. A soldier with a cane said he was 
going to wait until after Thanksgiving--I was there probably a 
month ago--in order to get an operation. These were a series of 
different health challenges, of delays for these servicemen. 
They are really unthinkable in terms of today.
    How do we know that there are not other Fort Stewarts 
around the country? What have you done to make sure? I know you 
have visited many of them.
    Secretary Brownlee. Yes, sir. As soon as what was happening 
at Fort Stewart became apparent, we sent teams out from the 
Surgeon General's office and Forces Command to examine all 
these other sites, report back, and recommend actions. We have 
moved medical assets, we have moved soldiers to where more 
medical assets are, and we have leased equipment. Some of the 
limiting factors were MRI and so we have taken steps to lease 
some of those machines, to reduce these bottlenecks.
    You mentioned orthopedics. That was a bottleneck and we 
have either redistributed assets or gone on contract and hired 
other assets to try to reduce this bottleneck.
    Senator Kennedy. Can you give me what the waiting time is 
now in terms of these servicemen to get their kinds of 
activity? I will send you a note on that if I could, please.
    Secretary Brownlee. Okay, sir.
    Senator Kennedy. The last item, and my time is just about 
up, and I know Senator Clinton is going to get into it, about 
closing these schools on these bases for the servicemen. We 
find that some of the best education that is taking place for 
young people in the country is on these base schools, and there 
is increasing anxiety among many of the children because of 
their parents being away for a long period of time. That is a 
factor and a force now.
    With the anticipation that some of these schools may be 
closed down, can you give us what the considerations are? What 
do you need to keep these schools open? We have difficulty 
enough around here trying to fix things that are not working, 
but to get things that are working and knowing how important 
quality education is for these servicemen and women to know 
that they are getting the good education, what can you tell us 
about it, the current program as to the anticipated closing of 
these schools?
    Secretary Brownlee. Senator, it is my understanding that no 
decision has been made on these yet, and the Army will make its 
case to try to keep these schools open. There may be some 
exceptions to that, but we agree with you. At a time our 
soldiers are deployed and their families are at these places, 
we think we need----
    Senator Kennedy. Who makes that decision? How far up? You 
will let me know who makes that decision?
    Secretary Brownlee. I will, yes, sir.
    Senator Kennedy. Do you know about when it is going to be 
made? You will let me know?
    Secretary Brownlee. Yes, sir.
    [The information referred to follows:]

    The Domestic Dependent Elementary and Secondary Schools (DDESS) 
Transfer Study, begun 2 years ago, was structured to begin an analysis 
of individual DDESS and to document the benefits and costs of 
maintaining them on stateside installations. The design of the study 
went even further and projected costs and other impacts related to any 
possible future transfer of an individual school to its respective 
local education agency (LEA). Specific fiscal and nonfiscal data 
provided by each of the respective LEAs has been factored into the 
study. Quality of life issues, as well as student achievement data, 
have also been noted as a part of the transfer study.
    To date, no decision has been made to make any changes to the 58 
schools involved in the study. The Deputy Under Secretary for Defense 
for Military Community and Family Policy is currently reviewing the 
study.
    Any decisions regarding the future of the schools will be made on 
the basis of the most deliberate, thoughtful consideration of all the 
data collected with significant weight given to the testimony of all 
interested parties. Decisions will be made on an individual school 
basis.
    No action will be taken without sufficient notification to a 
school, community, or command. Notification of any changes would be 
provided at least 1 school year or more before any change(s) become 
effective. No specific timetable has been established for reaching the 
final decision.

    Senator Kennedy. Thank you very much.
    Chairman Warner. Thank you, Senator.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Schoomaker, my understanding is after this next 
rotation 40 percent of the troops in Iraq will be from the 
National Guard or Reserves. Is that true?
    General Schoomaker. Sir, that is approximate, but I think 
that is about right.
    Senator McCain. How much do we need to increase Army end 
strength so that we do not have to rely on the Reserve 
component for nearly half our troop strength in a combat zone?
    General Schoomaker. Sir, I am not sure I understand your 
question. How much do we have to increase the troop strength?
    Senator McCain. The regular Army, so we do not have to have 
nearly half our troop strength be Guard and Reserves.
    General Schoomaker. 60 percent of our Army is Reserve 
components, 60 percent.
    Senator McCain. Who are designed to perform combat roles 
for a year at a time.
    General Schoomaker. No, sir, they were designed to expand 
the Army----
    Senator McCain. General Schoomaker, that is not what keeps 
Guard and Reserve people in the military, if you keep this kind 
of burden on them. You were talking about morale. I agree, 
their morale is good, they are ready to fight. They are not 
ready to stay in at this kind of deployment schedule. They 
might as well be in the regular Army.
    You do not even have to reply to that. I know too many 
people that do--look, here is the problem. You mentioned that 
you were in an Army without morale. One of the reasons why the 
Army did not have good morale in the 1960s and the early 1970s 
is because the American people did not think they were doing 
the job and did not support them.
    Here is your problem, General Schoomaker. A, USA Today/CNN-
Gallup Poll asked, ``Question: Do you approve of the way that 
the U.S. has handled the situation with Iraq since the major 
fighting ended?'' On April 23, 80 percent of the American 
people approved, 18 percent disapproved. Today, 42 percent of 
the American people approve and 55 percent of the people 
disapprove.
    That should concern you. That should concern you greatly, 
since you made reference to a previous time in the history of 
the Army. To me, it is directly related to the number of 
casualties that the American people see coming home. Those 
casualties are a result of our failure to address the problem 
as it existed last August, when I was over there and talked to 
so many people who said: ``We need more troops in the Sunni 
triangle. We need more troops, and we need to combat that.''
    I came back and said we need more troops. No, the 
commanders on the ground do not ask for it. What has happened 
since August? The numbers of improvised exploding device (IED) 
attacks on American troops, wounded American troops, and killed 
American troops are all up. There is no objective indicator 
that would show that things are improving in Iraq.
    Now we have a new bombing campaign, which, according to The 
Washington Post, has a surreal quality to it: ``Eager to avoid 
civilian casualties, U.S. officials have gone to great lengths 
to attack buildings, homes, and warehouses only when they are 
certain they are empty. In a few cases, they have even warned 
security guards to leave before bombing started. `I worry that 
blowing up empty buildings does not demonstrate our resolve or 
seriousness to the enemy,' said retired General Richard 
Senrich, who plays the enemy in Pentagon war games.''
    We need more troops of the right kind there. You and I in 
previous conversation agreed that intelligence was a prime 
requirement. If the people do not think you are staying, 
General, you are not going to get cooperation and good 
intelligence. At the time we announced the transfer of power to 
Iraqis, which I strongly support as far as the government is 
concerned, we announced troop drawdowns. Now, it does not fit.
    I am worried as a believer--as one who is deeply concerned, 
because we have to win. We cannot afford to lose this conflict. 
But this absolute obstinacy to admit--your predecessor 
testified before this committee that we ``need several hundred 
thousand troops to secure post-war Iraq.'' His words seem to me 
more prescient almost every day.
    So I would like to hear your rationale for how we are going 
to reverse the trends--those are facts, not opinions--the 
trends that have continued up as far as American casualties and 
the declining American support for what we are doing in Iraq 
are concerned.
    General Schoomaker. First of all, I share your concern. I 
do not think it is my problem; I think it is our problem about 
what the American people think about this.
    Senator McCain. I do not quite understand that answer, but 
go ahead.
    General Schoomaker. I think it is the problem of all of us 
together to lead and explain and to----
    Senator McCain. A lot of us have been trying to do that, 
General.
    General Schoomaker. Yes, sir.
    I would also like to tell you that--as you know, we have 
had this conversation--I am not running the war on Iraq. I am 
supporting the operational commander over there. We are doing 
everything that they ask us to do. I talk every week with the 
commanders on the ground over there about what they need and we 
are moving it. There has not been one commander that has told 
me they want more troops on the ground over there. The whole 
point is we are trying to reduce the exposure of our troops and 
to transition to an Iraqi face, an Iraqi handling of what is 
going on over there.
    Now, there is no question that there are parts of Iraq that 
we need to surge troops into and there are parts of Iraq that 
may not need the number of troops that at earlier times were in 
there. That is up to those commanders on the ground and General 
Abizaid to figure out.
    But the only thing that I can tell you is I share your 
concern about the will of the American people, and that is why 
I have made some of the statements I have here. This is 
important. This is not something that we can quit on. We have 
to win and we will. I am concerned that we are providing the 
warfighting command over there what they need.
    Many of these issues that have been brought up here today 
are all the results of previous investment in this force. I 
mean, just Senator Kennedy's question on the up-armored HMMWVs; 
we have moved all of the up-armored HMMWVs from everywhere else 
in the world into this place. It is not just what we are 
producing, it is what we are moving from everywhere else. The 
same principle applies to the issue that you have.
    So in principle I do not disagree with you, but I am 
telling you that I cannot in full faith tell you that adding 
end strength to the United States Army at this time is the most 
important, pressing issue that we have. It is a long-term 
solution, it is an expensive solution, and it is not going to 
solve what we are doing right now.
    Senator McCain. Thank you, General. But I continue to 
recommend an increase in marines, Special Forces, 
counterinsurgency, counterintelligence, and linguistic 
capabilities. I recommended it strongly in August. Things have 
deteriorated since by any objective viewpoint. You cannot wait 
forever. Otherwise the situation is going to turn very serious.
    General Schoomaker. Sir, when we get in closed session 
perhaps we can re-address what you just spoke about there and 
perhaps you will feel better about some things.
    Senator McCain. Unfortunately most Americans are not privy 
to those briefings.
    Adnan Pachachi, a senior member of Iraq's Governing Council 
(IGC), recently had this to say about all the talk coming from 
the administration about American troop withdrawals: ``In the 
current security crisis, any talk of a withdrawal would swell 
the ranks of the insurgents.'' I think we ought to pay 
attention to him.
    I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    It is fortunate that Senator McCain and others have the 
military experience that we can bring to bear on the historic 
perception of this conflict.
    I fully recognize, General Schoomaker, that by laws of 
Congress--as Chief of Staff of the Army--while the American 
public thinks you are the number one, as you are in the eyes of 
every soldier, but again, with the decentralized command 
structure into the combatant commanders, the commander in Iraq, 
General Abizaid, who is a very competent soldier, is the one 
that has the primary responsibility with regard to the tactics 
deployed, together with his deputy, General Sanchez.
    I just want to make it clear to those observing here, you 
are not ducking it. It is just you are properly putting the 
responsibility where it is, although you said clearly you talk 
to each of them weekly. I commend you.
    Now, Senator Levin would like to have recognition. He made 
a comment earlier which he wishes to elaborate.
    Senator Levin. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    I asked you a question before, General Schoomaker, about a 
comment by General Swannack that the Army was going to, ``use a 
sledgehammer to smash a walnut.'' I have reread the entire 
article and I think he probably was saying that that was the 
right thing to do, he approved that as a policy. I may have 
suggested that he had a question about it, whereas I was 
raising the question as to whether that is the correct policy 
and the correct rhetoric or whether or not that fuels the 
insurgency and gives a propaganda handle to those that we are 
fighting.
    I asked you if you would call him about it and that is 
fine. But would you also then call General Abizaid relative to 
that approach and that comment.
    General Schoomaker. Yes, sir.
    Senator Levin. I do appreciate the opportunity to clarify 
the record, if necessary, but at least the implication that he 
was apparently questioning the wisdom of doing that--whereas I 
was raising the question about the wisdom of that policy and 
that rhetoric in these counterinsurgency circumstances that we 
find ourselves.
    Thank you very much.
    Chairman Warner. Thank you, Senator Levin.
    For the benefit of the Members, Secretary of Defense 
Rumsfeld will be before the Senate again in closed session 
today and I think that is a very appropriate issue that we 
should raise with him, because I think many of us are concerned 
about the tactics. Not that we are critics of it, but we would 
just like to have a greater explanation as to how these 
substantially revised tactics are or are not being successful 
and the long-term implication on the ability of the Iraqi 
people to come and work more closely with not only our troops 
but to form their own government eventually.
    Senator Levin. Is this a ``winning hearts and minds'' 
approach.
    Chairman Warner. Yes.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Just as a point of reminder, in the Defense Authorization 
Bill we included, coming from the Personnel Subcommittee, 
language asking the military to develop a policy with husband 
and wife deployments. We found there is not really an official 
policy and we have asked for one recognizing that under the 
current circumstances, with the heavy use of Reserve and Guard 
component parts, that would be an important thing to deal with.
    So, Senator Allard, it is officially being requested, and 
we would plan to follow up on that.
    I appreciate the witnesses being here today and being so 
candid with respect to a number of very sensitive issues: force 
protection in terms of the right equipment, the right armor for 
equipment, the right armor for body protection. I received a 
call about a week ago from a parent concerned about his son, 
who is a scout conducting house to house searches. His concern 
about safety was whether or not he was being provided with the 
right body protection equipment.
    Apparently he is wearing Kevlar and there are some soldiers 
that are wearing a composite body armor which provides even 
more protection. My response to him will be that by the end of 
December we should have that kind of body armor protection.
    It would seem to me, though, that if you are going from 
house to house, where you face hand-to-hand combat, that 
perhaps those soldiers would be in the first priority to have 
that kind of composite protection now, not by the end of 
December.
    Secretary Brownlee?
    Secretary Brownlee. Sir, I am surprised if he does not have 
it. If he is performing the kind of mission you just described, 
he should have it and I am surprised that he says he does not, 
because we have been assured that those people do. So I will be 
happy to check into more detail.
    Senator Ben Nelson. Obviously you cannot take care of each 
individual case, but each individual case can result in a 
casualty, and that is why they are all important. So I would 
appreciate your checking that and I will get back to him and 
explain to him what the military is doing to provide that kind 
of protection.
    The issue of morale does come up and has come up. Having 
been in Iraq earlier this year, this summer, meeting with 
troops, I can say that the morale was high. Their concerns were 
also high about deployments, about rotation, about leave. Many 
of those issues have been addressed. I know, General 
Schoomaker, we talked about it prior to your confirmation. It 
appears that you are on the road to finding solutions that will 
not only put some sort of terminal point on deployments so that 
they can know, but so that they are aware of it as they go in, 
because I think that was really running a tremendous risk of 
harming troop morale.
    But still, multiple deployments, even if you know the point 
of termination of that deployment, creates a morale problem 
back home for reservists and for Guard families. When the 
family is not happy, it is hard for anybody to be happy in the 
service of their country because of their obligations that are 
continuing.
    I hope that this will be a boost towards transformation, 
getting the right mix, as you say, of Guard and Reserve 
personnel as part of the regular fighting machine, so that we 
are not having to rely on those folks who are not signing up to 
be part of the Active-Duty Force, but find themselves in some 
cases for longer deployments, more multiple deployments, than 
the active duty.
    If it does not become a major morale problem, as I think it 
will, at the very least it becomes a recruitment and retention 
problem that will be something we have to deal with. It is 
perhaps appropriate that there are bumper stickers going 
around--I will clean up the language, but it is a bumper 
sticker saying: ``One weekend a month my foot.'' I think we are 
all aware that people will assume obligations and they will 
fight for their country, but we have an obligation to keep the 
responsibilities and the commitments we have made with respect 
to reservists and guardsmen that they not become part of the 
active duty.
    Finally, I might mention something that I have found, 
personally. Seven Nebraskans have been casualties in Iraq and 
my office was only sent written notification in three of those 
cases. In the remaining cases we had to seek out the 
information from the Pentagon. In some cases, two to be exact, 
we had to contact the base where they had been stationed 
directly.
    It is awkward to call the families to find out the details. 
We would prefer to find it through the ordinary chain of 
command and through the Office of Protocol. What we would like, 
if it is at all possible, is not only to make sure that that is 
happening right for Nebraska, but it is happening right for the 
other States, because I am sure my colleagues are all 
experiencing some of this themselves.
    So thank you for your presence here and I perhaps did more 
of the talking than you got an opportunity to respond back. But 
if there is anything you would like to say, my time has 
expired, but I am sure they would extend the courtesy to get a 
response.
    Secretary Brownlee. Senator, I would say only that we share 
the concerns you described, especially in notification of 
families and loved ones. That is very high on our list. 
Sometimes the media gets in front of us on this because of the 
nature of communications these days. As General Schoomaker and 
I can tell you, in the military sometimes--most of the time the 
first reports are incomplete or inaccurate. So we try to get 
complete and accurate information before we make these very 
critical notifications. Sometimes that takes longer than any of 
us are comfortable with and sometimes the media does get in 
front of us. But we share your concern on that.
    General Schoomaker. Yes, sir. I would like to just add--and 
I support what the Secretary said and we will follow up on 
this, the information piece. But you raise a good question and 
I think it goes back to something I was trying to allude to 
earlier. We have what we have in terms of Active, Guard, and 
Reserve Forces. The question is, do we have the relevant force 
for what this Nation needs to do?
    If we were unconstrained and we were able to use our 
imagination, we could probably come up with many alternatives 
to the kind of construct that we have right now. But we have 
what we have, and this is what we invested in. We have as much 
body armor as we have because that is what we invested in. We 
have the amount of HMMWVs because that is what we invested in. 
We have Reserve and active expectations because that is what we 
built.
    But the big question is, what is the requirement for this 
Nation in the future? If our current construct is inadequate, 
then I think we have a shared responsibility to figure out how 
we are going to transform and change the expectations and 
determine what it is we are going to use the Armed Forces for. 
I think it is as simple as that. As simple as it is, it is a 
huge issue.
    So part of what I face with the Army--and it is a great 
Army; it is the greatest Army in the world. But the question 
is, is it as great as it needs to be, as it should be, and is 
it as relevant to today's operational requirement and 
tomorrow's requirement as what it needs to be? That is the 
issue that is before us. The kinds of solutions that we could 
imagine are huge and expensive, and I think it is an issue that 
we have to think about on this.
    So I just appreciate the opportunity to respond, because I 
think how you think about it depends on where you get on this 
train. The purpose of this Army is to meet the needs of the 
Nation. If the needs of the Nation change and the means that we 
have are insufficient, then we have to take a look at a 
different way of meeting the needs, because I do not think we 
have the option of ignoring some of the needs of the Nation 
just because it is inconvenient for certain people and their 
expectations are not being met on things.
    So that is why I read this Soldier's Creed. It says the 
mission is first.
    Senator Ben Nelson. Thank you.
    Chairman Warner. Senator, we thank you. That is a very 
important line of questioning.
    I listened very carefully and I respect your responses. In 
today's world of instant warfare, attack from sectors that we 
knew not, lack of state sponsors in most instances, we have to 
reach onto the shelf and take what is there. So I urge each of 
you in your fulfillment of your responsibilities to try and 
look into that future and come to Congress and say: ``Look, 
this could happen and we want to put some of this new high tech 
equipment on the shelf now for our successors to have in 
place.''
    General Schoomaker. Sir, we all want the same thing.
    Chairman Warner. Good.
    General Schoomaker. There is no question about it.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I have enjoyed 
this hearing and I think it has been very informative.
    General Schoomaker, I really appreciate your remarks about 
the morale of our soldiers. The retention and recruitment is 
solid across the board, really above our goals. When I meet 
with soldiers I find they are committed. I was with Private 
First Class (PFC) Chris Busby from Valley Head. His brother was 
with the military police (MP), he is an MP, his daddy was an 
MP. He is 20 years old. I said: ``Why did you join?'' He said: 
``Well, after September 11 I thought I ought to do something 
for my country.'' He took a serious injury in the lower leg.
    A friend of mine's son, Sergeant Larry Gill, was injured in 
a Beirut bombing as a marine, now in the National Guard 1165th 
MP unit out of Fairhope, with another serious leg injury. He 
wants to stay in. Both of them want to stay in.
    I was with a lieutenant colonel I met at Walter Reed. He 
had a serious leg injury. I asked him how his soldiers felt as 
they moved about the streets, how concerned were they. I think 
he misinterpreted me. He said: ``They are not concerned, sir; 
they are warriors. They are prepared to serve their country and 
they are not worried about their personal safety.''
    All of them made me feel good about it. Also, as a former 
Army reservist for 10 years, I would just say these soldiers, 
these Guard and Reserves, they deserve our admiration and 
thanks. They are heroes. They do not need to be looked at as 
victims. Their families all are suffering to some degree, but 
they are patriots also and they are serving and they are proud 
to serve, and we ought to be proud that 40 percent of the 
missions in Iraq are being filled by Guard and Reserve capably. 
Everybody I asked over there said there is no problem, no 
falloff in capability.
    The MP units that were there, almost half of them were 
police officers and State troopers back home with many years of 
experience in law enforcement. I do not think a young PFC can 
be as effective on the streets of Baghdad as a 40-year-old 
State trooper can be, whatever their rank. So we are doing a 
lot of good things there and I am really, really proud of our 
Guard and Reserve.
    Alabama has the highest number of Guard people in the 
theater, or ordered for deployment, of any State in the Union, 
and we are proud of them and their service.
    I would just say, General Schoomaker, you commanded the 
Delta Force, you have commanded Special Operations Forces. I 
guess my question to you, a little bit along with Senator 
McCain's comments on intelligence, Special Operations Forces, 
and the ability to work with indigenous personnel--do we need 
more Special Forces? What plans do you have in the transforming 
of our Army to have more people with the kind of capabilities 
that would fit in Iraq?
    So my first question is: Do the Special Forces capabilities 
that our people have, are they the right mix for a situation 
like Iraq and do we need more and do you have plans for more?
    General Schoomaker. Sir, we are moving and, first of all, 
let me say that the Special Forces belong to the commander in 
chief of U.S. Special Operations Command (SOCOM) and I support 
him in terms of his structure. As part of our transformation, 
we are moving end strength or authorizations into SOCOM for a 
variety of things, not only the way we are organized in Special 
Forces, but the psychological operations forces, civil affairs 
forces, and the other capabilities that he has within that 
command.
    I think it would probably more appropriately be put to 
General Brown down at SOCOM in terms of whether or not he has 
enough and what his structure is, because I would be speaking 
from a position of 2000 when I retired.
    Senator Sessions. In your vision for the transformed 
military, it seems to me that we have proven the validity of 
the Special Forces in places such as Afghanistan.
    General Schoomaker. No question, no question.
    Senator Sessions. What a remarkable development that was.
    General Schoomaker. I think we have moved, and of course I 
go back to the bad old days of the post-Vietnam kind of dip in 
our Special Forces. I am extraordinarily proud of where we have 
brought not only the Special Forces but the entire Special 
Operations capability of this Nation to where we sit today. 
Congress, with the Cohen-Nunn amendment, quite frankly, ought 
to take a great deal of credit for their foresight in helping 
create a unified command to have the kind of force that we have 
today, and you ought to be proud of that, because I certainly 
am.
    But I think one of the things we have seen here in this 
last several years is the absolute viability of the construct 
of Special Operations Forces in concert with conventional 
forces, in concert with our allies and in concert with the 
interagency, in terms of what the power of that is. You take a 
look at Afghanistan and you think about the degree of success 
that relatively few people had, you are talking about captains 
and sergeants who won that war. There were not big general 
headquarters and all that stuff over there. These are captains 
and sergeants operating at the extreme end. Some of those 
insertions were 900 miles one way to put those teams in. They 
are operating and achieving extraordinary results, the force 
multiplier factor working with the Northern Alliance forces and 
the other indigenous forces.
    So I think it has demonstrated its viability, and the 
integration of other joint capabilities into that force. So if 
you are asking me do I think that there is a future there, I 
think there is a huge future there and I think there is lots 
that we will be doing as we transform our force to leverage 
that capability, integrate it, and understand how we can work 
better with it, and how we can leverage some of those ideas 
into the conventional force. That is what we are doing.
    Senator Sessions. General, I appreciate your leadership and 
I am glad that you understand this as well as or better than 
any person who has held your position.
    Secretary Brownlee, I did meet with some of the top Guard 
and Reserve officers recently. I was pleased to hear that they 
had not only had positive support from Secretary Rumsfeld, but 
that he was positively insistent that we do a better job of 
utilizing our Guard and Reserve, that the mobilization process 
be not too prolonged, that demobilization be shortened, that 
their concerns be dealt with, that there be the right mix in 
the Guard and Reserve.
    I suppose that you share those views?
    Secretary Brownlee. Oh, yes, sir. We are working on all 
that, sir. Again, we would like to achieve a standard of 
perfection here. Last year when some of these dips in morale 
occurred, it was because we had uncertainty in the length of 
the tour. That is one of the reasons we moved to establish a 
12-month boots on-the-ground for both active and Reserve 
components in accordance with the combatant commanders' desires 
and also to ensure that there was predictability for both the 
soldiers and their families.
    Senator Sessions. Two things I think I heard: They want to 
know when they are coming home and what their time limit is, 
and you have made progress on that.
    Secretary Brownlee. Yes, sir.
    Senator Sessions. Second, when they are deployed they want 
to do important work.
    Secretary Brownlee. Oh, yes, sir.
    Senator Sessions. If they feel like the work is not 
important--so that is my advice. My time is up.
    General Schoomaker. Senator, could I add real quick here?
    Senator Sessions. Yes.
    General Schoomaker. I think we have a 99-percent solution 
to this issue of certainty, but I would be remiss if I did not 
just make it known right now that circumstances could change 
that would cause us to have to change again. I can envision 
circumstances where we would have to tell people that we told 
are going to be out there 12 months that they are going to be 
there longer. I think that is just reality.
    Senator Sessions. I think that is fair enough. We hope that 
does not happen.
    General Schoomaker. I do, too. But I just do not think that 
we ought to cut off the possibility. I think we have a 99-
percent solution. I hope it is a 100-percent solution.
    Chairman Warner. Thank you, Senator, for bringing up that 
point, because this hearing is being broadcast to our troops at 
some time in the future and they wish to know that we on this 
committee are very conscious about the rotation policy and 
their families.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen. First, Secretary Brownlee, let me 
endorse your response to Senator Kennedy about the value of 
military schools on posts. I think these proposals are 
generated by people who understand the cost of everything and 
the value of nothing. I cannot think of anything that would be 
more disruptive to morale and the quality of life than to 
return from Iraq or return from Afghanistan and find that the 
elementary schools your children are attending have been 
closed. So good luck.
    General Schoomaker, I would like to return to the issue of 
end strength. You quite rightly pointed out to Senator McCain 
that you are not responsible for the configuration or the size 
of the forces in Iraq, but you are the principal responsible 
for the size of the Army. I found it stunning in your response 
to Senator Warner that, while the Senate amendment would 
increase end strength by 10,000, you indicated you are already 
20,000 over authorized end strength. That would barely be 
legal. In fact, today I would suspect that--well, let me ask: 
Is the end strength of the Army today over the authorized 
limits?
    General Schoomaker. We have on active duty today, as a 
result of our stop-loss, stop-move, about 500,000 soldiers on 
active duty.
    Senator Reed. As I understand, the new authorization is 
496,872, if my math is right. But let us say 496,000. So you 
are already over the authorized strength even with the change 
in the law recently?
    General Schoomaker. Why do you not let me take that for the 
record, if you want to get down to the individual numbers. I am 
talking in order of magnitude.
    [The information referred to follows:]

    The projected fiscal year 2004 end strength, based on January 2004 
data, is 500,600, which is 18,200 over the National Defense 
Authorization Act allowed end strength of 482,400. This includes a 
projected stop loss population of 6,600.

    Senator Reed. I understand, sir. But I think essentially 
that is what I find difficult to understand. This is not a 
situation where you are below your authorized end strength and 
we want to give you more. You are already over and we just 
simply want to make you legal in some respects. Why are we 
being opposed?
    General Schoomaker. What I was trying to demonstrate is 
there is cushion in the system for lots of things, and part of 
what we are trying to do is make sure that we are getting all 
that we are now paying for out of this force. As we are 
exploring this there is ample evidence that there is a huge 
piece of this force, a significant piece of this force, that is 
unavailable to us and could be made available before we come to 
you and ask for the kind of money it takes to sustain.
    By the way, if we can make this piece of the force 
available to us now, it will help us now. Building end strength 
for the future, we may not have the problem we have now in the 
future. That is what I am concerned about.
    Senator Reed. Well, let me respond. I see your point, 
General, but everything I hear, both from General Pace a few 
days ago up in Boston at a speech he gave, and everyone around 
this table, says we are in for the long term. This is a 
generational struggle, and it is not just about Iraq. It could 
be other places. So this notion--I think what you are doing is 
some ad hoc, short-term adjustments to try to squeeze some more 
troops out. As I understand it, there is a 12-percent rate for 
trainees, transients, holdees, and students (TTHS), which is 
the schooling and training and everything else.
    But in the long term, if we are going to stay the course we 
are going to need more soldiers, I think. I commend you for 
trying to find troops within your current force structure, but 
unless our laws are just hortatory you are violating the law 
right now, as I read it.
    General Schoomaker. I do not think so, but if we are we 
will correct ourselves. I think that it depends on when you 
measure it, and we will get into the numbers.
    But what I am not telling you is that we will never need 
more soldiers in the United States Army. What I am telling you 
is that what we are doing right now is informing ourselves as 
to how much better we can do with what we have, and we ought to 
do that first. I could very well be back here next spring and 
tell you that we need more end strength because we see a 
different picture than we see right now.
    Senator Reed. Let me ask in that vein, when do you estimate 
that you will be back here to tell us that you have solved what 
looks to be a 20,000 personnel problem, or on that magnitude? 
When will you be back, General?
    General Schoomaker. As I have said, I still think that we 
will be back here probably in the spring with posture 
statements that will say where we think we are. That could very 
well be part of where we think we are. So I think that this 
transition we are going to go through this spring between 
January and April, let us say, as we have discussed, and what 
we will know about where we are going is going to inform us 
considerably about what we think we are going to have to have.
    It is just not an end strength problem. It is this whole 
issue of what is the role of the Guard and Reserve, what is 
their availability going to be to us, what should our internal 
structure be, and are we really structured to do the kind of 
warfare that we need to be conducting in the future.
    Senator Reed. In that light, let me ask a question. How far 
out are you planning rotations for Iraq? A year out? Two years 
out?
    General Schoomaker. Inside the Army, we are planning the 
rotation for the third rotation, a year out from where we are. 
We are looking even deeper in case we have to go to a fourth 
rotation.
    Senator Reed. In the third or fourth rotation, are you 
going to be using National Guard units that have already had 
one tour in Iraq?
    General Schoomaker. It depends on what the situation is 
over there. If it is required, we will be calling them up.
    Senator Reed. Again, I think it goes back to one of the 
themes that Secretary McCain echoed. That is that we all 
recognize--I have two MP companies and they have already had 
three killed in action (KIA) and several wounded in action 
(WIA), and they are proud and they are doing a great job, but 
coming back with the idea they are going in another year or 18 
months is not exactly what a Reserve component or National 
Guard soldier anticipates.
    General Schoomaker. Yes, sir.
    Senator Reed. My time has expired.
    Chairman Warner. Senator, that was a very interesting 
exchange. I made a quick check and they are, in a time of war, 
able to go 3 percent, and I guess that is 3 percent of the base 
force. A quick calculation would say, just as the distinguished 
Senator from Rhode Island mentioned, I think you are over the 3 
percent. We have instructed our bipartisan staff now to take a 
look at this very important question which you raise.
    Your statement that you are planning the third and fourth 
rotations I do not believe should be interpreted as an omen 
that we are going to be there. It is just prudent planning that 
you must do.
    General Schoomaker. That is correct.
    Chairman Warner. We all have high expectations that the 
current policies of the President will involve greater and 
greater numbers of the Iraqis in all aspects of the turnover of 
their nation back to their hands.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman, and thank you for 
holding this hearing. After the recent reports from Fort 
Stewart, as well as reports about body armor and then the 
survey that appeared in Stars and Stripes about the condition 
of morale, I and others requested that you do this, and I 
appreciate very much----
    Chairman Warner. Senator, you were among the first that 
came to me and suggested that we move swiftly on this.
    Senator Clinton. Thank you, Mr. Chairman.
    Chairman Warner. I thank you for your participation.
    Senator Clinton. I could not agree more with our witnesses, 
who have described this as a test of will that we cannot lose. 
I also wholly endorse the description of our men and women in 
uniform as indispensable and performing selfless service.
    I want to focus for a minute on the disconnect that I think 
sometimes seems to appear between what I know is our commitment 
to our soldiers and some of the statements and proposed 
policies that come out of DOD, particularly out of the Office 
of the Secretary of Defense (OSD). This issue about schools is 
one that I take very seriously, because we have an All-
Volunteer Force and one that I think deserves all of our 
support, and their families are also volunteers and they too 
deserve the support of a grateful Nation.
    In addition to the threatened school closings, which were 
announced out of the blue as a possible action, we recently 
heard about some potential commissary closings abroad and at 
home. I recently received a copy of a memorandum from General 
B.B. Bell, the commanding general of the U.S. Army Europe and 
the Seventh Army, raising very strong objections to the 
proposed commissary closures in Germany.
    In addition to the specifics that he addressed with respect 
to transportation difficulties, weather difficulties, and the 
like, he said: ``The war is very, very real to our European-
based families. I believe we owe it to our soldiers to provide 
compassionate care and service to their families while the 
soldiers are deployed in harm's way. Seeking relatively minor 
fiscal efficiencies through reduced services and loss of 
benefits in this overseas environment during a war erodes the 
commitment we have made to the total force.''
    I could not endorse that more strongly. I would ask 
unanimous consent that this memo from General Bell be included 
in the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Clinton. In this memo he specifically talks about 
Germany, but apparently the proposal goes much further. I know, 
for example, in my own State they are talking about closing a 
commissary in Scotia, New York, and closing the school at West 
Point. For the life of me, I do not understand this, and I do 
not believe it is coming from the professional military. I 
believe it is coming from the planners and policymakers in the 
Department, and particularly again in the OSD.
    So I would hope, both Secretary Brownlee and General 
Schoomaker, that you would make the strongest possible 
objections on behalf of these ill-advised proposals.
    I recently paid a call on one of the teachers from the West 
Point school and learned that General Lennox, now the 
Superintendent, made very clear that this is a recruiting and 
retention device for our All-Volunteer Force. So these 
potential closings are of concern to me as the Senator from New 
York, but also far beyond that, as a member of this committee 
looking at how we are going not only to continue the end force 
we need, whatever it is decided we need, but also to take care 
of the families of those who I think will be rather 
continuously deployed around the world in the missions that we 
are going to be asking them to do.
    So this is a wrong message to send. It is hard to justify 
when we just appropriated $87 billion for the reconstruction of 
Iraq and the biggest defense appropriations we have ever had in 
the history of our country that we would be undermining the 
quality of life of our soldiers and their families.
    So I have joined with Senators Kennedy, Leahy, and Murray 
in writing directly to Secretary Rumsfeld, asking him to desist 
from taking any of these actions that would cut essential 
military benefits, and I would also ask unanimous consent that 
that letter be included in the record as well.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Clinton. I would ask both of you, will you support 
these efforts to keep benefits like these available for our 
soldiers and their families? Mr. Secretary?
    Secretary Brownlee. Senator, we certainly feel the 
strongest sense of responsibility toward our families. We have 
not yet had a chance to engage on these issues, but I certainly 
agree with you on the importance of taking care of families. I 
was deployed twice in a combat theater and I can remember 
myself and most soldiers saying: ``We will do anything they ask 
as long as they take care of our families.''
    Senator Clinton. Thank you, Mr. Secretary.
    General?
    General Schoomaker. Senator, I think it is a great point. I 
would like to just say again what--I think we had this 
conversation in your office. My father was in the Army for 32 
years. I grew up in the Army. I am going on my fourth decade in 
the Army myself. I have a brother who has been in the Army 25 
years, and happens to command a hospital down at Fort Gordon. I 
have a daughter that is in her second year right now in Army 
Reserve Officer Training Corps (ROTC) and went through jump 
school last August.
    So I think of the Army with a big footprint. I mean, this 
is not something that is just academic to me. It goes back to 
the question that I think I answered earlier: ``What kind of 
volunteer Army do we have and what do we have to do to have 
it?'' I think that the issues that you are raising here are 
central to having the kind of Army that we want to have.
    So I will tell you that not only do I support things like 
commissaries and medical benefits and all of these, but I 
support everything we need to do to incentivize the very top 
quality force that we can have. I think it is absolutely 
important for this Nation to do that, because we are going to 
go to war with what we have the day that the war starts and you 
cannot make up for that after we have the emergency.
    I am sorry to go a little long in my answer, but this is 
more than academic as far as I am concerned.
    Senator Clinton. I appreciate that very much, General. That 
is very heartening and I know it comes from your heart and that 
means a lot.
    I would just add, Mr. Chairman, that I think as we move 
forward with many of the plans and recommendations that will be 
presented to us starting in the spring about further 
transformational ideas and the like, that we need to keep the 
personnel in the middle of this, that the individual soldier or 
the individual family is not some ancillary aspect of this 
transformational approach.
    I sometimes worry about some of the things that are said 
and some of the other moves that, frankly, were made at the 
highest levels to hold down growth in pay and benefits, to 
stand against efforts to fix the problems with charging wounded 
soldiers for their meals, and things that just made no sense in 
the great scheme of things fiscally and morally. We keep this 
in mind. Your words will certainly be a good beacon to lead us 
in that way.
    I thank you, General.
    Chairman Warner. Senator, the letter that you made 
reference to and your important questions this morning 
underscore the role of Congress as a coequal branch in working 
with the executive branch, which is the DOD. We have our own 
views. We draw on our own military experience, as in the case 
of Senator McCain. In your case, you are concerned about the 
schooling, which is just as important as whether or not, in 
many respects, the equipment works.
    Now, I would like to take just a minute to ask a question 
which I think should be included in your response to the 
Senator. Having worked in the Pentagon over 5 years myself in 
the Navy secretariat, someone made that decision. Did you just 
awaken some day and a memo came across your desk? Was the 
Department of the Army consulted? Were you involved in the 
decision process by which these reductions in the commissaries 
and the schooling were made?
    In my day we were very much involved in it. When this 
committee eventually gets around to looking at the Goldwater-
Nichols Act and revising it, I think more authority has to be 
restored to the secretariats and the chiefs of staff. That is 
just a sidebar, a little warning to filter across the horizon, 
because I am going to be here a lot longer, thank God, than a 
lot of those folks over there. We have to look at this.
    Now, in response to the question, how was the decision made 
and was the Department of the Army involved?
    Secretary Brownlee. Senator, I will check. I do not think a 
decision has been made yet. I think there are people who have 
gone out and assessed and have made recommendations at some 
level, but nobody has told me a decision has been made on this.
    Chairman Warner. All right. General, do you have any 
further information?
    General Schoomaker. I received General Bell's memo 2 days 
ago and that is what alerted me to the thing. I agree with the 
Secretary. I think that basically what we are in are the throes 
of evaluation. I am certainly not involved in it directly.
    Chairman Warner. I think that maybe your letter is most 
timely, Senator. I know you prepare very carefully for your 
questions. Do you have any knowledge that you could share as to 
how the decision was made, or is it a final decision?
    Senator Clinton. Mr. Chairman, I think that it is one of 
those decisions that is floated out there and everybody is 
waiting to see whether it stays airborne or falls with a great 
thump, and we are hoping it falls with a great thump.
    Chairman Warner. You might have punctured it a little bit.
    Senator Clinton. I hope so.
    Chairman Warner. Thank you very much for your oversight 
responsibilities being fully fulfilled.
    Now, Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back to the committee, to your home.
    Secretary Brownlee. Thank you, Senator.
    Senator Bill Nelson. General Schoomaker, it is good to see 
you again.
    I am going to bring, Mr. Chairman, my experience to the 
table here and, having visited----
    Chairman Warner. Do not be modest. It is rather extensive.
    Senator Bill Nelson. You are very kind, Mr. Chairman. I am 
talking about a more recent experience visiting with a number 
of the families of the Florida National Guard and talking with 
a number of the soldiers. I would be in the middle of a meeting 
with the families, and suddenly they would walk up to me with a 
cell phone and I am suddenly talking to their loved one from 
the field over in Iraq.
    Of course, the policy question that I came to the table 
with I have already discussed with General Schoomaker, the 
Secretary of Defense, and General Abizaid when he was here. He 
noted that the 124th is one of the best and that is why they 
wanted to keep them. Of course, I was arguing for the first in, 
first out policy.
    So we have been around and around on all of this, and again 
I want to say for these families that they are as proud of 
their loved ones and they are as patriotic as anybody. But they 
would like to have some certainty, given the constraints of the 
needs of the combatant commander.
    Now, that is preparatory to what I am about to ask the two 
of you. At the end of October, the Florida Adjutant General, 
the head of the Florida National Guard, in a press release 
based on a conversation that he had with a senior member of the 
Army, issued the dates for the departures from Southwest Asia: 
the Second Battalion--this is of the 124th--February 10; Third 
Battalion, February 20; the First Battalion on March 11.
    Of course, I am trying to find out some certainty for these 
families. So we called the Army Congressional Liaison Office 
and we were told different dates. We were told the Second 
Battalion indeed was February 10th, but we were told the Third 
Battalion and the First Battalion's departure dates would be 
about a month later.
    Of course, as you can imagine this is still never-never 
land for the families. So what is the theater commander's 
decision for the withdrawal of the battalions from the 124th? 
That is the question.
    Secretary Brownlee. Sir, my understanding is the policy is 
not more than 12 months boots-on-the-ground. I do not know the 
specific dates for those battalions. I do know of the concern 
there. Based primarily on your concern, I made sure that the 
last time I was in Iraq, which was the end of September, that I 
arranged a meeting with some of the people from the battalion 
that was nearest to Baghdad. Unfortunately, they changed my 
schedule and it looked like I was not going to get to see them. 
When I suddenly realized it, I returned to Baghdad to see them, 
and I had a very good meeting with them.
    I just have to take the time to say, Senator, I could not 
have been more impressed by these soldiers. They clearly have 
many reasons why they would want to go home--economic, family, 
and other things. But they are a wonderful group of committed 
and dedicated people who are doing a great job for their 
country. I just have to tell you that I have described these 
kinds of people, both active and Reserve, as another great 
generation we have here.
    But I will just have to get it for the record, Senator. I 
promise you we will try to clear up the misunderstanding.
    [The information referred to follows:]

    An exact redeployment timeline for the units of the 124th Infantry 
(Florida Army National Guard) has not yet been established by the 
theater commander. Additionally, the enemy situation and transportation 
availability may disrupt any schedule once established. However, in 
accordance with the current policy of 12 months ``Boots-on-the-
Ground,'' the 1st Battalion will redeploy by March 6, 2004. The 2nd 
Battalion will redeploy by February 10, 2004, and the 3rd Battalion 
will redeploy by February 18, 2004. The units will redeploy to Fort 
Stewart, Georgia.

    Senator Bill Nelson. If you will, because there is this 
uncertainty out there and, save for the combatant commander 
making a change because he needs a change, there is a date. But 
we cannot get a date. So can you get us an answer?
    Secretary Brownlee. We will, yes, sir. We will get you a 
date to the extent we are able to get a date from the combatant 
commander. But I can tell you that the policy is that troops 
will not serve more than 1 year boots-on-the-ground. The point 
was made earlier, we have continually insisted with the 
combatant commander that if a unit finishes its mission and is 
no longer needed, it may return.
    Senator Bill Nelson. All right. Mr. Secretary, when you get 
that date for me, would you also get an idea of when the actual 
orders will be cut by the subordinate commanders for them to 
plan and begin the handover of their units? Would you also give 
me an idea of when those particular units would arrive back in 
Fort Stewart?
    Secretary Brownlee. Yes, sir, to the extent I can do that. 
I am sure you understand, some of this is dependent on 
transportation and other things. But I will get you the best 
information I can, Senator.
    Senator Bill Nelson. What I have is a variance of 1 month 
on two of the battalions.
    General Schoomaker. If I could, we have been over this, you 
and I, a bunch. I think, for the broader audience here, what we 
need to do is make sure that everybody understands the context 
of what we are talking about here. The 53rd Separate Infantry 
Brigade, headquartered in Florida, of which the three 
battalions of the 124th are part of, were deployed differently 
than what almost everybody else was deployed for. They were 
mobilized at an early time and had a period before deployment 
that in some cases was too long.
    They were then deployed, not as the 124th or as the 53rd, 
but as companies, to places outside of Iraq to guard things, 
like Patriots. They were then at a later date aggregated and 
brought into the combat zone. The conversations that we have 
had asks the question, when does the time start? The time 
started when they were brought into Iraq, not when they were in 
Kuwait, not when they were in Tajikistan and all these other 
places.
    So the 12 months boots-on-the-ground policy began when they 
were committed into Iraq. It is unfortunate because, I will 
tell you, they are great soldiers and the families are great 
families. But they have been through a different experience 
than what the main force has been through over there.
    I am a little reluctant to tell you, other than 12 months 
boots-on-the-ground from when they arrived in country. The 
transportation time will be there, and then they are going to 
get leave. They are authorized leave for the time they have 
been on active duty, and they will continue to remain mobilized 
and paid during the time that they are on leave. They then have 
demobilization time and then they have to return to their 
families.
    Anybody that has a medical problem in there will be dealt 
with under the same kinds of constructs that we have on the 
others. So the precision to which you want this answer, I think 
it is unfair for me to tell you that I can give you that much 
precision. I can tell you the policy is 12 months boots-on-the-
ground in Iraq and that, unless General Abizaid has a pressing 
need to extend them, that our intention is to make sure that 
the Florida Guard is right there in the front of our minds to 
get them out, because they have been dealt a little tougher row 
to hoe as a result of having been involved through that tenuous 
time that I described there.
    So I am sorry to go a little long, but I think we have to 
set the right context here because it is different than it is 
for everybody else.
    Senator Bill Nelson. Setting the context, you used the word 
``unfair.'' It certainly, General, is not unfair if orders have 
been cut under an announced policy that a date would be given 
so that the families would know when they are to be exiting the 
theater. That is not unfair.
    General Schoomaker. No, sir, I did not say ``unfair.'' The 
point I was trying to make is the way they were introduced in 
the theater was fragmented and so to talk about it as a whole 
is difficult. What we are trying to do is to give you what you 
want----
    Senator Bill Nelson. Since they were fragmented, what is 
the policy? Will you fragment out certain companies on their 
return date? Or do they come back as a whole unit, as a 
battalion?
    General Schoomaker. Obviously even battalions move in 
fragments because that is the way we transport them. Unless 
they are on a ship, they generally do not all fit on the same 
transportation. What we are looking at right now is the first 
unit that went in there from the 124th, because that is the one 
we are going to try to move first to get them out of there. 
They may very well come out of there a little bit early.
    [The information referred to follows:]

    An exact redeployment timeline for the units of the 124th Infantry 
(Florida Army National Guard) has not yet been established by the 
theater commander. Additionally, the enemy situation and transportation 
availability may disrupt any schedule once established. However, in 
accordance with the current policy of 12 months ``Boots-on-the-
Ground,'' the 1st Battalion will redeploy by March 6, 2004. The 2nd 
Battalion will redeploy by February 10, 2004, and the 3rd Battalion 
will redeploy by February 18, 2004. The units will redeploy to Fort 
Stewart, Georgia.

    Senator Bill Nelson. Mr. Chairman, that was Charlie Company 
of the Second Battalion that went into Iraq before the war 
started. They were in western Iraq with the Special Operations 
troops doing clandestine things.
    General Schoomaker. That I do not know. That is not the 
conversation that we had before. That is somebody's allegation. 
That is not a fact that I know. We do know that you had a 
company that was in Jordan securing a Special Operations 
headquarters. But I do not know that anybody was introduced to 
Iraq.
    I would be glad to deal with this in specifics and we 
certainly will get you the answer. If that was the case, then 
we will deal with it. But that is not the information that I 
have.
    Senator Bill Nelson. That is why I bring it up. In fact, 
that is a fact. I have talked to some of those soldiers and in 
fact they were in Iraq before--the war started, I believe, on 
March 19, did it not?
    Chairman Warner. Yes.
    Senator Bill Nelson. They were actually in Iraq prior to 
that.
    General Schoomaker. We will take that and get deeper into 
it, because that is not the information that I have.
    Senator Bill Nelson. Mr. Chairman, may I ask another 
question?
    Chairman Warner. Yes, of course.
    Senator Bill Nelson. I am interested in the required 
personnel strength and, due to combat and noncombat losses, it 
is my understanding those three battalions of the 124th Florida 
National Guard are at 64 to 67 percent of their required 
personnel strength. As far as I can tell, there is no plan to 
replace the troop losses. As Senator Reed said, they have had 
some KIA and then they have had a lot more WIA.
    But I cannot see a plan to replace those troop losses, and 
it looks like that those infantry units are going to be below 
strength. The question is, are they at operational risk because 
of that? So how do you minimize this risk for the theater 
commander if those units are below strength?
    General Schoomaker. I am not sure that I understand what 
you are saying. If you are talking about units being below 
their authorized strength in a battalion, let us say, the 
theater commander has the option to consolidate units and apply 
them to missions that are commensurate with their capability. 
Or he can reduce what he asks those units to do.
    Part of your issue here goes back to my earlier statement. 
The Reserve components are seriously overstructured. We have 
far more structure in the Reserve components than we have 
authorized end strength to fill. Therefore, you build in a 
level of what you are talking about across the Reserve Force in 
the Army. Part of what we are trying to do is to reduce that 
overstructure so that we can have better fill of units and 
build in a TTHS account, so that we can take non-duty military 
occupational specialty (MOS) qualified personnel and get them 
to school without putting the unit at risk until they are ready 
to go.
    In other words, we are trying to take the Reserve component 
and mirror the active process, so that we can manage readiness. 
This is something that General Blum has taken on and General 
Helmsley and General Schultz in the Guard and Reserve. This is 
part of this transformation we are talking about to do that.
    So I think what you are talking about here is more than 
just combat losses, but it also goes to the fact of what they 
started with in terms of the structure, and then it talks to 
the fact of what was their medical readiness when they were 
called to active duty. Did we deploy everybody that was 
resident within the structure? Because there is no replacement 
for a Reserve soldier. That is the reality of it.
    We are going to have to look at whether this is an 
appropriate way of doing business in the future if we are going 
to go to these come-as-you-are wars. It is not World War II any 
more, and we are not going to build up a head of steam and a 
mountain of steel and then go to fight. We are going to go with 
the way we are right now and we are going to live with what we 
have invested. I think that is the strategic question.
    Senator Bill Nelson. Do you anticipate any reenlistment 
problems in the National Guard?
    General Schoomaker. We are anticipating that that will be a 
challenge. We do not know what the answer to that is. But I 
anticipate that we are going to have to incentivize, use 
leadership, and address this, because they have been stretched.
    By the way, the Guard and Reserve made these reenlistment 
rates that we talked about without access to Active Forces that 
were getting off active duty, which was traditionally their 
primary means of getting their force. So it is pretty 
extraordinary that we made these kinds of retention and 
enlistment goals, in the Reserve component especially, without 
having the benefit of having active soldiers coming out because 
we had stop-loss and stop-move on.
    So I think it is a challenge we will face. I do not know 
what the magnitude of it will be.
    Chairman Warner. But the Senator has a very important 
question there. In my time at the Pentagon, we tracked every 30 
days. Do you not have tracking data as to the retention rates 
in the Guard now?
    Secretary Brownlee. Sir, I am sure we do.
    Chairman Warner. What do they reveal?
    Secretary Brownlee. I think the question--they reveal right 
now, Senator, that we are not having a problem.
    Chairman Warner. By that you mean that in adequate numbers 
they are remaining in?
    Secretary Brownlee. But sir, these things lag several 
months.
    Chairman Warner. I understand that.
    Secretary Brownlee. I believe that we will not be able to 
get a good answer to that question until 3 to 6 months after 
these units return.
    Chairman Warner. That is clear. But I just wanted to 
emphasize that the current tracking data--now, mind you, a lot 
of these folks, like yours, have been over there for a 
considerable period of time. So that tracking data has some 
validity.
    General Schoomaker. I just brought that up in response to a 
previous question. We made more than 100 percent of all 
categories.
    Chairman Warner. Good. Let us just stress it as we conclude 
this hearing.
    I would like to go back. General, you were very candid 
about one point and that is your concern about the Reserves. 
When we use the word ``Reserves'' it includes the Guard.
    Secretary Brownlee. It is both.
    General Schoomaker. Reserve components.
    Chairman Warner. We frankly mentioned both, and I try to 
always say ``the Guard and Reserve.''
    But the physical condition of a number of them fell below 
your current standards, and we accept that information. But it 
suddenly triggered in my mind, Secretary Brownlee, that when 
you were with me on this side in 1991 during the Gulf operation 
there were a significant number of Guard units which, at the 
training level, just did not measure up for what could have 
been their rapid deployment to the theater of operations and 
required extensive training.
    Are you able thus far in this operation, which is now 
basically a year almost with the buildup and preparation, to 
say, do we have a similar problem with Guard and Reserve as we 
encountered in 1991?
    Secretary Brownlee. Sir, depending on the mission that will 
be assigned to the unit, their training time may vary. If it is 
a logistics unit that performs transportation functions and 
most of the people in that unit can do that when they are 
mobilized, then they may deploy within a month or so. If it is 
a combat unit, like these Florida National Guard units, we call 
them up and allow anywhere from 90 to 120 days to be sure they 
are properly trained for the task they will be called upon to 
execute in the area of operations.
    Chairman Warner. The point I was making, though, was that 
we had a similar situation that you and I dealt with in 1991, 
but 90 or 120 days was not adequate time. Some forecast that we 
needed some heavy armored in my recollection, where we had a 
particular problem.
    Secretary Brownlee. Sir, you might recall that some of 
these units were sent out to the National Training Center (NTC) 
to train.
    Chairman Warner. That is right.
    Secretary Brownlee. We went out and visited them. I think 
there again the issue was some people thought they should have 
been able to deploy immediately and most of the people in the 
Army had always insisted they would need some degree of 
training. The experience we had out there talking to the 
soldiers is they felt that they were benefiting greatly from 
the training.
    Most of those units did not deploy. In this case we have 
already deployed some, which have certainly proven their 
mettle, and others will be deployed, and we have started to 
mobilize them and give them the training.
    Chairman Warner. Could you generally say, from lessons 
learned in 1991, that the Guard and Reserve now are better 
trained and we learned from those lessons, and as a 
consequence, they have been more readily available to integrate 
right into the regular Army and pick up in this conflict?
    Secretary Brownlee. Sir, again it depends on the type of 
unit----
    Chairman Warner. I clearly understand that.
    Secretary Brownlee.--and what we are talking about. But I 
would say, in general, that those combat units that will be 
called upon, the enhanced separate brigades, they will require 
training to get to the level that they should be.
    Chairman Warner. I guess we are not in sync. I am just 
trying to figure out, did we learn something by 1991 which we 
are not seeing a repetition of here?
    Secretary Brownlee. Yes.
    Chairman Warner. General?
    General Schoomaker. The answer is yes, we have learned 
since 1991. We are better. But we still have the same 
fundamental challenge. If you are talking about, as the 
Secretary said, a combined arms unit that is going to operate 
at, let us say, a brigade level or as part of a division, that 
is a pretty complicated task to be able to do on 39 days a 
year.
    Chairman Warner. You bet, and I understand and respect 
that.
    General Schoomaker. But if I could just go one step 
further.
    Chairman Warner. Yes.
    General Schoomaker. We have some huge challenges to get the 
right kind of equipment to these Reserve components, both Guard 
and Reserve, and we are looking at that. Part of the 30th ESB, 
the 39th, and the 81st ESB, the three enhanced National Guard 
brigades that we are mobilizing as we speak and are going 
through their training right now, they are going to get first 
priority on this rapid fielding initiative of equipment. They 
are going to get the best equipment that the United States Army 
has as they go through that training and go to Iraq with it.
    So this is a step in the right direction. This is part of 
what we are doing with the support that you have given us, both 
through the supplemental and through our normal Total 
Obligation Authority, to do the transformation that is 
required. But we are still going to have to deal with what 
degree of medical readiness, what degree of equipage, what 
degree of training we can expect out of a National Guard or 
Reserve unit and look at different strategies in terms of how, 
if we can come up with a predictable rotational-based Army, to 
include the Reserve components, how we can borrow training time 
from the future to get them at a higher level of readiness 
during the period of time that we want them available for 
deployment, and mortgage others on the down side of that.
    So we are looking at those kinds of strategies.
    Secretary Brownlee. Mr. Chairman, could I just emphasize 
one point that General Schoomaker made that I think is really 
critically important to the committee? He mentioned an 
initiative that we are going to begin soon, and that is, as you 
well know, our National Guard and Reserve structure is out of 
proportion in accordance with its end strength. In other words, 
there is a lot more structure to fill than the end strength 
would allow you to fill.
    That is why when we call a unit up we have to pull from 
other units in order to bring that unit's strength and 
equipment up to an appropriate level so that it can then be 
trained and deployed. The initiative that we are looking at is 
to take this force structure out, not people or spaces, so that 
the unit's end strength and force structure are consistent.
    We will clearly need the committee's help and support when 
we begin that process.
    Chairman Warner. The performance of the Guard and Reserve 
has been extraordinary. This goes all the way back, Secretary 
Brownlee, to when you and I used to go to the Balkans together, 
and we flew regularly on aircraft operated by the Air National 
Guard. They were going into Sarajevo, where there were some 
serious combat conditions.
    Secretary Brownlee. Yes, sir. If I could add, the 34th 
Infantry Division National Guard is now performing the missions 
in Bosnia, Kosovo, and the Sinai. They will be replaced this 
spring by the 38th Infantry Division National Guard. So they 
are performing those missions as we speak.
    Chairman Warner. I am proud to say the Virginia National 
Guard had that role in the Balkans, too.
    I am going to go to one last question. We have had an 
excellent hearing. I am going to ask the chiefs of staff to 
notify Senators that we are going to take a 10-minute break and 
resume at about 12:00 in room SH-219 for the closed session. I 
anticipate Senators will want to join us there.
    Now, Senator Clinton and a number of Members raised this. 
When that Stars and Stripes article came out, it caused a 
considerable jolt among the ranks here in Congress. I want to 
go back for those who are following this hearing and explain 
that Stars and Stripes is a highly regarded media operation, 
done by top-notch professionals. It is within the table of 
organizations of the DOD. In other words, it is not a private 
sector publication; it is operated by the DOD, and the DOD 
quite properly gives it the widest measure of latitude, as it 
should if it is to become an effective document where the 
readers pick it up and say, I want to devote the time to read 
this, which they do.
    It is a tremendous source of information, not only to the 
soldiers on the front lines, because frequently those copies 
work their way right up there quickly, but the families.
    Now, they came out last month, Stars and Stripes, and 
reported a survey of some 2,000 uniformed personnel, 
presumably, maybe families too. When asked about their 
personnel morale, 34 percent rated it as low or very low. You 
know the statistics in that article. While I asked the question 
earlier on, as I look back through our record I think it is 
important that you submit to the record a point by point 
perspective as to their findings and how those findings 
coincide or do not coincide with information that you have in 
your profession.
    I am by no means critical of Stars and Stripes. This survey 
simply merits that type of attention. So if you will provide 
that for the record.
    Secretary Brownlee. Yes, sir.
    [The information referred to follows:]

    The Stars and Stripes series--``Ground Truth--Conditions, Contrasts 
and Morale'' provided detailed information about conditions in Iraq and 
the reactions of military personnel stationed there. However, the 
results should not be generalized to all military personnel in Iraq 
because the sample on which the survey was based was not a 
representative sample. The approach used is more likely to produce 
findings that are particular to that specific segment of respondents 
surveyed, rather than the population of soldiers in Iraq. As Stars and 
Stripes acknowledges, ``The results cannot be projected to the entire 
military population in Iraq, but the returns were impressive.''
    Furthermore, the survey was conducted when the temperature in Iraq 
was as high as 125 degrees. In addition, the 3rd Infantry Division 
soldiers were told for the second time that they were being extended 
and the Reserve component soldiers had just been informed that their 
tours were going to be extended for up to a year. It is highly likely 
that these issues negatively impacted the comments made by the 
respondents.
    Stars and Stripes reported that its survey found low morale, 
insufficient training, jobs that had little or nothing to do with 
training, and lack of a clear definition of mission. Many made it clear 
that they did not plan to reenlist when their service was up.
    The Army (through its Army Research Institute) will be conducting 
surveys and interviews with soldiers to determine career intentions, 
factors that impact them, and potential mitigators. Data will be 
collected from units deployed for Operation Iraqi Freedom and Operation 
Enduring Freedom. For comparative purposes, a control group of soldiers 
who did not deploy will also be surveyed. Findings from this study will 
be used to provide indicators of career intentions and determine 
potential mitigators.

    Chairman Warner. Gentlemen, let me thank you. We have had 
an excellent hearing. You have been extremely responsive to 
what I regard a very tough and thorough line of questions from 
the members of this committee. So this hearing at the moment 
will adjourn and resume at 12:00 in room SH-219.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Jeff Sessions

                         MOBILIZATION STATIONS

    1. Senator Sessions. Secretary Brownlee, improvements are 
definitely needed at Fort Stewart as they will impact Alabama 
reservists when they return from Iraq in February and those being 
alerted for Operation Iraqi Freedom. To this end, Senator Bayh and I 
wrote to Secretary Rumsfeld suggesting that monies in the supplemental 
be released to the Army for military construction upgrades as needed. 
What is the Army doing to improve the mobilization process and 
resources at Army mobilization stations since your inspection at Fort 
Stewart several weeks ago?
    Secretary Brownlee. The Army Installations Management Agency (IMA) 
is procuring relocatable facilities for Forts Stewart, Bliss, Eustis, 
Bragg, Carson, and Hood to provide additional billeting space for the 
mobilization/demobilization effort. The cost to repair existing 
barracks facilities and short-term leasing of relocatable facilities 
will total $52.19 million through the end of fiscal year 2004.
    Additionally, a recent change to the mobilization medical hold 
policy will allow unit personnel who fail to meet deployment medical 
standards to be released from active duty and returned home within 25 
days. These personnel are subject to a subsequent order to active duty 
upon resolution of the temporary profile or condition.
    Currently under review is an initiative to directly deploy select 
Army Reserve component (RC) units from their home station without using 
a mobilization station. Per the guidance of the Director of the Army 
Staff, a working group was established to develop concepts that will 
facilitate the direct deployment of Army RC units. Both the Army 
National Guard and Army Reserve have identified several units as 
candidates to conduct direct deployment under a ``pilot'' project. 
United States Forces Command is currently reviewing the list of units.

                       RAPID FIELDING INITIATIVE

    2. Senator Sessions. Secretary Brownlee, when you were on the 
committee staff in 1990, you had a passion for requesting and fielding 
the relatively small things soldiers needed like machine gun mounts and 
flashlights, particularly during Operation Desert Storm. Today, I see 
the need for more uniform-related body armor, particularly to protect 
the arms and legs of our soldiers. Your testimony agrees with my 
assessment and I know you are taking action.
    Nonetheless, I have seen the need at Walter Reed Hospital during 
each of my visits where 100 (see recent November 10 Time article, page 
39) soldiers have lost limbs. In some cases, that was preventable if we 
can figure a way to use kevlar impregnated material to strengthen the 
sleeves and pant legs of our BDUs creating a ballistic exo-skelton. 
Clothing technology which gets us closer to this solution is being 
worked at the College of Textiles, Auburn University. The technology 
exists and there is language in the authorization bill suggesting the 
Department of Defense get busy focusing its labs like Natick and other 
academic institutions to demonstrate this protective capability sooner, 
rather than later. We have come a long way since Somalia, when only 
Rangers had the best body armor. Let's not wait, Mr. Secretary, 10 
years to field a better uniform. What are the Rapid Fielding Initiative 
lessons learned to date?
    Secretary Brownlee. The roots of the Rapid Fielding Initiative 
(RFI) lie in feedback from soldier experiences in Afghanistan during 
late 2002. Reports of equipment issues by deployed soldiers and 
commanders supporting Operation Enduring Freedom raised concern among 
senior Army leaders. Surveys revealed that the nature of the 
battlefield and missions soldiers perform as part of the global war on 
terrorism created new requirements for the types and durability of 
soldier equipment. To meet these new requirements, soldiers and units 
were purchasing equipment with their own funds. To remedy these 
shortcomings, the Army leadership directed the rapid fielding of a 
number of soldier equipment items, both in theater and to deploying 
soldiers. The 1st Brigade Combat Team (BCT) of the 82nd Airborne 
Division was the first to receive new equipment, and the success of 
that fielding led to additional directives to equip more forces 
deployed and deploying to Operation Iraqi Freedom. By the end of fiscal 
year 2003, all soldiers of the 82nd Airborne, 101st Air Assault, and 
10th Mountain Division BCTs received state-of-the-art RFI equipment; a 
total of eight brigades. For fiscal year 2004, we directed that all 
deploying active, Guard, and Reserve soldiers receive this equipment. A 
minimum of 16 BCTs and some 60,000 support soldiers are scheduled to 
receive new equipment as part of the RFI program this year.

                           DEMINING VEHICLES

    3. Senator Sessions. General Schoomaker, can you find out for me 
why Peace Enforcement Operation Ground Combat Systems directed the 
Unmanned Ground Vehicle/Systems Joint Project Office to purchase anti-
personnel demining vehicles from Croatia for use in Iraq when U.S. 
companies have invested in this capability and now find themselves 
suffering because of a bureaucratic program decision?
    General Schoomaker. The former Unmanned Ground Vehicles/Systems 
Joint Project Office (UGV/S JPO), now named the Robotic Systems Joint 
Project Office (RS JPO), initiated the Robotic Combat Support System 
(RCSS) acquisition program in 2001 to meet an Army requirement to 
develop and procure robotic anti-personnel demining vehicles. A limited 
number of prototype robotic systems developed in the mid-1990s proved 
the utility and producibility of this technology. The program strategy 
for RCSS called for a small business set-aside utilizing two competing 
contractors to mitigate development risks. As part of the concept 
validation program, the contractors' systems were subjected to an 
Initial Verification Test (IVT) in 2002 to assess the performance and 
maturity of the systems. Both contractors' systems performed so poorly 
in the IVT conducted by the Army Test and Evaluation Command that 
neither could be supported for entry into the System Development and 
Demonstration phase of the acquisition program, thus causing a delay of 
several years in fielding this very important capability.
    The delay in fielding RCSS left the Army with a gap in anti-
personnel demining capability requiring reassessment of program plans. 
To meet the urgent CENTCOM requirement for our operating forces engaged 
in Operation Enduring Freedom and Operation Iraqi Freedom, we embarked 
on a new acquisition strategy based upon leveraging existing commercial 
off-the-shelf (COTS) capability. Accordingly, an evaluation of 
available COTS demining equipment currently in production was 
conducted, and in late 2003, the RS JPO initiated purchase of a COTS 
system built in Croatia that utilizes a Caterpillar engine, Caterpillar 
tracks and a Sony control. The decision was not bureaucratic--it was 
based upon providing an effective timely solution to an urgent need. 
This important capability will begin fielding in just a few months and 
is expected to save the lives of service members.

                            ARMORED VEHICLES

    4. Senator Sessions. Secretary Brownlee, I received a briefing on 
RESET. There is over $170 million in the supplemental for second 
destination charges needed to bring equipment back from Kuwait, and 
another $122.7 billion for depot RESET activities. To be specific, I am 
concerned that the Army staff is about to make a huge mistake in NOT 
bringing all our armored vehicles back to the United States for depot 
overall and will instead take the cheaper road of only applying 10/20 
maintenance standards to a large portion of the fleet leaving the 
problem for another day, another commander and another Chief of Staff 
to solve, just as happened after Operation Desert Storm.
    Mr. Secretary, this is potentially a huge problem set, one which we 
will need to discuss in a future Airland Subcommittee hearing. I hope 
before then that reason and logic are brought to the problem. In a 
recent Defense Science Board study of space acquisition, one of the 
findings was the Air Force placed cost concerns over mission. I think 
the RESET issue may ultimately be assessed in the same way despite the 
emphasis the Chief placed on mission accomplishment in the soldier's 
creed he entered into the record. Would you respond to my concerns?
    Secretary Brownlee. The initial cost estimate to reconstitute 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF) 
equipment was based on experience from past operations, in-theater 
technical inspections, and emerging maintenance data emanating from 
current operations. The RESET plan takes into consideration the full 
spectrum maintenance operations, from organizational level to depot: 15 
percent of the track requirements are projected as depot workload, 83 
percent as organizational/direct support/general support/installation 
(includes delayed desert damage repairs) and the remaining 2 percent as 
non-repairable. Based upon Army projections and operational 
requirements, the depots have expanded their capacity to deal with the 
larger volume of workload. This plan will result in a reconstituted 
force fully capable of responding to all future contingencies with no 
degradation to ongoing missions.

                                COMANCHE

    5. Senator Sessions. General Schoomaker, I am concerned about the 
rumors being generated that the Comanche program may be a bill payer 
for other Army aviation problems. I consider this a key item that must 
be discussed in detail before action is taken. Is there a problem with 
the Comanche program that you care to discuss today?
    General Schoomaker. The RAH-66 Comanche helicopter program is 
currently in Engineering and Manufacturing Development phase; the 
program is on schedule, within budget, and the program is fully funded.

                                 KOREA

    6. Senator Sessions. General Schoomaker, Korea is a hardship area, 
and I think our soldiers stationed there need and deserve benefits 
comparable to those received by soldiers in Bosnia and Kosovo. What is 
your plan for realignment of forces in Korea and what is the Army doing 
to help soldiers assigned to Korea with additional benefits like family 
separation allowances, and those benefits similar to what soldiers in 
Bosnia receive today?
    General Schoomaker. With respect to the realignment of forces in 
the Republic of Korea (ROK), U.S. forces will be realigned in 
accordance with Secretary of Defense guidance and the U.S.-ROK Future 
of the Alliance (FOTA) Initiative. Detailed changes to the disposition 
of Army forces on the Korean Peninsula are pre-decisional, but will 
conform to OSD guidance to combatant commanders on global war on 
terrorism and global presence. The Army fully supports those Secretary 
of Defense and combatant commander, U.S. Pacific Command and U.S. 
Forces Korea initiatives. Korea was a combat zone from 27 June 1950 
until 31 January 1955, however, since then soldiers in Korea have not 
engaged in combat operations. Hence, we do not believe soldiers serving 
in Korea should be entitled to the same entitlements as soldiers 
serving in a combat zone. This aside, the Army is aware of the well-
being issues for soldiers who are serving in Korea. This past year all 
aspects of service in Korea were reviewed, to include assignment 
policy, subsistence, incentives and pays. The Department of Defense 
recognized the arduous duty performed by troops in Korea by authorizing 
an additional $50-$150 per month in hardship duty pay. Soldiers in 
Korea also receive a cost-of-living allowance (average $84/month) and 
family separation allowance ($250/month). Additionally, the Army is 
drafting a proposal for use of assignment incentive pay to provide 
additional money to soldiers that volunteer to serve beyond the normal 
Korea tour length. Please be assured that the Army continues to study 
ways of improving service in Korea.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                          REQUIREMENTS PROCESS

    7. Senator Levin. General Schoomaker, are you satisfied with the 
way the Army establishes and prioritizes requirements? I ask this 
question because I see some serious disconnects in that regard. 
Examples abound that would indicate a serious problem for instance:
    Digitization: The Army has been constructing the tactical internet 
since 1997. The original plan was to digitize the entire Army. Then the 
Army decided to limit it to the counterattack corps at Fort Hood. Just 
before the Iraq war that was seen as a poor decision and there was a 
crash program to field Blue Force Tracking to the Third Infantry 
Division and other units there so that they would have better 
situational awareness.
    Interceptor Body Armor: The Army set a requirement of only 40,000 
for infantrymen only. Yet for years the Army has been foreseeing a non-
linear battlefield where there are no established front lines, and 
consequently all soldiers are at risk. Now we see in Iraq that the 
requirement has been (rightfully) changed to equip all soldiers and 
Department of Defense civilians in theater. We are now on a crash 
program to procure enough to meet that requirement while some soldiers 
continue to go unprotected.
    Up-armored HMMWVs: A similar problem to the body armor. The 
requirement was seriously under-estimated and procurement averaged 
about 500 annually, with 250 planned for fiscal year 2004. Now we have 
seen the requirement for Iraq increased at least twice, and are working 
to ramp-up production while soldiers continue to be killed and wounded 
in thin-skinned HMMWVs.
    Aircraft Survivability Equipment: The requirement for the improved 
chaff and flare dispenser (ALE-47) was originally limited to special 
operations aircraft. Just prior to the war, the Chinook product 
manager, on his own initiative, began procuring and installing them on 
some conventional aircraft in the Active Force. Unfortunately, other 
active and Reserve component helicopters in Iraq are not so equipped, 
including the Chinook that was recently shot down, killing 16 soldiers 
and wounding more.
    Battlefield Combat Identification System: The Army began developing 
the Battlefield Combat Identification System after Operation Desert 
Storm as a result of the high incidence of fratricides. Two years ago 
the Army abandoned the program as too expensive, claiming that it would 
depend on situational awareness to prevent fratricides. Now, as a 
result of the fratricides in this most recent war, Joint Forces 
Command, in its lessons-learned report, is again calling for combat 
identification systems.
    How do you propose to reform the requirements generation and 
prioritization process and how do you propose to address the specific 
examples I cited?
    General Schoomaker. Identifying desired warfighting capabilities 
and balancing application of resources between current modernization 
and the future force is an incredible challenge. The Army must not make 
these decisions in a vacuum; effective support to current and future 
combatant commanders requires that these capability and prioritization 
decisions be made in a joint context, informed by the Nation's 
strategic goals and objectives. The Department of Defense has recently 
revised the capability identification (requirements generation) process 
to create better linkage to strategy and joint operational concepts. 
The Department is also fine-tuning the planning and programming 
processes so that prioritization decisions support current and future 
operations in this joint context. We must continue to aggressively seek 
the best inputs, analysis, and threat assessments available to drive 
our decision-making processes.
    You must remember that prioritization is a relative process and the 
acquisition process was not rapid. Army budgets prior to September 11, 
2001, were very small for the number of missions we were conducting. We 
cancelled 26 systems to pay for transformational initiatives; even then 
we were forced to spread out buys of these initiatives over many years 
simply to get some capability out into the force.
    Prior to September 11, 2001, the Army perceived that we would not 
have to fight an enemy of equal capabilities in the near future. This 
assessment supported the decision to shift resources from current force 
modernization to future force transformation. As expected, the Army has 
reassessed these prioritization decisions to address the near-term 
requirements of the global war on terrorism, and specifically our 
operations in Afghanistan and Iraq. In this light, the Army has taken 
the following measures to address the examples you've cited:
    Digitization: The Army's objective to develop a tactical internet 
capability appears to be validated by the Defense Department shift 
towards network-centric warfare concepts. We will continue to develop 
this capability for the future force. I have challenged the Army to 
identify and pursue opportunities to bring future force capabilities to 
the current force where logical--I believe that the Blue Force Tracking 
effort for Operation Iraqi Freedom is an example of how that can work. 
We must ensure that joint interoperability is maximized so that we are 
providing coherent, relevant capability to the joint force commander.
    Interceptor Body Armor: The Army recognized a requirement for 
Interceptor Body Armor (IBA) to replace the Personal Armor System for 
Ground Troops (PASGT) Vest for the dismounted combatant. As cited, we 
have changed our distribution plans to provide better protection to 
soldiers and civilians in non-direct combat situations. The total Army 
IBA requirement is now 840,000 sets. At the end of fiscal year 2004 the 
Army will have produced and fielded 422,602 sets of IBA, which leaves a 
remaining quantity of 417,398 sets to be produced and fielded to 
provide the required density.
    U-Armored Highly Mobile Multi Wheeled Vehicles (UAH): The original 
Army requirement for UAHs was established to equip primarily military 
police and light reconnaissance units. This density has served the Army 
well in stabilization operations in Haiti, Bosnia, and Kosovo. The size 
of the stabilization force in Iraq has required us to move combat 
troops from heavily armored vehicles to wheeled vehicle in order to 
operate effectively. The Army and CENTCOM have worked together to 
establish a new requirement for 3,615 UAHs to support OIF. The Army 
currently has 1,895 UAHs in Iraq, and has increased production to 
provide an additional 900 UAHs by June 2004. To ensure that the Army is 
identifying the right protection mix for the future tactical wheeled 
fleet, this issue is being reviewed as part of our OIF lessons learned 
effort.
    Aircraft Survivability Equipment (ASE): The Army is moving 
aggressively to determine what technologies are available to defeat the 
specific ground-to-air threats presented in Iraq and Afghanistan and 
will apply the resources necessary to protect our air fleet. We 
recognize that technology alone will not defeat every hostile act. The 
Army has established a focused assessment team to gather attack 
information; develop tactics, techniques, and procedures to minimize 
risks to those attack profiles; and then quickly disseminate that 
information to the operational forces. 
    Battlefield Combat Identification System (BCIS): The Army continues 
to recognize the value of combat identification technology to increase 
lethality and reduce fratricide on the battlefield. As stated, the BCIS 
program was terminated because the costs to equip the entire force with 
that solution were prohibitive. The Army is continuing to explore the 
millimeter wave technology with the expectation that this capability 
will meet Future Combat System requirements. In the near term, the risk 
of fratricide has been reduced through the fielding of improved optics 
such as 2nd Generation Forward Looking Infrared (FLIR) and digital 
situational awareness capability. As recent experience has taught us, 
joint interoperability of our fratricide-reduction solutions is 
imperative. We are active partners with Joint Forces Command to 
determine the right set of capabilities for the joint force.

                    AIRCRAFT SURVIVABILITY EQUIPMENT

    8. Senator Levin. General Schoomaker, the National Guard Chinook 
helicopter that was shot down recently by an Iraqi surface to air 
missile was not equipped with the most modern chaff and flare 
dispenser, the ALE-47, while the active duty unit to which it was 
attached was so equipped. I understand that there are 62 ALE-47 
dispensers available, until recently awaiting a decision as to where 
they will be installed, along with the funding required to install 
them. The Army has applied a ``first to fight'' paradigm to determine 
where to field modernized equipment first. Is that paradigm still valid 
in this case, and others, where the Army has active duty and Reserve 
component units serving side-by-side?
    General Schoomaker. The ``first to fight'' paradigm is no longer 
valid in this case. Currently, active and Reserve component helicopters 
are being upgraded with the ALE-47 dispenser.

    9. Senator Levin. General Schoomaker, where and when will the 
available ALE-47 chaff and flare dispensers be installed?
    General Schoomaker. ALE-47 dispensers will be installed on CH-47 a/
c in both the Theater of Operations and in the continental United 
States (CONUS) (including Hawaii) commencing in the December 2003 
timeframe. 

    10. Senator Levin. General Schoomaker, how many Chinook helicopters 
will still be employed in Iraq without the most modern aircraft 
survivability equipment?
    General Schoomaker. Senator Levin, the answer is none. All of the 
Chinook helicopters operating in Iraq will have the most modern 
aircraft survivability equipment installed.

    11. Senator Levin. General Schoomaker, what is the plan to 
similarly equip those helicopters and how long will it take to do so?
    General Schoomaker. Currently, ALE-47 dispenser sets are in theater 
and they will be installed, as aircraft are made available to the 
installation team. Similarly, ALE-47 dispenser sets are being installed 
on aircraft in CONUS (including Hawaii) in preparation for deployment 
as follow-on units.

    12. Senator Levin. General Schoomaker, are there sufficient 
quantities of the various types of flares fired by the ALE-47 available 
in theater?
    General Schoomaker. Standard Aircraft Survivability Equipment (ASE) 
on CH-47D aircraft includes the AN/ALQ-156(V)1 Missile Approach 
Detector linked to the M-130 Flare Dispenser that uses the M206 flare. 
There are sufficient quantities of the M206 flare in theater. The CH-
47F program incorporates the Advanced Threat Infrared Countermeasure 
and Common Missile Warning System (ATIRCM/CMWS) currently in 
development and the ALE-47 flare dispenser. In addition to the M206 
flare, the ALE-47 dispenser uses the M211 and M212 flares to provide a 
better countermeasure than just the M206 alone. The Army G4 arranged a 
loan of 2,000 each M211 and M212 flares from the 160th Special 
Operations Aviation Regiment (SOAR) to support all the aircraft 
currently in theater with the ALE-47 dispensers. These flares are 
currently on hand in theater and being intensively managed. Air Force 
has agreed to split equally the M211 production with the Army beginning 
mid January 2004. Army and Air Force will equally split delivery of the 
M212 starting in March 2004 at the completion of the SOAR deliveries.
    The M211 is produced by Alloy Surfaces of Chester Twp, PA. Their 
current production capacity is 6,000 per month. The M212 flare is 
produced by ATK-Thiokol in Brigham City, UT. Their current production 
capacity is 5,400 per month. Additional funding is being provided to 
increase production of the M211 from 5,400 per month to 12,000 per 
month and the M212 from 6,000 per month to 20,000 per month by August 
2004. These production rates will provide sufficient quantities to 
satisfy both Army and Air Force requirements.

    13. Senator Levin. General Schoomaker, members of the unit to which 
the downed Chinook was assigned allege that the helicopters in that 
unit operated in Iraq for 5 months without even the more basic aircraft 
survivability equipment the ALQ-156 threat detector and the M-130 flare 
dispenser. Can you confirm or deny this report? If true, why was that 
the case?
    General Schoomaker. At this point, I can neither confirm nor deny 
this report. There is not sufficient ASE equipment to provide a full 
compliment to all the Reserve component units. However, when these 
units are mobilized the Army cross-levels equipment to ensure they are 
capable of operating in the specific threat environment. The unit 
received all but six sets of ASE prior to deployment. That includes the 
ALQ-156 and the M-130. The remaining ASE was issued in theater, minus 
one set for one aircraft. The fact that all but one would be fully 
equipped is not alarming because one aircraft is typically in a major 
inspection cycle and the ASE is rotated to other aircraft in need.

    14. Senator Levin. General Schoomaker, what is the situation with 
the Kiowa, Apache, and Black Hawk helicopters in Iraq?
    General Schoomaker. Kiowa, Apache, and Black Hawk helicopters 
operating in Iraq all have aircraft survivability equipment installed.

    15. Senator Levin. General Schoomaker, members of the unit to which 
the downed Chinook was assigned also report significant problems with 
the reliability of the ALQ-156 Missile Approach Detector that is linked 
to the flare dispenser. Consequently, the advantage of an aircraft 
having an improved flare dispenser will be degraded by the less 
reliable missile detector. What is the extent of the ALQ-156 Missile 
Approach Detector's reliability problem and the Army's plan for 
correcting it?
    General Schoomaker. The Army is taking a number of steps to ensure 
that the ALQ-156 remains a reliable and effective missile detector for 
our CH-47 Chinook and C-23 Sherpa aircraft. First, we are deploying a 
Field Assistance Support Team (FAST) into the Iraqi theater. This team 
will assist deployed units in complete end-to-end operational tests of 
the infrared aircraft survivability equipment (ASE). The ALQ-156 
detector is part of the infrared ASE system. In addition, the Program 
Manager Cargo Helicopter has purchased three ALQ-156 test sets to 
provide to the Logistics Assistance Representatives (LAR) in theater, 
to support end-to-end operational checks of the ASE equipment. Two of 
these test sets will be shipped to OIF. The third test set will go to 
OEF with a FAST team in February 2004. The FAST will have spare ALQ-156 
detectors to maximize operational availability of the systems in 
theater.
    The Army National Guard (ARNG) has an effort underway to upgrade 
the aircraft that have been designated to deploy on the next rotations 
into OIF and OEF. The ARNG is procuring 25 ALQ-156A(V)1 systems and two 
sets of spares. The ALQ-156A(V)1 system is an improved version of the 
ALQ-156, with an increased range and a lower false alarm rate. These 
systems will be installed on the Hawaii and Mississippi ARNG aircraft 
that have been designated to deploy, in addition to the ALE-47 Improved 
Flare Dispenser.
    Finally, the Army Communications and Electronics Command (CECOM), 
the item manager for the ALQ-156, is intensively managing the system to 
ensure that there are sufficient repair parts available for the system. 
CECOM also has a contract with BAE, in Nashua, NH (the original 
equipment manufacturer), for repair of the ALQ-156 system.

    16. Senator Levin. General Schoomaker, I understand that the long 
term solution is a new suite of aircraft survivability equipment called 
the Advanced Threat Infrared Countermeasures/Common Missile Warning 
System (ATRICM/CMWS). The Army cancelled the ATRICM/CMWS in fiscal year 
2003 for affordability reasons and then resurrected the program in 
fiscal year 2004. Have you been briefed yet on the program, and do you 
believe the Army has adequately prioritized the development and 
procurement of those systems?
    General Schoomaker. Yes, I have been briefed on the Army's ATRICM/
CMWS program and it is one of the highest priority programs in the 
Army. The Army has identified options to accelerate the ATRICM/CMWS 
program, which includes not only our digitized aircraft but the Army's 
entire fleet. In the near future, we will be assessing the best way to 
move ahead to accelerate fielding of this critical capability.

                     RECENT MILITARY ACTION IN IRAQ

    17-20. Senator Levin. General Schoomaker, Major General Swannack, 
commander of the 82nd Airborne Division in Iraq, was quoted in the 
press as saying, ``We're going to use a sledgehammer to crush a 
walnut.'' He was referring to the military tactic in recent days of 
employing aircraft dropping 500 pound bombs, artillery, mortars, and 
attack helicopters against suspected insurgents. Recently, AC-130 
gunships were used to attack what was reported to be an empty warehouse 
in Baghdad suspected of being a planning and staging area for 
insurgents. Recent press reports also indicate that the 4th Infantry 
Division destroyed a number of homes of suspected insurgents after 
evacuating the women and children of the families.
    I believe that General Swannack's comments, and the actions to 
which he was referring, could be counterproductive. Have you had the 
opportunity to discuss this issue with General Swannack and with 
General Abizaid?
    If yes, what was the gist of those discussions? If no, when do you 
expect to have those discussions and get back to me?
    Given your experience, especially in special operations, do you 
believe that such tactics are likely to help or hurt a counter-
insurgency effort?
    Are such tactics consistent with an approach to win the ``hearts 
and minds?''
    General Schoomaker. I had the opportunity to spend time with MG 
Swannack during my recent trip to Iraq. I was most impressed with what 
he is doing and the progress he is making in working with the Iraqi 
people. He is doing the right things within his sector. Commanders must 
make assessments on actions to be taken and the amount of force 
necessary to achieve the desired effect on the target. For this reason, 
I referred the question to both General Abizaid and MG Swannack for 
comment. Both felt that the comment was misconstrued, it was meant to 
be descriptive (for an American audience) of the level of force being 
employed in Iraq. Not meant to threaten or goad the Iraqi populace.

                           IRAQ ROTATION PLAN

    21. Senator Levin. General Schoomaker, in discussing the changes to 
the Iraq Rotation Plan and the planned reduction of U.S. forces between 
January and April of next year, Secretary Rumsfeld said, ``And I think 
it's important to recognize that numbers do not necessarily equate with 
capability. We're bringing in forces that are appropriate to deal with 
the evolving threats in Iraq today, including more mobile infantry 
elements. So while the number of U.S. forces may be level or decline 
slightly, this much is certain: the capability of the security forces 
in Iraq will increase.''
    I note that the Army will be replacing the Fourth Infantry 
Division, the Army's most modern, digitized division with its enhanced 
situational awareness, and the 101st Air Assault Division, the Army's 
most mobile division, with its huge fleet of helicopters that are not 
available to other Army divisions. So, I ask if you agree with the 
statement that the replacement units will be more appropriate, more 
mobile, and of greater capability than those being replaced?
    General Schoomaker. The units deploying to Iraq, such as the 1st 
Cavalry Division and the 1st Infantry Division, will be trained and 
organized for the threat they will face and the lessons we have learned 
from our operations thus far. They will bring the correct mix of 
aviation, dismounted, and mounted capabilities for the operating 
environment. For instance, we have found that heavy tanks and other 
tracked vehicles are in some cases too threatening and often lack the 
mobility and flexibility for operations such as those that we are 
conducting in Iraq. So, Operation Iraqi Freedom (OIF) units will be 
using a more appropriate mix of up-armored HMMWVs and armored vehicles 
when they deploy. The two divisions, as well as the Stryker Brigade, 
will also be task-organized with the correct mix of attack, 
reconnaissance, and lift aircraft. This will make them much more 
responsive, mobile, and flexible than the forces there today.
    As I mentioned, we are also sending the first of our Stryker 
Brigades to Iraq. These are infantry-centric formations and benefit 
from armored, mobile, wheeled personnel carriers. They also have much 
greater situational awareness than traditional forces as a result of 
their increased reconnaissance, surveillance, and target acquisition 
elements and systems.
    Many of those same information systems are being fielded to 
deploying units. In fact, 1st Cavalry Division, which is a digital 
division of the same design as 4th Infantry Division, had most of these 
systems already. This will ensure that our forces have better 
situational awareness and will allow them to operate more efficiently 
in a complex and fluid environment.

    22. Senator Levin. General Schoomaker, the Army has chosen to do 
unit rotations in Iraq and Afghanistan, as opposed to individual 
replacements such as in Vietnam, where units and equipment remained for 
years, and individuals rotated on 12 month assignments. While there are 
potential benefits to the unit rotation scheme, particularly with 
respect to unit cohesion, there are also potential disadvantages: 
expertise gained and relationships with Iraqis built over a 12-month 
period are severed abruptly and in a major way as whole units rotate, 
as opposed to less dramatically as individuals rotate; large equipment 
transportation costs are incurred as divisions move from the U.S. to 
Iraq and back again; capabilities are lost, such as when the modern, 
digitized 4th Infantry Division or the huge helicopter fleet of the 
101st Air Assault Division are replaced by less modernized and less 
well-equipped divisions; individual soldiers potentially return from 
Iraq or Afghanistan, only to be reassigned to a unit that is itself 
deploying there shortly. Why do you think the unit rotation plan is 
superior to the alternative? How will you address the disadvantages I 
have cited?
    General Schoomaker. One of the greatest lessons the Army learned 
from Vietnam is that a policy of individual replacement into a combat 
zone corrodes unit cohesiveness, contributes to reduced soldier morale 
and produces significantly less capable fighting formations. An 
important step we can take to preserve the great effectiveness of the 
units we have in the Army today is to create stability in our 
organizations. This includes manning and training our units at their 
home stations and deploying them overseas as a ``team of teams'' that 
can count on a high degree of personnel stability throughout their 
combat tour.
    There are some potential drawbacks to this policy, but our pre-
deployment training regimen and the combatant commander's plans for 
transitioning units once they are in theater will mitigate the risks. 
Units preparing to deploy to Iraq and Afghanistan are undergoing 
extensive training both at home station and at our Combat Training 
Centers. This training is applying the lessons learned from units that 
are currently serving in Iraq to create the most realistic pre-
deployment training environment possible. Once the units arrive in 
theater they will further undergo an integration process that lasts for 
several weeks, including extensive transition time with the units they 
are replacing in Iraq or Afghanistan. This will allow the incoming 
units to acclimate to the environment, get to know their areas of 
operation, and assume critical relationships with the local population 
while the units they are replacing is still there to assist. This 
method of unit replacement has been validated in recent years with 
great success in Haiti, Bosnia, Kosovo, and Afghanistan.
    As you noted, there is a risk of rotating individual soldiers out 
of a unit that just completed an overseas tour and into a unit getting 
ready to deploy. The Army's Human Resource Command is working to ensure 
that the cases of this occurring are kept to an absolute minimum.
    To the issue of capabilities and equipment differences between 
Operation Iraqi Freedom 1 (OIF 1) and OIF 2 units, United States 
Central Command (CENTCOM) and the Army have worked extensively to 
ensure the appropriate capabilities are resident in the units deploying 
to Iraq for OIF 2. For example, although some of the modernized 
equipment and aviation assets of the 4th Infantry and 101st Airborne 
Divisions will redeploy to the United States over the next few months, 
the Army recently deployed a Stryker Brigade Combat Team to Iraq that 
provides an enhanced capability for the combatant commander that he 
didn't have for most of OIF 1.

    23. Senator Levin. General Schoomaker, you have said before that 
you intend to convert the Army from an individual replacement system to 
a unit manning system. At the same time, you have indicated that at 
this time you do not believe that an increase in personnel end strength 
is required. However, it is my understanding that a unit manning system 
is likely to require more soldiers than an individual replacement 
system for a given force structure, because units must be manned above 
normally authorized strength to account for the inevitable personnel 
losses that will occur over time.
    For instance, a recent news report on the experience of A Company, 
Second Battalion, Eight Infantry noted that there were 172 troops on 
the company roster when it entered Iraq in May. By November the company 
had lost nearly one-third of its members to injury, illness, completed 
enlistments, and reassignments, dropping to 118, until replacements 
pushed the number back up to 129. Assuming that A Company's experience 
is typical, and is repeated across the hundreds of company-sized units 
in Iraq, the impact on a unit manning system will be enormous. How do 
you intend to implement a unit manning system and a unit rotation plan 
for Iraq and Afghanistan while keeping Army end strength constant?
    General Schoomaker. Force Stabilization (variant of unit manning) 
is compatible with maintaining constant Army end strength. It will 
allow the Army to best meet its rotation needs by deploying units in 
which the soldier and unit operational cycles are synchronized. There 
are two major deployment manning issues that Force Stabilization 
addresses, combat readiness/soldier non-deployability prior to 
deployment, and combat readiness/attrition during deployment. Current 
individual replacement system (IRS) manned units are built over time 
with staggered soldier arrivals and departures. This results in the 
deployment of units with scheduled turnover of at least 33 percent per 
year, or last minute shuffling of soldiers including plus ups over 
strength authorizations. These required actions are necessitated 
because the peace-time IRS manning system is not compatible with war-
time execution--requiring the breakup of combat crews and destruction 
of unit cohesion prior to combat. Force stabilization virtually 
eliminates these issues by aligning soldier and unit operational cycles 
when units are formed, and by implementing a peacetime manning model 
that seamlessly transitions to war-time execution. This precludes 
shuffling soldiers and breaking up combat crews and teams prior to 
deployments.
    It allows units to deploy at or near their authorized personnel 
strength, minimizing required plus ups and soldier shuffling, resulting 
in more stability and predictability for soldiers and families. Force 
stabilization has the added benefit that all soldiers go through the 
unit training cycle together and therefore are routinely at a higher 
level of combat capability than the individual replacement system units 
of today. The second issue (depletion of personnel strength in a combat 
zone due to injury, illness, completed enlistments, and reassignments) 
is exactly what Force Stabilization implementation will help to 
minimize. We categorize losses as known or unknown. Unknown losses due 
to injury and illness will occur and will require replacements as the 
unit strength falls below predetermined minimum levels regardless of 
the manning method in use (individual or unit). Package replacements 
will continue to be necessary to replace those soldiers suffering 
injury, illness, or death. These package replacements will occur 
periodically rather than continuously and will be provided to the unit 
during unit sustainment periods so new soldiers can be integrated into 
the unit prior to performing an operational mission. Force Stabilized 
units will not incur many of the known losses, and thus the over 
manning you referred to because soldier and unit operational cycles are 
aligned prior to deployment. This will virtually eliminate known losses 
(attrition) and will significantly reduce the turbulence and loss of 
cohesion attributable to conducting major replacement operations in a 
war-time theater of operations.
    Force Stabilization policies and tenets were developed to directly 
address deployment strength and deployment attrition concerns as well 
as a peace-time manning system that seamlessly transitioned to a war-
time footing. By implementing Force Stabilization, the Army can more 
efficiently man units, train soldiers and teams, and rotate units, all 
while staying within current end strength.

                        NON-LINE-OF-SIGHT CANNON

    24. Senator Levin. General Schoomaker, in the National Defense 
Authorization Act for Fiscal Year 2003, Congress directed the Army to 
field a Future Combat System Non-Line-of-Sight (NLOS) Cannon by 2008. 
Congress did so because 2008 was the planned fielding date for the 
Crusader artillery system that the Office of the Secretary of Defense 
had just cancelled, and because General Shinseki, the former Chief of 
Staff, indicated that the Army still had an outstanding requirement for 
an artillery system to replace the Paladin. However, General Shinseki 
emphasized, and the legislation indicated, that the NLOS Cannon would 
be part of the Future Combat Systems a networked system of systems, 18 
in total. I, for one, believed that in general it is not good policy 
for Congress to legislate a fielding date for a major weapons system. 
In fact, it appears now that the Future Combat Systems will not be 
ready for a 2008 fielding, and to insist on fielding the NLOS Cannon in 
2008 may ultimately result in the NLOS Cannon being fielded outside the 
Future Combat System of systems, clearly not what General Shinseki, nor 
Congress, intended. In light of Operation Iraqi Freedom lessons 
learned, how would you prioritize the requirement to replace the 
current Paladin artillery system?
    General Schoomaker. With the lessons learned from Operation Iraqi 
Freedom it is not a priority at this time to replace the current 
Paladin artillery system. With currently funded upgrades, Paladin will 
continue to serve the current force for many years. We must however 
emphasize the importance of NLOS Cannon as part of an integrated Future 
Combat Systems. The NLOS Cannon is an integral part of the system of 
systems and as such, synchronization with the overarching FCS program 
is imperative for achieving the goals of networked lethality, 
survivability, supportability, and affordability.

    25. Senator Levin. General Schoomaker, what is more important: to 
have a NLOS Cannon not later than 2008, or to ensure that NLOS Cannon 
is part of an integrated Future Combat System of systems?
    General Schoomaker. Ensuring that NLOS Cannon is part of an 
integrated Future Combat System of systems is more important.
    The NLOS Cannon is an integral part of the system of systems and as 
such, synchronization with the overarching FCS program is imperative 
for achieving the goals of networking lethality, survivability, 
supportability, and affordability.
    Decoupling NLOS Cannon from FCS development essentially eliminates 
any commonality benefits and efficiencies the Army would receive from a 
Family of Systems development program. Life cycle costs would increase 
because NLOS Cannon would be a unique vehicle. While it is true that 
NLOS Cannon if initially developed separately form the FCS system of 
systems, might eventually be made common with the rest of FCS, the Army 
would have to fund two distinct NLOS Cannon development programs. 
Likewise, attempting to force the FCS program to align with an 
accelerated NLOS Cannon schedule would cause sub-optimization of the 
other systems within FCS. For example, the full design maturity of the 
C\4\ISR network would not support an accelerated NLOS Cannon program.

    26. Senator Levin. General Schoomaker, will you be requesting 
relief from the 2008 fielding date for Future Combat System NLOS Cannon 
in the fiscal year 2005 budget request?
    General Schoomaker. No, we will not seek relief in the 2005 budget 
request.

              MAJOR WEAPONS SYSTEMS VERSUS SOLDIER SYSTEMS

    27. Senator Levin. General Schoomaker, given the shortage of 
Interceptor Body Armor, up-armored HMMWVs and Aircraft Survivability 
Equipment in Iraq, do you believe that the Army has concentrated too 
much on the development and procurement of major weapons systems to the 
neglect of soldier survivability systems? If so, what will you do to 
correct it?
    General Schoomaker. With past programs, the Army worked to 
establish a balance between maintaining the current force and bridging 
to a transformed force. We are constantly reviewing that balance to 
ensure we have it correct. Where appropriate, we have and will continue 
to make adjustments. Based on requirements identified for ongoing 
operations in Afghanistan and Iraq, the Army has made program 
adjustments to provide immediate fielding of Interceptor Body Armor and 
up-armored HMMWVs. We are in the process now of evaluating acceleration 
options of improved aircraft survivability equipment to forward-
deployed aircraft. These specific issues are also being assessed as 
part of two of 17 key focus areas within the Army (specifically soldier 
issues and Army aviation). The Army will continue to seek a balance 
between current and future requirements.

                 PROGRAM UNAFFORDABILITY AND VOLATILITY

    28. Senator Levin. Secretary Brownlee and General Schoomaker, each 
year it seems that the Army tries to improve itself (currently called 
``transformation'') and pursue a number of programs that it cannot 
afford. As a result, a number of programs are started but must be 
limited to a relatively small portion of the Army, or are stretched out 
so far as to be at risk of termination for cost reasons. How would you 
each propose to break this cycle of unaffordability and program 
volatility? Are you taking any current steps in this direction?
    Secretary Brownlee and General Schoomaker. In past programs, the 
Army has made some difficult decisions to terminate or restructure some 
programs in order to free up resources for other critical priorities. 
These decisions were based on a capabilities-based approach. During the 
upcoming POM (fiscal years 2006-2011), the Army will incorporate an 
enhanced capabilities-based review of the Army's Research, Development, 
and Acquisition (RDA) program. This review will team the Army's 
Training and Doctrine Command (TRADOC) and headquarters, Department of 
the Army in order to evaluate the required capabilities for both the 
Current and Future Forces within the context of joint capabilities. 
This review will identify capabilities gaps and trade space within the 
RDA program and will inform program decisions. We will examine 
affordability of programs across the Army and stress fielding of 
capabilities vice materiel solutions.

                              TROOP MORALE

    29-31. Senator Levin. Secretary Brownlee, a few weeks ago, the 
Stars and Stripes newspaper conducted a survey of nearly 2,000 service 
members serving throughout Iraq. Stars and Stripes reported that this 
survey found low morale, insufficient training, jobs that had little or 
nothing to do with training, and lack of a clear definition of mission. 
Many made it clear that they do not plan to reenlist when their service 
is up.
    Dr. David Chu, the Under Secretary of Defense for Personnel and 
Readiness, told the House Armed Services Committee on November 5 that 
66 percent of the reservists in Iraq said they would reenlist; and ABC 
World News Tonight ran a story on Sunday, November 9, stating that 
according to a DOD survey, only 54 percent of the reservists and 
Guardsmen serving in Iraq would reenlist. Based on the reports that you 
receive, how do you characterize the morale of the troops--not of the 
leaders--but of the thousands of troops serving in Iraq?
    What is your reaction to these survey results?
    Is the morale of troops in Afghanistan different than the morale of 
troops in Iraq?
    Secretary Brownlee. Although the Army has sent individuals and 
teams of experts to Iraq and Afghanistan to assess soldier support, 
morale, and living conditions, no formal survey had been conducted. 
Neither were formal surveys conducted in the war zones during the 
Korean Conflict, the Vietnam War, or Operation Desert Storm. Survey 
questionnaires can be distracters for soldiers in a war zone and thus 
create unnecessary security/safety risks. Furthermore, it is difficult 
to obtain scientifically selected samples for surveys in war zones.
    The Stars and Stripes survey implies that the Army will face a 
serious retention problem in the near future. The success of the Army's 
re-enlistment program over the past 5 years indicates that the news is 
not nearly as bad as the Stars and Stripes asserts. The Army believes 
that so long as funds remain available for the Selective Re-enlistment 
Bonus (SRB) program, at the requested levels, it will be able to retain 
soldiers with the requisite skills necessary to maintain readiness. 
Retention rates are often used as a benchmark to measure the success of 
the Army re-enlistment program. Given the historical retention rate for 
initial terms soldiers, it is not surprising to note that as many as 49 
percent of the soldiers surveyed by Stars and Stripes indicated they 
did not plan to re-enlist. The Army staff (G-1) has tasked the Office 
of Economic and Manpower Analysis (OEMA) to develop a predictive model 
that will allow leadership visibility on future retention problems. The 
Well-Being Division of the Headquarters Department of the Army, G-1 
compiled a list of human dimension ``indicators'' of stress on the 
force, with the top indicators being accessions, retention, and morale. 
However, an Operational Stress Framework has been developed that 
correlates operations tempo (OPTEMPO) to the indicators of stress and 
the United States Military Academy (USMA) OEMA is working on a model 
designed to predict stress on the force, given indicator measurements.
    The Army (through its Army Research Institute (ARI)) will be 
conducting surveys and interviews with soldiers to determine career 
intentions, factors that impact them, and potential mitigators. Data 
will be collected from units deployed for Operation Iraqi Freedom and 
Operation Enduring Freedom. For comparative purposes, a control group 
of soldiers who did not deploy will also be surveyed. Findings from 
this study will be used to provide indicators of career intentions and 
determine potential mitigators.
    The Army has taken a proactive approach to identifying and 
correcting problems for all soldiers and family members involved in OIF 
and other contingencies. The Army remains committed to providing the 
very best possible programs to the entire Army family during this 
stressful and turbulent time in our Nation's history.

           MEDICAL CARE AND LIVING CONDITIONS AT FORT STEWART

    32. Senator Levin. Secretary Brownlee, we were appalled to learn 
that hundreds of sick and wounded soldiers, including many who served 
in Operation Iraqi Freedom, were living in substandard conditions and 
waiting months for medical care. I know that you have personally 
visited Fort Stewart to look into this. What were the conditions for 
these sick and wounded soldiers when when you visited Fort Stewart?
    Secretary Brownlee. At the end of October 2003 there were 
approximately 600 Reserve component (RC) soldiers in medical holdover 
(MHO) status at Fort Stewart. Of those present at the time, 406 
deployed overseas in support of either OIF or OEF. The remainder were 
soldiers who did not deploy overseas. Of those present, 15 had been 
WIA. Across the board, their access to medical care was at least as 
good as that for active component soldiers, and well within TRICARE 
Prime standards. Soldiers in MHO status were waiting for acute 
appointments an average of 0.3 days, routine appointments 1.3 days, 
specialty appointments 1.45 days, and wellness appointments an average 
of 11.6 days. The TRICARE Prime access standards for these types of 
appointments are 24 hours, 7 days, 30 days, and 30 days respectively.
    During that time, MHO soldiers were being housed in billets 
normally provided to all mobilizing soldiers whose mission is to train, 
process, and deploy to a theater of operations. Billeting consisted of 
open bay barracks with detached gang latrines leased from the Georgia 
National Guard. Structures were concrete floored, block construction 
with heat. Some buildings were air-conditioned. Barracks were clean and 
well maintained. Soldiers ate in contract dining facilities, some in 
the mobilization area and others with the 3d ID soldiers. Soldiers with 
severe ambulatory conditions or with special environmental 
considerations were billeted in an improved climate controlled 
facility.

    33. Senator Levin. Secretary Brownlee, what changes did you direct 
to address this problem at Fort Stewart?
    Secretary Brownlee. We recognize the concerns of soldiers in a MHO 
status and are addressing these issues. The Army has taken several 
actions to provide appropriate medical care and improved living 
conditions for all soldiers in a MHO status. In November 2003, the Army 
started requiring that all MHO soldiers be housed commensurate to the 
same standard of housing provided to AC soldiers on each installation. 
Soldiers in a MHO status at all Army installations have now been moved 
out of temporary billets into permanent facilities that meet these new 
requirements.
    Even though the MHO soldiers had access to medical care well within 
TRICARE Prime standards, those standards were not sufficient to make 
timely dispositions for this particular group. The Army Surgeon 
General, therefore, mandated enhanced access standards for MHO 
soldiers: any necessary specialty consultations within 72 hours, 
Magnetic Resonance Imaging (MRIs) and other diagnostic studies within 1 
week, surgeries within 2 weeks, and medical evaluation boards processed 
within 30 days. He further directed that each military treatment 
facility would have not less than one nurse case manager for every 50 
MHO patients.

    34. Senator Levin. Secretary Brownlee, what actions have you taken 
to avoid similar problems at other installations treating troops 
returning from combat zones?
    Secretary Brownlee. The access to care standards listed above apply 
to all military treatment facilities caring for MHO soldiers. 
Furthermore, our experience with MHO soldiers allows us to predict how 
many mobilizing and demobilizing soldiers will enter MHO. Based on 
Forces Command troop movement projections, we can forecast how many 
soldiers will be in MHO. We can predict these numbers by installation 
and by specific dates. This allows us to apply site-specific mitigation 
strategies that include use of Navy, Air Force, VA, and civilian 
facilities.
    One of the mitigation strategies being examined is to provide 
health care for many MHO soldiers near their homes through the Army's 
community based health care initiative. This plan calls for the 
National Guard and Reserve to establish community based health care 
organizations (CBHCO) across the Nation that will assume command and 
control, and case management of selected MHO soldiers. When medically 
appropriate, selected soldiers will receive care at or near their homes 
under the auspices of the CBHCOs. This will reduce the requirement for 
MHO soldiers to receive care on military installations.
    The IMA is procuring relocatable facilities for Forts Stewart, 
Bragg, Bliss, Carson, and Hood. IMA, the U.S. Army Corps of Engineer, 
and the Army Contracting Agency are in the process of completing a 
Performance Work Statement. IMA is working through the Army Budget 
Office to ensure funding for the contract is in place. IMA is also 
repairing barracks at Fort Benning, Fort Drum, Camp Atterbury, Fort 
Dix, Fort Eustis, and Aberdeen Proving Grounds.

              MODERNIZATION AND RECAPITALIZATION STRATEGY

    35. Senator Levin. General Schoomaker, because of funding 
constraints, the Army has followed a strategy that limits modernization 
and recapitalization of major weapon and support systems to the two 
divisions, and to some extent the cavalry regiment, of the 
counterattack corps at Fort Hood. However, in Operation Iraqi Freedom, 
none of these more modern units made it to Iraq in time for major 
combat operations. Now, in the stability and support phase, units from 
throughout the active and Reserve components will be rotating to Iraq 
and Afghanistan and engaging in an on-going counter-insurgency 
campaign. In light of these circumstances and Operation Iraqi Freedom 
lessons learned, do you consider that modernization and 
recapitalization strategy to remain valid?
    General Schoomaker. The modernization and recapitalization strategy 
remains valid. You are correct in noting that the Army has reduced 
investments in the current force to more limited modernization and 
recapitalization efforts in order to free up resources to support 
ongoing and planned transformation programs. Most of the combat forces 
assigned to the counterattack corps were not identified by the Central 
Command Combatant Commander as essential for the execution of the 
Operation Iraqi Freedom campaign plan. However, the 4th Infantry 
Division, originally included in the opening phases of the operation, 
was delayed until after the completion of initial hostilities due to 
political constraints. Lessons learned from Iraq have reinforced the 
tenet of balanced modernization as the overall strategy for weighing 
current requirements against the need for an even more ready and 
relevant force tomorrow. This approach provides an essential means for 
implementing the Army's strategic vision of a transformed force for the 
future while still preserving sufficient readiness to meet the 
challenges associated with the prosecution of the war on terrorism. The 
ultimate goal of this strategy is to develop a fully capable force that 
will deliver future readiness at every point on the possible range of 
military operations. This will ensure that the Army remains fully 
capable of performing all missions assigned, while creating the force 
for tomorrow that will meet the operational demands that lie ahead.

                      BRADLEY REACTIVE ARMOR TILES

    36. Senator Levin. General Schoomaker, the Army established a 
requirement for five brigade sets of reactive armor tiles for the 
Bradley Fighting Vehicle and, although the funding was never included 
in the annual budget request, for the last several years Congress has 
appropriated approximately $20 million a year for that purpose. I 
understand that a number of sets were shipped to Kuwait prior to the 
war, but that commanders there decided not to mount the armor prior to 
launching the invasion. It would seem to me that the failure to use the 
tiles in such a threat environment puts the overall requirement in 
serious question. Do you know why the decision was made not to mount 
the reactive armor tiles on the Bradley Fighting Vehicles that attacked 
into Iraq?
    General Schoomaker. The decision not to mount the reactive armor 
tiles on the Bradley Fighting Vehicles was an availability and 
operational decision by the commanders on the ground. Only a limited 
number of the tiles were arriving in theater as the 3rd Infantry 
Division was preparing to attack. Although not privy to the actual 
deliberations, the commander would have decided the issue after an 
analysis of the mission, enemy, terrain, time, and troops available 
(METT-T), which is Army doctrine. Reactive armor tiles are currently in 
use in Iraq, no doubt because of the operational commanders' METT-T 
assessment of the situation. We are completing the installation of the 
initial shipment of 140 sets. On 13 Nov 03, Commander Combined Joint 
Task Force-7 (CJTF-7), through the Coalition Forces Land Component 
Command (CFLCC), requested an additional 160 sets of Bradley reactive 
armor for operations in Iraq. The shipment process for these sets was 
initiated on 14 Nov 03. The shipment is scheduled to depart the U.S. on 
9 Dec 03 and arrive no later than 10 Jan 04. These dates support the 
commander's timeline and both Operation Iraqi Freedom 1 and 2 rotation 
requirements.

    37. Senator Levin. General Schoomaker, do you agree that the 
requirement should be re-examined in light of that decision?
    General Schoomaker. This capability is required by the force to 
counter current and future threats. Reactive armor is designed to 
enhance a ground vehicle's survivability at a minimum of weight and 
cost and provides the combatant commander the tactically flexible 
capability to increase force protection. The modularity and high mass 
efficiency of reactive armor has enabled these vehicles to be capable 
of effectively defeating shaped-charge warheads and other anti-armor 
threats without significant increases in weight and cost. The Army will 
review this requirement as part of the OIF lessons learned process.

    38. Senator Levin. General Schoomaker, do you see a place for 
reactive armor, given the danger it presents to our dismounted troops, 
in an infantry-centric force such as that to which the U.S. Army is 
evolving?
    General Schoomaker. Explosive Reactive Armor is the most effective 
proven technology to defeat both chemical-energy and kinetic-energy 
threats. The reactive armor activates when exposed to a specific heat/
pressure combination does present a ``High Risk'' hazard to unprotected 
personnel. However, recent testing has shown that the threat to 
civilians and dismounted soldiers is limited to a small area outside 
the vehicle.

    39. Senator Levin. General Schoomaker, do you see a similar 
potential problem in relying on active protection systems, which may 
also present a danger to dismounted troops, in the infantry-centric 
Future Force?
    General Schoomaker. Reactive armor is a current requirement for the 
Future Combat System. The Army will continue to invest in new armor 
designs, featuring more advanced reactive and passive materials and 
more effective geometries, that will enable the development of combat 
vehicles that can be tailored to meet advanced threats (such as 
hypervelocity kinetic-energy penetrators, tandem shaped charge 
warheads, and precursors) while being kept at acceptable gross weights.

    ACTIVE AND RESERVE COMPONENT ROLES, MISSIONS AND FORCE STRUCTURE

    40. Senator Levin. General Schoomaker, in light of Iraq and 
Afghanistan lessons learned, what changes do you recommend to active 
and Reserve component roles, missions, and force structure?
    General Schoomaker. Component roles and missions are satisfactory. 
However, the structure and function of our Armed Forces will continue 
to evolve to better align with our defense strategy. The Army is 
undergoing large scale rebalancing actions to increase capabilities for 
the early stages of a conflict while providing force structure to 
defend the homeland and maintain the force depth needed to support 
ongoing rotational requirements. The Army is improving joint and 
expeditionary capabilities to enhance strategic responsiveness by 
creating modular forces that are more flexible and adaptable to conduct 
the full range of missions across the entire spectrum of conflict. 
Operations in Iraq and Afghanistan highlight the need to continue 
adjusting the number and type of capabilities in our military. The most 
important force structure changes will continue relieving stress on our 
high demand units to reduce the frequency and duration of deployments 
and spread these burdens more equitably.

                        IRAQI ``KATUSA'' PROGRAM

    41. Senator Levin. General Schoomaker, I understand that there is a 
program in Korea called the Korean Augmentation to the U.S. Army 
(KATUSA) where individual Republic of Korea soldiers are integrated 
into U.S. units in any number of positions that would normally be 
filled by a U.S. soldier. This program was begun during the Korean War. 
Do you believe that such a program would have merit in Iraq today?
    General Schoomaker. The KATUSA program began in July 1950 as a way 
to augment understrength U.S. units after the outbreak of war in June 
1950. The situation in Iraq is significantly different than the early 
months of the Korean War. U.S. units deploying to Iraq are at full 
strength and do not need augmentation. Additionally, the KATUSA program 
was able to draw upon soldiers in the Republic of Korea Army. If this 
program were instituted in Iraq it could undermine current efforts to 
rebuild the Iraqi Army by diverting potential Iraqi soldiers to U.S. 
units. While there may be some benefit to integrating a small number of 
Iraqis into U.S. units to provide language and cultural expertise, this 
decision should be made by the combatant commander, General Abizaid, 
and the commander in Iraq, Lieutenant General Sanchez.

                  SPECTRUM INTERFERENCE AND FRATRICIDE

    42. Senator Levin. General Schoomaker, during the recent war in 
Iraq, Patriot anti-missile batteries mistakenly attacked and downed two 
coalition aircraft. Although the Army has yet to release its findings 
regarding the cause of these incidents, some experts believe that 
electromagnetic interference may have caused the Patriots to 
malfunction, mistaking the friendly aircraft for incoming missiles. 
Unfortunately, electromagnetic interference was also the cause of a 
number of Patriot misfires during the first Gulf War in 1991.
    Given the increasing dependence on networks, wireless 
communications, and the number of military systems that make use of 
electromagnetic spectrum, examination of this issue should be a high 
priority. For example, a report by the Center for Army Lessons Learned 
indicated that ``the Hunter Unmanned Aerial Vehicle (UAV) system sat 
idle in theater for the first 30 days waiting on operational 
frequencies.'' To your knowledge, how many other instances of such 
electromagnetic interference ``malfunctions'' occurred during the war 
in Iraq?
    General Schoomaker. To my knowledge, the cause(s) of the incidents 
with the Patriot system have not been attributed specifically to 
electromagnetic interference (EMI). It may never be known exactly what 
role EMI may have played in one of the friendly fire incidents. 
However, there were reported incidents of interference during the 
deployment and operational phases of OIF that may have been a 
contributing factor to the inability to initially operate the Hunter 
UAV. As a result of the high density of systems operating in shared 
frequency bands located in the confined staging area, an increase in 
the amount of interference was observed. To minimize the extent of the 
interference, the decision was made to closely schedule when the Hunter 
UAV could operate while still in the staging area. It is clear that we 
must continue to keep as a high priority our efforts to mitigate the 
effects of EMI. We have processes and procedures to do frequency 
management. However, the increasing volume of users of the 
electromagnetic spectrum necessitates more dynamic and robust testing 
as well as better methods of deconfliction across the joint force.

    43. Senator Levin. General Schoomaker, how will the procedures for 
managing the use of spectrum be improved to prevent future incidents 
such as occurred with Patriot?
    General Schoomaker. As you have stated the use of the 
electromagnetic spectrum is becoming more and more prevalent on the 
modern battlefield and the tools and techniques we use must be updated 
to keep up with the future demand. The use of the electromagnetic 
spectrum is shared by all the military services, which is why any 
solution must be a joint solution. This is why DISA/Joint Spectrum 
Center, (under the direction of the Joint Staff and OASD NII), is 
defining the requirements for a system to evolve the management of the 
spectrum in Joint as well as coalition military operations. These 
requirements will be introduced into the Joint Requirements Oversight 
Council process to validate the requirements and assign an acquisition 
agent. This system is envisioned to enable the dynamic management of 
the electromagnetic battlefield.

    44. Senator Levin. General Schoomaker, what procedures does the 
Army have in place to de-conflict spectrum usage by U.S. and coalition 
systems on the battlefield?
    General Schoomaker. The current procedures to de-conflict coalition 
spectrum usage by U.S. and coalition forces on the battlefield resides 
at the joint level in a database maintained by the combatant commander 
(COCOM) or Coalition Joint Task Force (CJTF). This database is made up 
of frequency records submitted through the chain of command to a 
central repository. Current DOD policy mandates that all systems that 
transmit must be registered in this database. The database is accurate 
to the point that the user of a piece of equipment submits a request to 
operate on specific frequencies. There is currently no system that 
prevents a user from transmitting without registering the frequencies 
that system transmits on.

                         LANDMINE ALTERNATIVES

    45. Senator Levin. General Schoomaker, the Army and DARPA have 
invested significant resources in the development of anti-personnel 
landmine alternatives, including initiating work on the Intelligent 
Munitions System, the next generation landmine component of Future 
Combat Systems. In the Fiscal Year 2003 Defense Appropriations 
Conference Report, the conferees directed that ``. . . the Army clearly 
define the requirements for a next generation intelligent minefield and 
ensure compliance with the Ottawa Treaty. . .'' What is the status of 
the development of these requirements?
    General Schoomaker. Senator, we are very early in the development 
of the Intelligent Munitions System (IMS), which is a core system of 
the Future Combat Systems (FCS) Program. As of April 2003, the 
requirements for IMS had been sufficiently developed to include them in 
the Joint Requirements Oversight Council (JROC)-approved FCS 
Operational Requirements Document (ORD). According to these documented 
and approved requirements, the IMS must provide unmanned ground sensors 
linked to lethal/non-lethal scalable effects components via integrated 
and robust command and control systems, all of which maybe emplaced by 
multiple delivery means. As envisioned, WS will support many functions 
and missions including intelligence, surveillance, and reconnaissance 
(ISR), maneuver, and direct and indirect fires throughout the spectrum 
of operations. IMS will be an integrated munitions system fully 
controllable by our forces.

    46. Senator Levin. General Schoomaker, will the Intelligent 
Munitions System as currently envisioned be compliant with the Ottawa 
Treaty?
    General Schoomaker. Senator, as you know, the United States is not 
a states party to the Ottawa Convention and, therefore, the Ottawa 
Convention does not determine our warfighter requirements. All 
components of IMS will comply with the Amended Mines Protocol of the 
Convention on Certain Conventional Weapons that the United States has 
ratified. The robust command and control system of the IMS will allow 
us to employ IMS in a variety of modes, some of which may coincide with 
the provisions of the Ottawa Convention.

    47. Senator Levin. General Schoomaker, what lessons learned can be 
drawn from operations in Iraq and Afghanistan regarding the need for 
antipersonnel and anti-vehicle landmines?
    General Schoomaker. Senator, we are still compiling the lessons 
learned from Afghanistan and Iraq. Because of the unique character of 
these conflicts and the incomplete nature of our lessons learned 
efforts, it would be premature at this time to draw definitive 
conclusions about the employment of ground-emplaced munitions in OIF 
and OEF, or about the military utility of these munitions in future 
conflicts. However, I can say that thus far, there is no indication 
that ground-emplaced munitions are either obsolete or superfluous. 
Although certainly not employed in every combat operation or situation, 
ground-emplaced munitions continue to offer unique and desirable 
battlefield effects to tactical commanders. Ground-emplaced munitions 
enable commanders to shape the battlefield to their advantage by 
denying the enemy freedom of maneuver, protecting our forces, enhancing 
the effectiveness of other weapon systems, and acting as a ``force 
multiplier'' by allowing us to fight with fewer forces. No other weapon 
provides the same combination of capabilities, as do ground-emplaced 
munitions. During the recent U.S. policy review, the combatant 
commanders reaffirmed the continuing need for the capabilities 
currently provided by landmines, especially those that incorporate 
self-destructing/self-deactivating technologies.

                       COMMERCIAL SATELLITE USAGE

    48. Senator Levin. General Schoomaker, during operations in Iraq, 
commanders made significant use of leased commercial satellite 
capabilities to ensure adequate communications between mobile units, 
command posts, and fixed installations in theater. Were there any 
indications that communications over commercial satellites were less 
reliable or secure than those over military channels? If so, what were 
those indications?
    General Schoomaker. The U.S. demand for bandwidth during a military 
contingency has almost always been underestimated. The Army relies 
heavily on commercial satellite capacity today, and will continue to 
augment the available military SATCOM capability with commercial assets 
in the future. While there were no specific reliability or security 
issues associated with Army communications over commercial satellites 
in Iraq--dependence creates risk. In the case of commercial 
communications capacity, the risk of a denial of service, through 
adversary or availability, is among the most important. In addition, in 
some cases, the Army shares commercial satellites and/or channels with 
our adversaries, which could potentially limit our offensive 
opportunities.

    49. Senator Levin. General Schoomaker, if there were problems, how 
do you plan to deal with them? Would that involve shifting reliance 
away from commercial satellites?
    General Schoomaker. Commercial satellites cannot be relied on 
solely to support the Army's Beyond Line-of-Sight (BLOS) requirements 
because the commercial satellite market fluctuates and provides no 
guarantees of availability. Future military SATCOM system will allow 
more of the Army's current requirements to be supported with less 
reliance on commercial, and be capable of supporting the Army's 
requirements for protected tactical communications and communications 
on-the-move (COTM). Focusing on military SATCOM will ensure the Army 
obtains the most robust communications; controls the management and 
security of the assets; assures inter- and intra-theater connectivity 
among troop sites and homestation security; maximizes the use of DOD 
investments, while continuing to augment available military SATCOM 
capacity with commercial satellites. 

                      ARMY BANDWIDTH REQUIREMENTS

    50. Senator Levin. General Schoomaker, the Army is developing new 
systems that will require the passing of huge quantities of information 
including sensor data, imagery from UAVs, and information from the 
intelligence community, over battlefield communications networks. 
Operations in Iraq and Afghanistan have confirmed our increasing 
reliance on instantaneous communications and data transmission, as well 
as its ability to greatly enhance our combat effectiveness.
    In recent testimony to the House Armed Services Committee, General 
Dennis Moran (Director of Army Information Operations, Networks, and 
Space and Central Command (CENTCOM) Command, Control and Communications 
Director (J-6)) indicated that ``there simply was not enough bandwidth 
at all levels of command to give the warfighters at the . . . brigade 
level--the kinds of information they needed to be more effective.''
    The Congressional Budget Office (CBO) recently concluded in a study 
on Army bandwidth issues that ``. . . at all levels of command within 
the Army, the current demand for bandwidth is larger than the supply.'' 
It goes on to indicate that even after a planned $20 billion investment 
in new networks and communications systems, ``. . . the Army will fall 
short of its goals at certain command levels by an order of 
magnitude.'' Do you agree with the CBO's conclusions that Army 
technology investments will still result in a shortfall of needed 
bandwidth for communications systems?
    General Schoomaker. The Task Force Network recommended development 
and fielding of battle command capabilities to leverage and enable 
interdependent network centric warfare within joint, interagency, and 
multinational full spectrum operations. We need to bring future 
capabilities to the force today using COTS as a bridge. In the near 
term, the Army will procure more commercial satellite bandwidth while 
investing in improved standards and technologies for the mid- to long-
term. Also, the Army will transition to more capable, next-generation 
DOD satellites as they are launched and put into operation. The Army's 
future tactical information transport systems such as WIN-T, JTRS, and 
FCS are being designed to meet the needs of projected bandwidth 
requirements. These new systems will start arriving in Army units in 
fiscal year 2008.

    51. Senator Levin. General Schoomaker, what technologies are being 
developed to address these issues?
    General Schoomaker. By applying network operations technologies, 
including integrated network management, information assurance and 
information dissemination management, internet protocol-based systems, 
data compression, and dynamic spectrum management, future force systems 
will be able to efficiently plan, configure and control the network. In 
addition, software-defined radios, unmanned aerial vehicles with 
communications relay payloads, the Wideband Gapfiller Satellite 
constellation, Time Division Multiple Access techniques, surrogate 
satellites and advanced antenna and amplifier technologies will help 
provide future force systems with a multi-tiered, self configuring 
network.

    52. Senator Levin. General Schoomaker, what else can be done to 
ensure the most efficient use of our available bandwidth and ensure 
that our warfighters can make the best use of our advanced networks and 
communication systems?
    General Schoomaker. The Army will work with DOD in jointly defining 
the standards and protocols to guide development of all information 
applications and transport systems of our future joint network. The 
Army's future applications and transport systems must be fully nested 
in joint architectures that are tactically focused. We must also 
develop a comprehensive spectrum/frequency management tool to replace 
the multiple systems used today with one tool that can efficiently 
assign, deconflict and control the limited electromagnetic spectrum 
allocated for DOD use.

                     SCIENCE AND TECHNOLOGY ISSUES

    53. Senator Levin. General Schoomaker, how will the lessons learned 
in Iraq be transformed into goals and investments in the Army science 
and technology program?
    General Schoomaker. Lessons learned from all Army operations are 
gathered by the Center for Army Lessons Learned (CALL), part of the 
Army's Training and Doctrine Command (TRADOC). Part of TRADOC's role as 
a key participant in the Army's science and technology (S&T) investment 
planning process is to ensure lessons learned are addressed in deciding 
S&T investment priorities. TRADOC has a process called ``gap analysis'' 
that examines current and future needs, assesses ongoing S&T from many 
sources to determine if relevant efforts are underway, and prioritizes 
``gaps'' in S&T that need to be addressed to provide requisite 
capabilities.
    While retaining a balanced S&T investment strategy, the Army has 
focused critical S&T investments on accelerating the transition of 
proven technologies to warfighters. Past S&T successes already deployed 
to warfighters in Afghanistan and Iraq include: Chitosan bandages to 
reduce soldier bleeding; Interceptor Body Armor; Forward Area Language 
Convertor (FALCon); and Laser Neutralization System for Unexploded 
Ordnance (ZEUS).
    The S&T investments in support of current operations include 
developing and improving bar armor for high mobility multi-wheeled 
vehicles (HMMWVs) to protect crews from rocket propelled grenade (RPG) 
attacks as well as small arms fire and electronic warfare (EW) 
solutions to prevent the enemy from being able to use improvised 
explosive devices (IEDs).

    54. Senator Levin. General Schoomaker, were there any specific 
areas that you believe will require technological innovation to improve 
Army capabilities and meet deficiencies experienced during current 
operations?
    General Schoomaker. There are numerous challenges facing us in the 
current war environment that require our current systems to perform 
tasks for which they were not originally intended. The good news is 
that for the past few years in focusing on and planning for the Future 
Combat Systems, we have been maturing and developing a number of 
innovative technologies that will improve or significantly enhance the 
capabilities of our ground forces. I have asked the Army research and 
development (R&D) community to take a hard look at these Future Force 
innovative technologies and begin to bring them forward to enhance the 
capabilities and meet deficiencies in the current force. Let me give 
you two examples.
    HMMWVs and other light tactical vehicles have proven very useful in 
many roles in the current conflict. However, the majority of the HMMWVs 
in the Army's inventory do not provide ballistic or mine blast 
protection. These vehicles were not originally intended for use in some 
of the roles and missions they currently serve and thus do not have the 
protection levels of heavy combat vehicles. We can, and have, armored 
some portion of the non up-armored HMMWV fleet. The design of these 
light, agile vehicles makes it impossible to use conventional slabs of 
steel armor to enhance survivability because the weight burden exceeds 
the limits of the drive train and suspension. Therefore an expedient 
solution has been developed in which Army scientists and engineers 
designed a lightweight add on armor kit to protect crews from small 
arms fire. The added on armor solution is being built in our depots and 
supplied as fast as we can in kit form to Iraq today. A novel 
configuration of slat armor (steel bars) was also developed that can be 
added to the doors of the HMMWVs to further increase the crew 
survivability from a direct RPG attack on the crew compartment. The 
slat armor only protects against RPG threat and not road side 
Improvised Explosive Devices (IEDs). Several prototype slat armor kits 
have been sent to Iraq for evaluation.
    Another example is Interceptor Body Armor for individual soldiers. 
Interceptor Body Armor is a modular, multi-threat body armor using an 
Outer Tactical Vest (OTV) and Small Arms Protective Insert (SAPI) 
plates. The OTV is made from Kevlar advanced high performance fibers. 
The SAPI plate is a lightweight ceramic backed by Spectra composites 
and wrapped with a nylon fabric. This system is responsible for saving 
the lives of many of our soldiers, both in Afghanistan and in Iraq. Our 
researchers are currently exploring newer versions of these materials 
that will provide the same protection at a lower weight, reducing the 
load on our soldiers.

                       ACTIVE PROTECTION SYSTEMS

    55. Senator Levin. General Schoomaker, I understand the Army is 
developing active protection technologies that could provide ground and 
air vehicles a measure of defense against extremely close-in attacks, 
for example from RPGs. What is the status of the development of these 
active protection technologies?
    General Schoomaker. Army S&T is working on two Active Protection 
System (APS) approaches to address the close-in threats.
    (1) The Close-In Active Protection System (CIAPS) uses a 
centralized radar to track the incoming rounds and provides 360 degree 
azimuth, 50-meter elevation coverage. CIAPS is effective against Anti-
Tank Guided Missiles (ATGMs) and RPGs, intercepting these threats 
within several meters of the vehicle on which the system is mounted. A 
pre-prototype CIAPS, mounted on a light armored vehicle, is currently 
being tested and has successfully intercepted live RPGs in range 
testing. The current system was designed for combat vehicles and, at 
1,500 pounds, is too heavy for mounting on a HMMWV. A development 
effort would be needed to reduce the CIAPS system to less than 840 
pounds for incorporation on standard HMMWVs, in conjunction with 
lightweight armor or on air vehicles such as helicopters (although 
there is no assurance that this technology can be safely employed in 
aircraft).
    (2) Full Spectrum Close-In Active Protection System (FCLAS) uses an 
autonomous radar, digital signal processor, explosives and a 
countermeasure integrated in a small, self-contained interceptor round 
that may load into either a smoke tube or specially designed tube. 
Unlike CIAPS, FCLAS does not rely on a centralized radar system. Each 
FCLAS munition conducts surveillance, acquires the target, tracks the 
threat, launches, fuses, and detonates the countermeasure to defeat 
incoming threats within a few meters of the vehicle on which the system 
is mounted. Although a variation of FCLAS for air vehicles has been 
considered, there is no assurance that this technology can be safely 
employed in that application. At this time, only component level tests 
have been completed and the components have not been integrated into 
the countermunition. 

    56. Senator Levin. General Schoomaker, what is the investment plan 
for these systems?
    General Schoomaker. These APS programs are still in their infancy 
(i.e., emerging technologies versus fieldable systems); therefore our 
investments in them are in S&T accounts. In addition to the technical 
maturation and engineering required to make APS small, lightweight, 
rugged, reliable, and integratable onto existing platforms, there are 
operational issues that must be addressed. One major consideration is 
the potential for serious damage to personnel and materiel in the 
vicinity of the APS intercept of the threat munition. The Army must 
carefully weigh the advantages of the protection that these APS 
solutions offer for ground vehicles against the consequences of the 
residual effects, especially the risks to our dismounted troops and 
other vehicles in our formations.

    57. Senator Levin. General Schoomaker, what is the strategy and 
schedule for testing and deploying these systems?
    General Schoomaker. As I have indicated, a lot of work is needed to 
spiral back this APS technology into the current force. We are looking 
at what could be done to accelerate these efforts, both from a 
technical/engineering perspective as well as cost. However, before we 
commit to any strategy for developing and deploying APS, we must 
develop confidence in the performance and the tactics, techniques, and 
procedures to ensure that the risks to personnel and materiel are 
manageable. Until these issues are resolved, it is premature to commit 
System Development and Demonstration and Procurement funds for either 
FCLAS or CIAPS.

    [Whereupon, at 11:50 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
